<html>
<title> - CORAL REEF CONSERVATION AND THE REAUTHORIZATION OF THE NATIONAL MARINE SANCTUARIES ACT</title>
<body><pre>[Senate Hearing 106-1041]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1041

                    CORAL REEF CONSERVATION AND THE 
                    REAUTHORIZATION OF THE NATIONAL 
                         MARINE SANCTUARIES ACT

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 30, 1999

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


73-056              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Staff Director
                  Martha P. Allbright, General Counsel
     Ivan A. Schlager, Democratic Chief Counsel and Staff Director
               Kevin D. Kayes, Democratic General Counsel
                                 ------                                

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                   OLYMPIA J. SNOWE, Maine, Chairman
TED STEVENS, Alaska                  JOHN F. KERRY, Massachusetts
SLADE GORTON, Washington             DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN B. BREAUX, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held June 30, 1999.......................................     1
Statement of Senator Breaux......................................     7
    Prepared statement...........................................     7
Prepared statement and letters of support submitted by Senator 
  Inouye.........................................................     8
Statement of Senator Kerry.......................................     4
    Prepared statement...........................................     5
Statement of Senator Snowe.......................................     1
Statement of Senator Stevens.....................................     3

                               Witnesses

Collins, Michael S., Fishing Guide, Islamorada, Florida..........    82
Conner, Michael S., Ph.D., Vice President, for Programs and 
  Exhibits, New England Aquarium, Central Wharf, Boston 
  Massachusetts..................................................    84
    Prepared statement...........................................    86
Cooper, C. Renee, Executive Director, Caribbean Marine Research 
  Center.........................................................    60
    Prepared statement and attachments...........................    61
Dustan, Phillip, Ph.D., Science Advisor, The Cousteau Society....    67
    Prepared statement and attachments...........................    71
Hunter, Cynthia, Ph.D., Curator, Waikiki Aquarium, University of 
  Hawaii.........................................................    79
    Prepared statement...........................................    81
Yozell, Sally, Deputy Assistant Secretary, of Commerce for Oceans 
  and Atmosphere, U.S. Department of Commerce; accompanied by: 
  Michael P. Crosby, Ph.D., Science Advisory Board, National 
  Oceanic and Atmospheric Administration, U.S. Department of 
  Commerce; and Ed Lindelof, Acting Manager, Gerry E. Studds 
  Stellwagen Bank National Marine Sanctuary, NOAA................    19
    Prepared statement...........................................    20
    Administration's bill........................................    27

                                Appendix

Center for Marine Conservation, The Marine Conservation Biology 
  Institute, American Oceans Campaign, The Environmental Defense 
  Fund and World Wildlife Fund, on National Marine Sanctuaries 
  and Coral Reefs, joint prepared statement......................   114
Colwell, Stephen, Executive Director, Coral Reef Aliance (CORAL), 
  Director of the International Coral Reef Action Network (ICRAN) 
  Public Awareness Program, and Member of the International Coral 
  Reef Initiative (ICRI) Coordinating and Planning Committee, 
  prepared statement.............................................   113
Graham, Bob, U.S. Senator from Florida, prepared statement.......    99
Harrison, Debra S., AICP, Florida Keys Director, World Wildlife 
  Fund, prepared statement.......................................   118
Raney, Dave, Volunteer Member, Sierra Club's National Marine 
  Wildlife and Habitat Committee, who heads the Club's Coral Reef 
  Working Group, prepared testimony..............................   112
Response to Written Question submitted by Hon. Max Cleland to:
    Sally Yozell.................................................   100
Response to Written Question submitted by Hon. John F. Kerry to:
    Sally Yozell.................................................   100
Response to Written Questions submitted by Hon. Olympia J. Snowe 
  to:
    Sally Yozell.................................................   101
Williams, Nora, Monroe County Commissioner, Monroe County, 
  Florida, letter and prepared testimony.........................   117

 
                    CORAL REEF CONSERVATION AND THE 
                    REAUTHORIZATION OF THE NATIONAL 
                         MARINE SANCTUARIES ACT

                              ----------                              


                        WEDNESDAY, JUNE 30, 1999

                                       U.S. Senate,
                      Subcommittee on Oceans and Fisheries,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Olympia J. 
Snowe, Chairman, presiding.
    Staff members assigned to this hearing: Sloan Rappoport, 
Republican counsel and Stephanie Bailenson, Republican 
professional staff; and Margaret Spring, Democratic senior 
counsel.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. The hearing will come to order.
    Before I begin, I would like to welcome the witnesses and 
others in attendance today for this hearing. I thank you all 
for coming.
    At today's hearing we will be exploring coral reef 
conservation issues and matters relating to the reauthorization 
of the National Marine Sanctuaries Act. There is wide agreement 
that coral reefs are in decline. Today we will be addressing 
the status of coral reefs and what can be done to reverse this 
decline. We will also be hearing about the need to conserve our 
marine resources through the use of national marine 
sanctuaries. The successes and shortcomings of this program, as 
well as ways to improve it, will also be addressed by several 
of our witnesses.
    First let me say a few words about coral reefs. They are 
perhaps one of the world's most biologically diverse and 
productive ecosystems. Coral reefs serve as essential habitat 
for many living marine creatures, enhancing commercial 
fisheries and stimulating tourism. They provide protection to 
coastal areas from storm surges and erosion and offer many 
untold potential benefits. For example, new drugs to fight 
cancer are currently being developed as a result of coral-
related research.
    Unfortunately, coral reef ecosystems are in decline. In 
1998 coral reefs around the world appear to have suffered the 
most severe bleaching event in modern times. You can see what a 
bleached coral looks like in the poster that is to my left. 
There is a stark contrast between the healthy coral in the 
foreground and the bleached coral in the background.
    Last year, reefs in at least 60 countries were affected and 
in some areas more than 70 percent of these corals died. These 
impacts have been attributed to the warmest ocean temperatures 
in 600 years. The repercussions of the 1998 event will be far-
reaching in time and in economic impact.
    It has also been estimated that 58 percent of the world's 
reefs are threatened by human activities, such as inappropriate 
coastal development and destructive fishing practices. As a 
result of these various pressures, coral reef habitats have 
been damaged and in some cases destroyed. Further, coral 
diseases are expanding rapidly. An example is one coral 
disease, black band disease, which also can be seen on this 
graph to my left. Like most of the diseases currently being 
studied, the causes are not widely understood.
    These serious problems highlight the need for better 
conservation and improved management. Unfortunately, the United 
States has not been immune to these problems. We have large 
coral reef systems off the coast of Texas, Florida, Hawaii, and 
various U.S. territories in the Caribbean and the Pacific. 
These reefs produce significant economic benefits for their 
surrounding communities. In Senator Inouye's home State of 
Hawaii, for example, the reefs contribute approximately $1.13 
billion annually to the State economy.
    On March 25, 1999, I introduced along with Senator McCain, 
the full Committee Chairman, the Coral Reef Conservation Act of 
1999, S. 725, as an attempt to remedy these serious problems. 
This bill is a realistic and responsible measure which 
addresses the most urgent coral reef conservation needs.
    This bill authorizes $3.8 million in each of the next three 
fiscal years for a coral reef conservation program at NOAA. 
This program will provide conservation and research grants to 
States, U.S. territories, and qualified nongovernmental 
entities. Eligible projects will focus on the type of local 
conservation measures that have been called for by the 
international community of coral reef scientists and managers 
as part of the International Coral Reef Initiative's renewed 
call to action. This call is echoed in the U.S. Coral Reef Task 
Force's Islands Initiative.
    The bill also authorizes NOAA to enter into an agreement 
with a qualified nongovernmental organization to create a coral 
reef trust fund that will match Federal funds with private 
contributions to provide additional money for worthy 
conservation and research projects. The public-private 
partnership envisioned by this bill will maximize Federal 
dollars and increase the overall funding of coral reef 
conservation projects in a responsible manner. This will help 
to ensure the longevity of any project and aid local entities 
in building the necessary capacity to carry out continued 
conservation efforts.
    In addition, this bill authorizes $200,000 in each of the 
next three fiscal years for emergency assistance to address 
unforeseen or disaster-related problems pertaining to coral 
reefs, such as hurricanes and typhoons. One mechanism currently 
being used by the Federal Government to protect coral reefs and 
many other important marine resources is the national marine 
sanctuaries program. 100 years after the first national park 
was created, the U.S. made a similar commitment to preserving 
its valuable marine resources by establishing the national 
marine sanctuaries program in 1972.
    Since then 12 areas covering a wide range of marine 
habitats have been designated as national marine sanctuaries. 
Again, on my left you can see in the chart the distribution of 
designated sanctuaries. Half of these designations have 
occurred in the last decade.
    Today our marine sanctuaries encompass everything from 
marine mammal nursery grounds to underwater archaeological 
sites. Together these sanctuaries protect nearly 18,000 square 
miles of ocean waters, an area nearly the size of Vermont and 
New Hampshire combined.
    Acting as a platform for better ocean stewardship, these 
sanctuaries offer an opportunity for research, outreach, and 
educational activities. These national marine sanctuaries are 
also a model for multiple use management in the marine 
environment. Obviously, balancing the protection of public 
resources with fostering economic activities requires the 
cooperative efforts of Federal, State, and local government, as 
well as nongovernmental organizations and the public. There are 
many of these partnerships working together within the national 
marine sanctuaries program.
    One of these sanctuaries is located off the coast of 
Senator Kerry's State--good timing--of Massachusetts in the 
Gulf of Maine. The Stellwagen Bank National Marine Sanctuary 
Program provides feeding and nursery grounds for more than a 
dozen marine mammal species. This has led to the development of 
a thriving whale-watching tourist trade. The area also supports 
important commercial fisheries for lobster, bluefin tuna, cod, 
and others. Historic data also strongly suggest the presence of 
several shipwrecks within the sanctuaries.
    Today commercial shipping lanes still exist through the 
sanctuary. Through careful management and cooperation, all of 
these diverse uses coexist in a national marine sanctuary while 
providing protection to the marine resources. This is just one 
example of the diverse management opportunities available 
within the system. I look forward to hearing of more examples 
this afternoon.
    The National Marine Sanctuaries Act expires at the end of 
this current fiscal year. The 1999 reauthorization of the act, 
coupled with the Coral Reef Conservation Act, will provide a 
vision for marine resource protection that will shape policy 
decisions well into the next century.
    We have assembled an excellent slate of witnesses to advise 
the committee on the best course of action. I am very pleased 
that all of you could be here today to tell us not only what 
needs to be done to protect the Nation's marine resources, but 
also the very serious costs that will result from not 
protecting them. I look forward to your testimony here today.
    Senator Kerry.
    Senator Kerry. I would be delighted to let Senator Stevens 
go if he wants to.
    Senator Snowe. Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. No, thank you.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Well, Madam Chairwoman, thank you very much 
for having this hearing. I certainly welcome our 
representatives here to discuss this issue. I appreciate 
enormously your concern and the Committee's concern about this 
issue. Needless to say, all of us serve on this Committee 
because we are deeply committed to the linkage of our States to 
the ocean and to the water bodies that are linked to us.
    For two of us, the Atlantic is our home. Both of our 
States, Maine and Massachusetts, and obviously the rest of our 
colleagues in the New England area, depend enormously on that 
linkage. Senator Stevens has the same concerns. His population 
has lived off the sea for years, and set a huge example for all 
of us about the connection between our States and the ocean. I 
know that he, as ranking member, as chairperson of the 
Subcommittee from time to time, and in his role on the 
Appropriations Committee, labors hard to assist us to put the 
appropriate resources where they ought to be.
    This discussion today is part of a larger mosaic that 
concerns all of us: the overall protection that we are 
affording to the ecosystem within the ocean and the benefits 
that the ocean represents to us. The National Marine 
Sanctuaries Act itself is one component of that, and it 
provides a unique coastal habitat protection effort and 
encourages natural resource management. I think the Act has 
done this pretty competently and pretty effectively, though 
since the time when I was chairman of this subcommittee we have 
been fighting for resources. That has been the long fight.
    This is not like some other programs that we fund. Although 
nearly all funding mistakes have measurable negative 
consequences, the negative consequences that come with our lack 
of sufficient effort with respect to habitat protection and 
living marine resource management are too often irreversible. 
The consequences of--anybody who is a neutral observer of the 
journey we are on cannot help but conclude that, rather than 
gaining ground as we think we ought to be, we are still losing 
ground.
    We need to be deeply, deeply concerned about that. There 
are great examples, such as the lobster catch, the striped bass 
in Massachusetts, and other efforts, where we have really shut 
down, been smart, conserved, and brought back the capacity of 
the fish stocks.
    However, there are other examples today where species are 
almost extinct or habitat is almost so destroyed, such as coral 
reefs and the dead zones down where our colleague from 
Louisiana comes from. I think these areas need greater focus.
    We in Massachusetts are blessed to have about a million 
people a year come now to enjoy the Studds Stellwagen Bank 
National Marine Sanctuary, which sustains humpback whales, 
right whales, and commercial species. It has entered into a 
wonderful partnership with the New England Aquarium to enhance 
our understanding of those natural systems and to educate the 
public. That is the kind of partnership that I think we should 
be encouraging and leveraging on a broader basis.
    We will hear today from Mike Connor about that, and we will 
realize the ways in which we have only just begun to really 
enjoy the benefits of this kind of education and resource 
protection.
    As we have done with the sanctuary program, we are now also 
working to create a comprehensive program to protect the coral 
reefs. I want to congratulate both the chairwoman and Senator 
Inouye for the leadership that they have shown by advancing 
legislative proposals.
    Each year the threats to our coral reefs increase from 
human choices, from population growth on our coasts, from 
expanding tourism, from runoff pollution, from destructive 
fishing, and now, according to the science that we are being 
provided with, from climate change. Evidence is mounting that 
the warming climate and the warming oceans are killing reefs, 
leaving them bleached and barren of the infinite biodiversity 
that they once supported.
    Along with Senators Breaux and Hollings, I am pleased to be 
an original sponsor of the Coral Reef Protection Act of 1999. I 
think it will help create the kind of science-based restoration 
and preservation efforts that we need, and it encourages the 
partnership with a matching program with real money. I think 
the $20 million per year it provides, is the kind of 
significant investment that we need to make.
    NOAA is already spending about $13 million for basic work 
on coral conservation, and we are told by the U.S. Coral Reef 
Task Force this is simply not enough.
    It is my hope that we can all join together on a larger 
coastal protection act, and I hope very much that we can do 
that in the short term. I think we need a bipartisan, 
committee-broad approach in order to address these very 
significant issues that we face.
    Thank you, Madam Chairwoman, for your indulgence and I look 
forward to the hearing today.
    [The prepared statement of Senator Kerry follows:]

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts

    Thank you Madam Chairwoman.

    The legislation we are discussing today is a priority for my home 
state. After all, Massachusetts is inexorably linked to the ocean. The 
Atlantic is home to our fisheries, generates tourism, draws us for our 
summer vacations and connects us to our maritime history. I have also 
advocated for stronger protections for our oceans globally. 
Shortsighted development and pollution are destroying marine 
ecosystems--and I view the legislation we will discuss today as part of 
our nation's effort to protect the oceans worldwide.
    To meet the challenge of coastal and ocean stewardship, Congress 
has tried to develop innovative programs for the long-term protection, 
conservation, utilization and management of our vulnerable marine 
resources. This includes the National Marine Sanctuaries Act.
    The Sanctuary Program protects unique coastal habitat, marine 
biological diversity and fishery stocks, and it encourages natural 
resource management with appropriate recreational and commercial 
activities. It is not easy to balance the sometimes destructive results 
of economic growth and development with coastal stewardship, but I 
believe this program is a proven success at balancing conservation and 
public use. The recent compromise plan among user groups in the 
Tortugas 2000 Reserve is one example of this.
    My complaint with the Sanctuaries program is that we have 
underfunded it. When I worked to reauthorize this program in 1996, we 
sought $45 million over three years to fund the management of the 
existing marine sanctuaries. Since that reauthorization, the program 
has continued to demonstrate its effectiveness and value. I am 
fortunate to have watched this progress first hand in Massachusetts.
    The Studds Stellwagen Bank National Marine Sanctuary sits just off 
the Massachusetts coast. It's a unique area that sustains humpback 
whales, right whales and commercial species. Each year, over 1 million 
people ride the whale watching boats to see these magnificent creatures 
closeup.
    As we will hear today, the Stellwagen has partnered with the New 
England Aquarium to enhance our understanding of the sanctuary's 
natural systems and to educate the public. It is just the kind of 
public-private partnership we envisioned for this program and that I 
want to encourage across government.
    However, the story of Stellwagen is more about potential than it is 
about past accomplishments.
    As we will hear today from Mike Connor of the New England Aquarium, 
we have only begun to realize the benefits of the Sanctuary program in 
terms of education and resource protection. But we can only capture 
this potential if we are willing to make the investment of federal 
support.
    I will soon introduce legislation called the Coastal Stewardship 
Act with Senators Hollings, Breaux, Inouye, Boxer and Feinstein. This 
comprehensive proposal includes authorization of $35 million per year 
for the Sanctuaries program. This will more than double the program's 
budget and is in line with proposed increases from the Clinton 
Administration and others. I strongly believe these additional 
resources are justified.
    As we have done with the Sanctuary Program, this Committee is now 
working to create a comprehensive program to protect coral reefs. I 
want to congratulate both the Chairwoman and Senator Inouye for the 
leadership they have shown by advancing legislative proposals.
    As with so many of our marine issues, we are in race to save our 
reefs. Each year the threats to our coral reefs increase from 
population growth on our coasts, expanding tourism, runoff pollution, 
destructive fishing and, now, the emerging threat of climate change is 
taking toll. Evidence is mounting that our warming climate and warming 
oceans are killing reefs, leaving them ``bleached'' of their color and 
barren of the almost infinite biodiversity they once supported.
    Along with Senators Breaux and Hollings, I am an original cosponsor 
of Senator Inouye's proposal, the Coral Reef Protection Act of 1999. I 
believe it will create the kind of science-based restoration and 
preservation efforts we need. It also would extend funding to protect 
the deep water coral communities that support fisheries in place like 
the Gulf of Mexico and Georges Bank. Like the Sanctuary program, it 
encourages cooperation and partnerships with a matching program. And 
the $20 million per year it provides is the kind of significant 
investment we need to make in protecting these irreplaceable marine 
resources. Already, NOAA spends $13 million for basic work on coral 
reef conservation and the U.S. Coral Reef Task Force tells us this is 
not enough.
    I have included Senator Inouye's proposal in my Coastal Stewardship 
Act because I want us to explore every avenue we can to get federal 
support for reef protection. In addition, the Coastal Stewardship Act 
has dedicated funding to reduce polluted runoff. Polluted runoff can 
choke reefs and, alone or in combination with other stresses, cause 
disease and other pathologies. We need to tackle that problem as well.
    The unfortunate fact is that our oceans are dying. We are losing 
coral reefs and marine species. Harmful algae blooms and dead zones are 
becoming more common. And our commercial fisheries are in decline.
    The Sanctuary program and this new reef initiative are some the 
best opportunities we have to restore and preserve marine habitat, to 
explore and understand ocean and coastal ecosystems, and to educated 
the public about the important role our oceans and coasts play in our 
environment and economy.
    It is my hope that with the our earlier hearing on the Coastal Zone 
Management Act and this hearing today, with these new coral reef 
proposals, and with my Coastal Stewardship Act, we can find a way to 
reverse the destructive trend and start restoring and preserving our 
coastal and ocean environment.
    I want thank the Chairwoman and I look forward to hearing from our 
witnesses.

    Senator Snowe. Thank you very much, Senator Kerry.
    Senator Breaux, do you have any opening statement?

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. No. I ask that my full statement be 
included in the record at this time.
    [The prepared statement of Senator Breaux follows:]
 Prepared Statement of Hon. John B. Breaux, U.S. Senator from Louisiana
    I want to thank Senator Snowe for holding this hearing and our 
panel of witnesses for joining us today.
    The fact that this hearing is being held today is timely and I must 
admit somewhat coincidental. Just a few weeks ago while reading my 
Yachting Magazine (and dreaming of my next boat), I came across an 
article--Who is Killing The Reefs of Florida? As an avid recreational 
diver, I found the article not only interesting to read, but also 
disturbing.
    When I read the words ``scientists say a constant bombing of fresh 
water, very rich in nitrogen and phosphorous, is more than the coral 
can bear,'' I immediately thought of the legislation Senator Snowe and 
I sponsored last year, The Harmful Algal Bloom and Hypoxia Control Act 
(Dead Zone). The similarities being that nitrogen and phosphorous 
runoff believed to have created a 7,000 square mile dead zone in the 
Gulf of Mexico are also responsible for the degradation of coral reefs.
    Equally important, I also thought of the United States' substantial 
coral reefs holdings, including the Flower Garden Banks on the Texas/
Louisiana maritime border in the Gulf of Mexico (the northern most 
coral reefs in North America). I then thought what a tragedy it would 
be if our children and grandchildren did not have the same 
opportunities many of us have had.
    These opportunities cover the gamut. Coral reefs are an essential 
source of food, jobs, recreation and revenue generated by fishing, 
tourism and research industries. It disturbs me to know that 
environmental studies indicate our nation's reefs continue to be 
threatened by pollution, over-fishing and severe climate changes.
    I believe that the Coral Reef Protection Act of 1999 introduced by 
Senator Inouye and cosponsored by Senators Akaka, Kerry, Hollings, 
Boxer, Feinstein and myself establishes a comprehensive program to 
address this serious problem.
    It would authorize appropriations totaling $100 million over a 
period of five years to preserve, sustain, and restore the health of 
U.S. coral reef ecosystems and assist in the conservation and 
protection of coral reefs by supporting conservation programs. 
Additionally, this legislation would leverage the federal dollars 
appropriated for these purposes by establishing a formal mechanism for 
collecting and allocating matching monetary donations from the private 
sector to be used for coral reef conservation projects. This 
authorization would support the President's Lands Legacy Initiative; 
the Coral Reef Task Force, established last year by Presidential 
Executive Order; the United States Coral Reef Initiative; and other 
ongoing efforts to ensure the long-term health and sustainability of 
coral reef ecosystems.
    The Coral Reef Protection Act of 1999 would also authorize $15 
million per year in grants to support coral reef and coral reef 
ecosystem conservation and restoration projects. Any relevant State or 
territorial natural resource management authority or other government 
authority with jurisdiction over coral reefs or coral reef ecosystems, 
or educational or non-governmental institutions with demonstrated 
expertise in the conservation of coral reefs would be eligible to apply 
for these grants, which would be administered by the Secretary of 
Commerce. Except for projects costing less than $25,000, or specific 
exemptions granted by the Secretary, these grants would be subject to a 
25% non-federal matching requirement.
    The answer to the question, ``Who's killing the reefs?'' is all of 
us, and until we do a better job working together, the end of our coral 
reef treasures is rapidly approaching.
    I am prepared to travel to a Florida coral reef or other mutually 
agreeable reef site to witness first hand not only the beauty and 
tranquility of coral reefs and marine sanctuaries, but also the 
degradation caused by human influence and inteference.
    In closing, I want to thank the Chair and witnesses again. I look 
forward to our discussion today and to working with the Committee in 
the coming months to pass this important legislation.

    [The prepared statement of Senator Inouye and letters of 
support follow:]

      Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Both of the subjects before us today, the protection and 
conservation of America's coral reef resources and reauthorization of 
the National Marine Sanctuaries Act, represent important opportunities 
to protect some of our country's richest natural treasures and to 
provide significant new resources which will support a new conservation 
vision for the 21st century. I believe that today's hearing will 
clearly demonstrate the importance of these programs and the need for 
much greater financial resources for a variety of activities including 
research, conservation, restoration and educational outreach.
    With respect to coral reefs, I would like to thank Chairman Snowe 
for scheduling this hearing to discuss issues of importance to our 
national coral reef treasures, and in particular, to discuss S. 725, 
the Coral Reef Conservation Act, introduced by Senators Snowe and 
McCain, and S. 1253, the Coral Reef Protection Act, introduced on 
behalf of myself and Senators Akaka, Hollings, Kerry, Breaux, Boxer and 
Feinstein. I look forward to working with the members of this committee 
to develop the best possible mechanism for addressing the needs of our 
coral reef ecosystems.
    It is very important to fully understand the importance of these 
fragile ecosystems. Coral reef ecosystems are the marine equivalent of 
tropical rain forests. They contain some of this planet's richest 
biological diversity, habitats, and systems and provide critical 
support to thousands of fish and other species. More than half of this 
country's commercial fisheries depend on coral reefs for some part of 
their life and the annual value of the commercial and recreational 
fisheries associated with coral reef ecosystems exceeds $200 million 
per year. In addition, these reef ecosystems support another $2 billion 
in tourism every year. Despite this importance to both the environment 
and the American economy, very little is currently known about the 
condition of coral reefs in the United States. Two points, however, are 
clear: coral reefs are threatened whenever they are close to large 
concentrations of people, and coral reefs are in decline.
    In light of these threats, the economic importance of these 
ecosystems, and the as yet unknown promises of pharmaceuticals, food 
sources, and other benefits held within these diverse ecosystems, I 
have proposed, in S. 1253, the Coral Reef Protection Act of 1999, an 
authorization of $20 million per year for the next five years for 
research, conservation and restoration of these extremely valuable 
resources and to complement and support the efforts of the President's 
Coral Reef Task Force which was established by Executive Order last 
year. I firmly believe that this is the minimum amount necessary to 
address the critical problems facing U.S. coral reefs which have been 
identified by the U.S. Coral Reef Task Force; state, territorial, and 
local governments; scientists; industry groups; and other 
nongovernmental organizations; many of which have sent me persuasive 
letters and testimony urging the expeditious adoption of increased 
funding to address these threats, especially in the Pacific where more 
than 93% of these reefs exist.
    Madam Chairman, I respectfully request unanimous consent to include 
these letters and testimony as part of the hearing record.
    With respect to the National Marine Sanctuary Program, I fully 
support the reauthorization of this important program. The Hawaiian 
Islands National Marine Sanctuary Program is only 16 months old, but 
has exceeded all expectations through its comprehensive and innovative 
sanctuary awareness and educational outreach programs. This sanctuary 
has a large dedicated volunteer force and has forged successful public-
private partnerships to enhance its activities and strengthen community 
support for the sanctuary.
    Madam Chairman, I look forward to working with you and the other 
members of the Commerce Committee to address the pressing needs 
associated with coral reefs and marine sanctuaries.
                                 ______
                                 
                                                      June 28, 1999
The Honorable Daniel K. Inouye
United States Senate
722 Hart Senate Office Building
Washington, D.C. 20510-2201

Dear Senator Inouye:

    The State of Hawaii fully supports Senate Bill 1253, the Coral Reef 
Protection Act of 1999. The livelihood of our island economy depends on 
the health of the coral reef ecosystem for everything from shoreline 
protection to receation and tourism. Hawaii is sorely under-funded in 
its ability to properly manage and conserve these coral reef resources, 
and we strongly encourage Congress to fully fund this Bill.
    Over 80 percent of the coral reef resources within United States 
jurisdiction are found within Hawaiian waters. The State of Hawaii 
manages 1,500 miles of marine waters representing 410,000 acres of 
coral reef resources. The direct economic benefit derived from these 
resources is over $1 billion in gross revenues annually. Coral reefs 
create our sandy beaches, which are a visitor destination for people 
from around the world. Hawaii consistently ranks as one of the best 
places in the world for scuba diving. Maintaining the health of the 
coral reef ecosystem is vital to our way of life.
    The State requests that Senate Bill 1253 be changed to allocate a 
specific portion of the funds to the States and Territories that have 
direct trustee responsibility for managing coral reefs. Allocation of a 
percentage of the funds to those State agencies with direct management 
responsibility for coral reef resources will assist the United States 
in preserving, sustaining, and where possible, restoring coral reef 
resources.
    Thank you for the opportunity to provide these comments to the 
members of the Oceans and Fisheries Subcommittee on this critical piece 
of Legislation.
With warmest personal regards,

Aloha,

Benjamin J. Cayetano
                                 ______
                                 
                                                      June 28, 1999
Honorable Daniel K. Inouye
United States Senate
722 Hart Senate Office Building
Washington, D.C. 20510-2201

Dear Senator Inouye:

    Thank you for the opportunity to provide written testimony on 
Senate Bill 1253, The Coral Reef Protection Act of 1999. The State of 
Hawai'i Department of Land and Natural Resources strongly encourages 
Congress to support and fully fund this Bill as these unique ecosystems 
are severely stressed and the States and Territories themselves are 
sorely underfunded in their ability to properly manage and preserve 
them.
    The Department of Land and Natural Resources has statutory 
authority over management of all coral reef ecosystems within State 
waters, from the southernmost island of Hawaii up to Kure Atoll over 
1,500 miles to the northwest. The coral reef ecosystems found within 
this large expanse constitute the majority of all U.S. reefs. It is the 
trustee responsibility of the Department of Land and Natural Resources 
to manage over 410,000 acres of coral reef that fall within this area. 
Hawaii's coral reefs are viewed as some of the most exceptional and 
beautiful aquatic environments on the planet; our fringing reefs alone 
abound with more than 5,000 different known species of spectacular and 
incredibly diverse marine plants and animals--many of which are 
uniquely Hawaiian and found nowhere else on earth. We sincerely 
appreciate the opportunity to comment on this Bill and offer the 
following suggestions:

    1. The primary function of S. 1253 is to preserve, sustain and 
restore U.S. coral reef ecosystems. Given that the majority of all U.S. 
coral reefs lie within State and Territorial waters and that the 
agencies responsible for, engaged in, and directly accountable for 
those coral reef resources are the states' and territorial natural 
resource management agencies these agencies should lead in implementing 
the purposes of this Bill. We would like to suggest that a minimum of 
20% of the funds allocated for this Bill should be provided to assist 
the seven (Hawaii, Florida, American Samoa, CNMI, Guam, Puerto Rico and 
the U.S. Virgin Islands) state and territorial natural resource 
management agencies with direct trustee responsibilities for coral reef 
ecosystems. Use of these funds should go through a similar review 
process as suggested under Section 6 of this Bill.

    2. Given the critical importance of these unique ecosystems to the 
economy, tourism, shoreline protection, fisheries (over 50% of U.S. 
commercial fisheries spend a portion of their life cycle associated 
with coral reefs), future biomedical and pharmaceutical advances, 
recreation and native cultural practices, we strongly encourage full 
funding of this Bill. Funding should be used in order to assist the 
States and Territories with managing the increasing complexity of 
overlapping uses and impacts occurring on these ecosystems and to 
protect these national treasures at a time when coral reefs as 
ecosystems are becoming increasingly threatened worldwide. Examples of 
immediate funding needs include mapping of coral reef resources, 
Statewide long-term monitoring of coral reef ecosystems, protection of 
key reef resources, and program development to deal with alien species, 
nutrification, and overfishing.
    Thank you for the opportunity to provide comments on this very 
important piece of legislation, The people of Hawaii sincerely thank 
the members of the Oceans and Fisheries Subcommittee for their efforts 
to help us protect our coral reef resources and ecosystems.

Aloha,

Timothy E. Johns
                                 ______
                                 
June 28, 1999
                                                Serial: 846
The Honorable Daniel K. Inouye
United States Senate
Washington, D.C. 20510

        Re: Coral Reef Protection Act of 1999

Dear Senator Inouye:

    It is with great pleasure to hear about your introduction of the S. 
1253, Coral Reef Protection Act of 1999. In the wake of the US Senate's 
lamentable deletion of the Presidents proposed Lands Legacy Act, 
American Samoa is very fortunate to have a champion like you whom the 
region can count on for legislative support, I am writing to express my 
support of your efforts to secure federal commitment towards the 
protection and preservation of the coral reefs ecosystem. I was also 
very pleased to read Section 9, concerning certain vessels, which 
addresses our longliner issue, which, as you know, has been a top 
priority of mine.
    American Samoa along with its Insular Areas counterparts has worked 
hard to promote the US Coral Reefs Initiative ever since the 
announcement was first made in the early 90's, To that end, the Insular 
Area developed an Action Plan that was endorsed for phority funding by 
the President's CRI Task Force in February, 1999, at its annual meeting 
in Maui. Following the Maui Meeting, the Insular Area was tasked by the 
Task Force to update its priorities and have it submitted in July's 
meeting in San Diego. This has continued in spite of the lack of any 
federal appropriations to the Insular Area.
    Our own local Coral Reef Task Force has been working to designate 
projects vital to the protection of our coral reef resources, they 
recently concluded a three-day workshop developing a five-year research 
and monitoring plan for the Territory. The cooperation between local 
and federal agencies here insured a well-crafted plan, which will be 
presented at the next US Coral Reef Task Force Meeting. However, many 
of the crucial elements of the plan depend upon financial commitment 
from the Federal Government. We hope that with your efforts on this 
proposed legislation we will be able to carry out our local priorities.
    In general, the proposed legislation is very comprehensive and we 
just want to offer some minor suggestions.

        1. Under Criteria for Approval (2g): replace the word ``port'' 
        and ``ports'' on the second line with the word ``part''.
        2. Under SECTION 6 subsection (l) Technical Assistant: insert 
        the word ``Territory'' following State.

    You have my full support and if there is anything we in American 
Samoa can do to assist, please don't hesitate to call on me or Mr. 
Lelei Peau, American Samoa's CRI Point of Contact.

Sincerely

Tauese P.F. Sunia

Governor of American Samoa
                                 ______
                                 
                                              June 25, 1999
The Honorable Daniel K. Inouye
United States Senate
Washington, DC 20510

Dear Senator Inouye

    We were pleased to hear of the introduction of S. 1253, Coral Reef 
Protection Act of 1999. With the deletion of funding for coral reefs 
under the President's Lands Legacy Act, it becomes even more imperative 
that action be taken to provide guidance and funding for the 
management, intelligent exploitation, conservation and preservation of 
these extremely productive and fragile resources.
    For those of us who live at the edge of coral reefs, it is all too 
apparent that our reefs are in immediate danger, not only from the 
daily activities associated with shoreline or island communities, but 
from the long term and large scale problems of climate change as well. 
If we do nothing, as we have to this point, we will lose not only 
billions of dollars in commerce associated with healthy reefs, but we 
will lose the ability to live in island environments as well.
    Your bill is a very good start toward addressing the problems that 
face us. Thus far, since the adoption of the U.S. Coral Reef initiative 
in 1994, considerably less than one million dollars has been 
appropriated directly applicable to the policies of that Initiative. 
Guam has received a total of fifty two thousand dollars ($52,000) in 
that five year period, although we also received another one hundred 
fifty thousand dollars ($150,000) for emergency reef clean up after 
Supertyphoon Paka. The funding allocated thus far is not indicative of 
a nation committed to resource protection and management.
    In way of specific comment, we would draw your attention, in 
Section 5 (Definitions), the definition of ``State''. In order to bring 
this definition in line with the intent and title of the bill, we 
recommend the addition of the words reef building before the word 
``coral'', so that the definition would read.
State: The term ``State'' means any coastal State of the United States 
that contains reef building coral within its seaward boundaries, and 
American Samoa. Guam, The Northern Mariana Islands, Puerto Rico. and 
the U.S. Virgin Islands, and any other commonwealth, territory, or 
possession of the United States that contains reef building coral 
within its seaward boundries.
    I fully support the intent of your legislation, and applaud you for 
taking this initiative. If I can be of any further assistance in 
achieving legislation that helps us preserve this invaluable resource 
fbr future generations, please do not hesitate to contact me.

Very truly yours,

Carl T. C. Gutierrez

Governor of Guam
                                 ______
                                 
                                              June 25, 1999
The Honorable Daniel K. Inouye
Member, Oceans and Fisheries Subcommittee
Committee on Commerce, Science, and Transportation
United States Senate
SH-428 Hart Senate Office Building
Washington. DC 20510

Dear Senator Inouye:

        Re: S. 1253, Coral Reef Protection Act of 1999

    Thank you for the opportunity to comment on S. 1253, the Coral Reef 
Protection Act of 1999. The Commonwealth of the Northern Mariana 
Islands (CNMI) contains some of the most biologically diverse and 
pristine reefs amongst the American Pacific Islands. These reefs are 
not only culturally significant, but provide a source of food, storm 
protection and sustain our tourism industry.
    The Asian economic crisis has significantly affected the economy of 
the CNMI, and there are insufficient funds available to adequately 
protect our reefs. The CNMI fully supports the intent and funding level 
requested in the Coral Reef Protection Act of 1999 and feels passage of 
the bill is critical if we are to move forward in coral reef 
protection. The funding level specified in the bill would allow the 
CNMI and other Pacific islands the means to initiate, develop, and 
implement management plans to monitor and protect coral reefs in the 
Pacific.
    Preservation and protection of the coral reefs under U.S. 
Jurisdiction is a meaningful and essential task if we are to pass these 
beautiful and irreplaceable resources to the next generation. I commend 
you and your colleagues for your vision and support of the Coral Reef 
Protection Act of 1999. I pray you are able to draw the necessary 
support to pass this crucial bill.
    Please let me know if you would like additional information from 
us. Again, thank you for the opportunity to comment on this vital bill.

Sincerely,

Pedro P. Tenorio
                                 ______
                                 
                                              June 28, 1999
Hon. Daniel K. Inouye
U.S. Senate
722 Hart Senate Office Building
Washington, DC 20510

Dear Senator Inouye:

    I write in support of your bill, S. 1253, authorizing funding for 
the conservation of coral reefs.
    I was born in a village that existed where it did because of the 
existence of a sheltering coral reef. The subsistence economy of the 
people in my village was largely dependent upon the fish which 
flourished on the reef and within the reef-ringed lagoon. So, I have a 
special feeling for and understanding of the beauty, the utility, and 
the geographic magnificence of this unique life form, the coral reef.
    But coral is not simply a thing of beauty and a quaint reminder of 
past ways of life. The mainstay of the Northern Marianas economy is 
tourism. And without the 15 miles of protected sandy beach and placid 
waters which the reef provides, it is safe to say we would have little 
of the tourism-related development we have on our principal island, 
Saipan.
    Without the reef Saipan would not have a naturally protected port 
in which the container ships and fuel vessels that feed our economy can 
safely conduct their business. Our other populated islands, Rota and 
Tinian, are clearly hampered in their development because of the 
incredible expense involved in creating breakwaters sufficient to hold 
back the open ocean, something the reef does for Saipan for free.
    As can happen with natural cycles and scales of activity that dwarf 
our human life spans and ability to comprehend, the reefs of the 
Northern Marianas have not always been treated with respect. While the 
days of chlorine and dynamite fishing are behind us and the obvious 
destruction they caused the reef, more subtle forms of disturbance now 
trouble the relationship between island-dwelling people and these great 
communities of life which lie offshore. The run-off from the land we 
strip of vegetation as we build, the pollutants seeping into the ocean 
which grow as our populations grow, the physical destruction that comes 
from collectors of coral or ships run aground--all these factors exact 
their toll. Forces largely beyond our local control, too--global 
warming and the attendant rise in sea level--eat away at the vitality 
of our coral reefs.
    Thus, your bill is most welcome--as have been the previous acts of 
Congress focusing attention on the coral reef and setting policy for 
conservation. I cannot express too strongly my support for your 
initiative; and I offer to assist in any way I can to see S. 1253 
through to enactment.

Sincerely,

Juan N. Babauta

Resident Representative
                                 ______
                                 
                                              June 28, 1999
Honorable Daniel K. Inouye
U.S. Senator
722 Hart Senate Office Building
Washington, D.C. 20510

Dear Senator Inouye:

    Thank you for providing the Western Pacific Fishery Management 
Council an opportunity to provide testimony in support of the ``Coral 
Reef Protection Act of 1999''.
    Roughly 70% of the world's coral reef are found in the Pacific 
Ocean. Moreover, of the total amount of coral reefs under US 
jurisdiction, over 90% are located in the Pacific region. While it is 
believed that most of these reefs are generally in good condition, 
large gaps exist in our current knowledge of the total extent and 
health of the coral reef ecosystems found in the Pacific. Many of the 
coral reef resources under US jurisdiction have never been surveyed or 
even assessed.
    There are numerous man-induced and natural threats to the continued 
health of coral reefs including excessive resource exploitation, 
sedimentation, marine debris, major storms and global climate change. A 
serious and growing threat in the central western Pacific is the live 
reef-fish trade, estimated to be a $1.2 billion-dollar a year business 
based in Hong Kong. In 1996, live giant groupers reportedly sold for 
$11,000 each. As Chinese demand for live reef-fish continues to grow, 
and many foreign reefs are now denuded of prime specimens, Asian 
fishermen continue to move eastward, and are now on the verge of 
threatening US reefs in the central and western Pacific. The vastness 
of the region, combined with the remoteness of the atolls and small 
islands make Pacific coral reefs highly susceptible to ``hit and run'' 
illegal fishing operations conducted by rogue foreign fishing vessels. 
The level of surveillance and enforcement activities necessary to 
identify and apprehend these operations requires considerable 
resources. Compounding these concerns is the fact that the use of coral 
reef resources in federal waters is largely unregulated at present. 
Regulations to sustainably use and protect reefs are needed in US 
federal waters of the Pacific.
    Fundamental to the management and protection of the region's coral 
reef ecosystems is the need to assess the health of coral reefs in the 
Pacific, map coral reef ecosystems, and monitor the health and threats 
that impactreefs. Bridging the gaps in knowledge of the these complex 
ecosystems will require a concerted and sustained effort on the part of 
the federal, state, territorial and local governments, in partnership 
with local communities and NGOs, to manage, protect and preserve these 
biologically rich and diverse resources,
    The Western Pacific Fishery Council is currently developing a 
fishery management plan (FMP) for coral reef ecosystems that will be 
implemented next year. The management plan will establish a permit and 
reporting requirement for sustainable harvest of reef resources, ban 
destructive fishing methods, establish marine protected reef areas, 
minimize adverse impacts to reefs, and establish a mechanism for 
flexibility to rapidly add new management measures. The FMP intends to 
ensure that the long-term economic benefits of coral reef resources are 
realized. However, effective implementation, together with all 
collaborating agencies and organizations, with require adequate funding 
which the ``Coral Reef Protection Act of 1999'' can help provide.
    Sufficient resources are urgently needed to better understand, 
protect and manage our valuable reef resources, and effectively address 
the President's Executive Order on Coral Reefs. The following budgetary 
needs for Pacific coral reefs have been estimated for the next five 
years: $20 million for mapping and habitat assessment, $10 million for 
enforcement, $10 million for reef monitoring, restoration and emergency 
response, $10 million for assessment and removal of marine debris in 
the Northwestern Hawaiian Islands, $5 million for research, $5 million 
for the establishment of Marine Protected Areas (MPAs), $4 million for 
education and public awareness programs, and $3 million for proposed 
projects to protect coral reefs under the US Islands Coral Reef 
Initiative. Please use all power within your means to ensure successful 
passage of the ``Coral Reef Protection Act of 1999'' at $20 million per 
year.
Mahalo!

Sincerely,

Kitty M. Simonds

Executive Director
                                 ______
                                 
                                              June 28, 1999
The Honorable Daniel K. Inouye
United States Senator
722 Hart Senate Office Building
Washington, D.C. 20510

Dear Senator Inouye:

    The coral-reef resources of the western Pacific, including those in 
Hawaii and other U.S. affiliated territories, are of great economic 
value, both in goods and services. In the State of Hawaii alone, coral 
reefs generate more than $797 million per year (1998) through the 
marine tourism industry (7,000 employees) and another $20 million a 
year in fisheries landing. Admission tees into Hanauma Bay coral-reef 
park bring $2.6 million annually, with another hundred thousand per 
month in concessionaire fees. Coral-reef fishes caught for the aquarium 
trade in Hawaii bring in another $800--$900 thousand annually. The 
coral reefs of Guam, a small U.S. island with 150 thousand residents, 
provide about $149 million per year from scuba-diving tourists. Palau, 
a U.S. affiliated island with only about 14,000 residents, obtained 
about $7,000 per day ($2.5 million per year) from the Blue Corner dive 
site alone in 1992. The total income from tourists in Palau in 1992 was 
$13 niillion and has increased in recent years. Nearly all tourist to 
Palau conic to dive on the coral reefs.
    With the wide-spread depletion of nearshore fisheries resources in 
S.E. Asia, the value of the live-fish trade from coral reefs has 
increased to over $1 billion per year. Red grouper (Epinephelus akaara) 
and spotted grouper (Plectropomus spp.) currently sell for $42/kg. The 
Napoleon wrasse (Cheilinus undulatus) sells for $180/ kg, and the lips 
have been served in Hong Kong for US $225. One grouper was purchased in 
Hong Kong for US $10,256 (South China Morning Post, 28 November 1996). 
Seahorses sell for US $850/kg as aphrodisiacs and other medicinal 
purposes. Live fish for the aquarium trade now provides $200 million 
per year for the Philippines.
    The increased value of coral-reef resources and their depletion in 
S.E. Asia has compelled the Asian fishermen to exploit resources in 
U.S. affiliated areas. Just last week, 50 metric tons of live reef fish 
were taken from the Marshall Islands for Hong Kong restaurants. There 
have been economic interests expressed to National Marine Fisheries 
Service for exploitation of Palmyra Atoll, a U.S. territory without any 
regulations or management plan. The Northwest Hawaiian islands coral 
reefs have been damaged by over 15 tons of drift net debris, Live-rock 
harvesters from Florida have inquired about operating in U.S. Pacific 
waters.
    Coral-reef resources are very productive, but need to be rationally 
and carefully managed because the time required to affect a reef or 
reef resources is short compared to the time required for recovery. A 
pinnacle off Guam was discovered and fished down in 6 months in 1967, 
but the fish are still not back after 32 years. A spawning aggregation 
of groupers was extracted from Denges Channel in Palau by Taiwanese in 
1986 and has still not returned after 13 years. Black-lipped pearl 
oysters were harvested on Pearl and Hermes Reefs in the NW Hawaiian 
Islands in the 1920s, but subsequent and recent surveys have shown that 
the oysters have still not recovered after more than 70 years. The 
fastest recovery was 15 years for the corals to return to the state 
they were in on Guam at the time of a crown-of-thorns starfish attack 
in 1968.
    Economically valuable resources of coral reefs are very productive 
if managed properly, but if not managed, millions per year are lost for 
decades if not forever. When overharvested, spawning aggregations of 
groupers and other resources do not recover for decades, if ever. 
Overharvesting of herbivores has led to ecosystem-level effects, i.e., 
permanent shift from coral to algae (e.g., Ngederrak Reef in Palau). We 
need to develop methods for management of broodstock, for understanding 
the complexities of the coral-reef ecosystem, and for replenishment of 
fisheries.
    Without the Coral Reef Protection Act of 1999, there is simply not 
the financial support available to effectively manage the economically 
viable and sustainable use of coral-reef resources in the western 
Pacific, and for educating the public in the wise use of coral-reef 
resources. It is critical that we take effective action now. This Act 
will provide the means to do so.

Respectfully submitted,

Charles Birkeland

Professor

University of Guam
                                 ______
                                 
                     NATIONAL CORAL REEF INSTITUTE
                                                       May 10, 1999
The Honorable Daniel K. Inouye
Senate Appropriations Committee
United States Senate
Washington, DC 20510

Dear Senator Inouye:

    Enclosed please find an Open Letter signed by 144 coral reef 
scientists, resource managers and conservationists, including at least 
one of your constituents, in support of Congressional appropriation of 
the $17.2 million requested in new funding in the President's FY 2000 
budget to strengthen U.S. federal, state, territory, and commonwealth 
efforts to protect and sustainably use the nation's valuable coral 
reefs.
    This includes $12 million in new funds requested by the National 
Oceanic and Atmospheric Administration (NOAA), Department of Commerce, 
and $5.2 million for the Department of the Interior for:

        <bullet> Restoration, emergency response, mapping, monitoring, 
        research and management capabilities for the National Ocean 
        Service
        <bullet> Increased protection, research and monitoring in 
        management areas for the Fish and Wildlife Service
        <bullet> Implementation of monitoring, restoration and 
        protection measures in managed areas for the National Park 
        Service
        <bullet> Mapping, monitoring and research into causes of reef 
        decline for the U. S. Geological Survey
        <bullet> Assistance to territories for coral protection and 
        management for the Office of Insular Affairs

    Open Letter signatories participated in the National Coral Reef 
Institute (NCRI)-organized International Conference on Scientific 
Aspects of Coral Reef Assessment, Monitoring, and Restoration, held 
April 14, 15, & 16, 1999 in Ft. Lauderdale. The major outcomes of the 
Conference (listed on the web at http://www.nova.edu/ocean/ncri/ncri--
pos.html) closely correlate with the goals of the Open Letter.
    On behalf of all of the signatories, thank you for your time and 
attention to this matter.
            Sincerely,

                                    Richard E. Dodge       
                                                 Executive Director

                              OPEN LETTER
TO: Members of Congress, President Clinton, and heads of federal 
agencies involved in the U. S. Coral Reef Task Force and the Governors 
on the U.S. Coral Reef Task Force.

FROM: Members of the coral reef science and management community in 
attendance at the International Conference on Scientific Aspects of 
Coral Reef Assessment, Monitoring, and Restoration as listed below.

    It is widely accepted that coral reefs are extremely valuable 
(biologically, economically, and culturally). It is equally well 
understood that coral reefs, both nationally and globally, are in grave 
danger due to interactions and combinations of a wide range of human 
and natural impacts. Therefore:
Additional efforts are needed

(1) to understand the nature and function of coral reef ecosystems,
(2) to reduce human impacts at all scales,
(3) to best manage and protect reef ecosystems, and
(4) to anticipate and react to long-term, large-scale chance in the 
natural environment.

To this end:

         We support the Executive Order #13089 on coral reef 
        protections that established the US CRTF (Coral Reef Task 
        Force) and their actions to date.
        <bullet> We support Congressional appropriation of the $17.2 
        million new funding in FY 2000 request to strengthen US 
        federal, state, territory, and commonwealth efforts to protect 
        and sustainably use the nation's valuable coral reefs.

                     (continue to signature pages)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                              June 24, 1999
Kitty Simonds
Executive Director
Western Pacific Fisheries Management Council
1164 Bishop Street, suite 1400
Honolulu, Hawaii 96813

Dear Kitty,

    This letter is to offer support to your effort in assisting Senator 
Inouve support his bill in the US Congress entitled ``The Coral Reef 
Protection Act of 1999.'' As you are well aware, coral reefs in the 
Pacific are increasingly threatened by burgeoning human population 
growth in the region. For example, increasing pressure from a variety 
of extractive fisheries in the major Hawaiian Islands has reduced the 
biomass of reef fish standing crops by about 80-90%. What this means is 
that many reefs in Hawaii are virtually barren of fish. We also have a 
variety of pollution problems that have degraded the health of reefs in 
Hawaii and the US Pacific Islands. These problems range from bleaching 
events, to starfish (Acanthaster planci) infestations, to degradation 
caused by excessive run-off of land born sediments which end up 
clogging some reefs. Marine debris (lost fishing nets, etc.) is another 
problem of increasing significance reported to be wreaking havoc, in 
some areas, such as the Northwestern Hawaiian Islands. Funding for 
protection and restoration of coral reefs in the US Western Pacific is 
urgently needed.
    In Hawaii alone, the value of marine eco-tourism has been estimated 
at $750 million annually. This industry is vitally dependent on the 
health of the reefs for its sustainability. Improved management in the 
form of strengthened enforcement of fisheries regulations, more marine 
protected areas, the creation of more artificial reefs protected from 
fishing, fish stocking research, and pollution mitigation efforts, are 
subjects in immediate need of research support. Taking a longer view, 
coral reefs are also important in providing protection from storm 
erosion and mitigating the threat of rising sea level in many island 
communities. Defeat of Senator Inouye's bill would be a serious setback 
to any hope of solving many of these problems. It is in the vital 
interest of Hawaii and the US Pacific Islands that ``The Coral Reef 
Protection Act of 1999'' receive the support it needs for passage. 
Thank you for adding your support to this worthy cause.

Richard W. Grigg

Professor of Oceanography

    Senator Snowe. We will start with Ms. Sally Yozell, who is 
the Deputy Assistant Secretary of Commerce for Oceans and 
Atmosphere. Ms. Yozell has been actively involved with the U.S. 
Coral Reef Task Force. I know this is your first time 
testifying before the Subcommittee and we certainly appreciate 
that you could be here today.
    Ms. Yozell, you can summarize your testimony and we will 
include your entire statement in the record. Please proceed.

          STATEMENT OF SALLY YOZELL, DEPUTY ASSISTANT 
  SECRETARY FOR OCEANS AND ATMOSPHERE, DEPARTMENT OF COMMERCE 
  ACCOMPANIED BY: MICHAEL P. CROSBY, PH.D., SCIENCE ADVISORY 
 BOARD, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
DEPARTMENT OF COMMERCE; AND ED LINDELOF, ACTING MANAGER, GERRY 
   E. STUDDS STELLWAGEN BANK NATIONAL MARINE SANCTUARY, NOAA

    Ms. Yozell. Thank you, Madam Chair. Good afternoon.
    My name is Sally Yozell. I am the Deputy Assistant 
Secretary for Oceans and Atmosphere at U.S. Department of 
Commerce, and I thank you for this opportunity to testify today 
on the coral reef legislation and the national marine 
sanctuaries program.
    I am accompanied today by Dr. Michael Crosby, who is one of 
our coral experts at NOAA; and I want to, if I could, insert my 
statement into the record at this time.
    Senator Snowe. Without objection, so ordered.
    [The prepared statement of Ms. Yozell follows:]
  Prepared Statement of Sally Yozell, Deputy Assistant Secretary for 
           Oceans and Atmosphere, U.S. Department of Commerce

                              INTRODUCTION

    Good afternoon, Madame Chair and members of the Subcommittee. My 
name is Sally Yozell and I am the Deputy Assistant Secretary for Oceans 
and Atmosphere for the National Oceanic and Atmospheric Administration 
(NOAA). I would like to thank you for the opportunity to testify today 
on the Administration's proposal to reauthorize the National Marine 
Sanctuaries Act (NMSA), and on legislation to protect our coral reefs. 
Both the National Marine Sanctuaries Preservation Act of 1999 and 
Senator Snowe's and Senator Inouye's coral reef bills will further our 
ability to protect our National marine treasures. We at NOAA appreciate 
the interest in, and strong support for, the National Marine Sanctuary 
(NMS) System and coral reefs demonstrated by the Committee Members. 
First, I will discuss the reauthorization of the NMSA and then will 
address coral reef protection issues as reflected in S. 725, the Coral 
Reef Conservation Act of 1999, and S. 1253, the Coral Reef Protection 
Act of 1999.

NATIONAL MARINE SANCTUARIES
    In 1972, Congress established the National Marine Sanctuary System 
to protect our Nation's ``special places'' in the marine environment. 
Today, 25 years later, there are 12 sanctuaries in the system, with a 
13th, Thunder Bay in Lake Huron, Michigan undergoing designation. They 
range from the historic shipwreck of the Civil War vessel the USS 
Monitor, to the 5,300 square miles encompassing the submerged Monterey 
Canyon in California. In all, over 18,000 square miles of important 
marine habitats, including coral reefs, kelp forests, rocky shores, 
sandy beach and open ocean, are managed and protected by NOAA.
    I would like to begin first by talking about the important needs 
and strong support for the National Marine Sanctuary Program as 
identified in the President's Lands Legacy Initiative. Second, I will 
highlight some of the recent accomplishments of the National Marine 
Sanctuary System. Finally, I would like to present some ideas for the 
1999 reauthorization of the NMSA, as presented in the Administration's 
proposal transmitted to Congress on June 9, 1999.

                THE PRESIDENT'S LANDS LEGACY INITIATIVE

    The President's FY 2000 budget includes a $1 billion Lands Legacy 
Initiative to expand federal efforts to save America's natural 
treasures. This initiative would provide $105 million to NOAA to 
protect America's valuable ocean and coastal resources and to 
strengthen state and local efforts to address the problems caused by 
urban growth and sprawl.
    America's ocean and coastal areas are under siege by a whole suite 
of activities, including coastal population growth, development, 
maritime commerce, commercial and recreational fishing, and tourism. 
The economic and environmental well-being we derive from ocean and 
coastal resources and the beauty they provide is being seriously 
undermined by the use of these resources in unsustainable ways. 
Escalating losses and degradation of wetlands, beaches, fisheries, and 
essential habitats, and marine ecosystems must be reversed.
    The Lands Legacy Initiative will help ensure that our Nation's most 
treasured marine areas are conserved and protected for the benefit of 
present and future generations. The proposed $15 million increase for 
the Sanctuary program would, for the first time, allow all existing 
marine sanctuaries to approach core operating and staffing levels. At 
core operating level, each sanctuary would have enough staff, 
equipment, boats, facilities, and resources to carry out its basic 
mandate to protect sanctuary resources, conduct research, monitoring, 
education and interpretive programs, and involve local communities in 
nearly every aspect of sanctuary management. The core operating level 
varies from site to site and is a function of the Sanctuary's size, 
location, complexity of resource issues, and management objectives and 
priorities.

    The increased funding would also provide resources to:
(1) Enhance Conservation of Existing Sanctuaries

        <bullet> Design permanent system-wide monitoring programs to 
        track the status and trends of sanctuary resources and the 
        overall health of the sanctuary ecosystem;
        <bullet> Expand the coral reef monitoring program;
        <bullet> Initiate submerged cultural resource survey 
        inventories where appropriate;
        <bullet> Develop system-wide Geographic Information System 
        (GIS) capability;
        <bullet> Continue the five-year review and revision of 
        Sanctuary management plans at selected sites; and
        <bullet> Conduct habitat characterization and mapping at each 
        Sanctuary.

(2) Plan for the Future of the Sanctuary System
The Lands Legacy funding will position the Sanctuary system to consider 
the protection and conservation of additional significant and 
threatened areas by:

        <bullet> First allowing the designation and full implementation 
        of NOAA's thirteenth sanctuary and only site currently in the 
        designation process, Thunder Bay, Michigan in Lake Huron;
        <bullet> And, once the existing programs are up to par, work 
        with states and communities to identify potential sites for the 
        future.

(3) Expand Environmental Education and Outreach Efforts
    Of the $15 million increase, $3 million will begin the process of 
establishing a network of interpretive facilities, where the public and 
environmental decision-makers can learn about sanctuary resources and 
marine conservation issues. Currently, none of our sanctuaries have 
basic facilities for public education about these special areas. 
Adequate facilities, especially interpretive centers, are critical for 
the Sanctuary System as they provide the gateway to visiting a 
sanctuary. At these interpretive centers, many people will be able to 
experience and learn about the diverse wonders teeming beneath the 
waves.
    NOAA plans to work, whenever possible, through partnerships with 
existing aquaria, museums, and other facilities. For example, we are 
working in partnership with the National Park Service in the Florida 
Keys to develop a visitors' center with excess Navy property. In 
Boston, we are partnering with the New England Aquarium to take 
advantage of the more than one million visitors there. In Hawaii, we 
plan to complete an interpretive center in Kihei, Maui. These are just 
a few examples of goals we hope to accomplish in 2000.
                          year of opportunity
    The Year of the Ocean in 1998 provided a tremendous opportunity for 
NOAA to develop several successful high-profile partnerships which are 
essential to the sanctuary program. These partnerships increased public 
awareness of the important work NOAA is doing in our sanctuaries. In 
March 1998, Dr. Bob Ballard brought the Jason Project to the Monterey 
Bay Sanctuary in California. Using student argonauts and teachers from 
around the country, the Jason Project broadcast live educational 
programs from the Monterey Bay Aquarium, the Sanctuary, and NOAA ships 
to over two million school children across the U.S. and throughout the 
world.
    One year ago, with a $5 million grant from the Richard and Rhoda 
Goldman Fund, NOAA and the National Geographic Society launched the 
Sustainable Seas Expeditions, a five-year project of deep-water 
exploration and public education in NOAA's National Marine Sanctuaries. 
Dr. Sylvia Earle, National Geographic Society Explorer-in-Residence, is 
leading the expeditions to the 12 marine sanctuaries, using the newly 
designed DeepWorker, a one-person submersible capable of exploring to 
depths of 2000 feet. New underwater technologies will allow us to bring 
the ocean treasures of our sanctuaries to classrooms, the public, and 
scientists and managers in ways never before possible.
    The Sustainable Seas Expeditions began on April 15, 1999 at the 
Gulf of the Farallones NMS off San Francisco. In total, more than 29 
research projects and dozens of education projects, including teacher 
training and student summits, will be conducted throughout the 
sanctuaries in this first year alone. Through live internet broadcasts 
and news coverage, millions of Americans will be able to experience 
these scientific discoveries and extraordinary educational experiences 
first-hand.
    In June 1998, Monterey Bay hosted another important Year of the 
Ocean activity--the National Ocean Conference. NOAA and the Navy co-
hosted an ocean policy conference that brought President Clinton, the 
First Lady, Vice President Gore, Cabinet Secretaries, Members of 
Congress, agency heads, conservation groups and industry, scientists 
and teachers to discuss the role oceans play in our lives and our 
environment. The Sanctuary organized a highly successful community 
Oceans Fair to celebrate our ties to the community and our commitment 
to conserving the oceans.
    Finally, the Audubon Society took the opportunity in its December 
1998 issue of Audubon to reflect back on the greatest conservation 
accomplishments of the past 100 years. In the article, entitled ``The 
Century of Conservation,'' the society lists ``10 of the top gems'' in 
the Nation's ``crown jewels of its natural heritage.'' Within this 
distinguished list is NOAA's Monterey Bay National Marine Sanctuary.

                SANCTUARY MANAGEMENT PLAN IMPLEMENTATION

Management Plan Implementation
    I would now like to turn to some recent initiatives and 
accomplishments of the Sanctuary Program. All 12 designated national 
marine sanctuaries have management plans that contain site-specific 
long-range research and education priorities, regulations, and other 
resource management measures to conserve and protect sanctuary 
resources. The plans vary in age and complexity as well as the 
resources they protect. Each year, the sanctuary managers develop 
annual operating plans to prioritize and detail action items that 
implement components of their management plans. The number and types of 
elements included in an annual operating plan are ultimately determined 
by annual program funding.
    The Sanctuary Program has made substantial progress over the last 
few years, with small appropriation increases and through partnerships, 
to find additional resources to help implement components of individual 
sanctuary management plans. However, funding has not been sufficient to 
allow the program to fully implement every plan.
Sanctuary Management Plan Review
    Some of the sanctuary management plans are nearly twenty years old. 
The site priorities and specific education, research, and resource 
protection goals may be outdated. Last December, NOAA initiated a 
process to involve the public in a systematic review of sanctuary 
management plans. Stellwagen Bank NMS in Massachusetts became the first 
site in the national system to begin a management plan review process 
by holding public scoping meetings that will help evaluate the success 
in meeting sanctuary goals and objectives and by making revisions, if 
necessary, to its management plan and regulations. Channel Islands 
(California) has also initiated its five-year review process by holding 
scoping meetings earlier this month, and Gray's Reef (Georgia) NMS will 
begin its review process later this year.
     Expeditions to U.S.S. Monitor Continue to Meet the Goals of the 
Monitor Comprehensive Plan Last April, pursuant to Section 4 of Public 
Law 104-283 (The National Marine Sanctuaries Preservation Act), NOAA 
submitted to Congress a new plan entitled ``Charting a New Course for 
the Monitor: A Comprehensive, Long Range Preservation Plan with Options 
for Management, Stabilization, Preservation, Recovery, Conservation, 
and Exhibition of Materials and Artifacts from the Monitor National 
Marine Sanctuary.''
    The first phase of the plan was initiated last summer during the 
successful 1998 expedition to the USS Monitor off Cape Hatteras, North 
Carolina. The primary purpose of this expedition was to complete all 
tasks that must precede the stabilization of the hull and recovery of 
major hull components, as called for in the Monitor NMS Long Range 
Comprehensive Preservation Plan. Major 1998 accomplishments include: 
thoroughly mapping and documenting key areas of the Monitor's hull, 
mapping and recovering exposed and threatened artifacts, and recovering 
of the Monitor's unique iron propeller and an 11-foot section of shaft. 
The expedition was the combined effort of the U.S. Navy, NOAA's 
National Marine Sanctuaries, the NOAA Diving Center, the National 
Undersea Research Center (NURC) / University of North Carolina at 
Wilmington, the Cambrian Foundation, and The Mariners' Museum.
    We are currently undertaking a Navy expedition to test the 
feasibility of stabilizing the Monitor's hull and removing significant 
hull components. In August a second expedition involving NOAA, NURC and 
Cambrian Foundation divers will document and assess the Navy's mission 
results and continue mapping and recovery of artifacts that might be 
damaged during the upcoming stabilization and recovery operations. If 
adequate funding is obtained, the goals for the next two years include 
the stabilization of the Monitor's hull and the recovery of the steam 
machinery, guns and turret.

           MONITORING OF NATIONAL MARINE SANCTUARY RESOURCES

    One of the most critical needs within the Sanctuary Program is 
monitoring. NOAA is currently developing a system-wide plan to monitor 
its natural resources. This effort will begin in our coral reef sites, 
including the Florida Keys, Flower Gardens, Gray's Reef, Hawaiian 
Islands, and Fagatele Bay. This initiative is an effort to ensure that 
all sites containing coral reefs and coral communities have, at a 
minimum, comparable and effective monitoring. The goals are to obtain 
information that will provide managers with accurate characterizations 
of their sites and to describe current conditions in a manner that 
allows detection of changes over time. The full-funding of our Lands 
Legacy Initiative is critical to implementing this system-wide 
monitoring program.
    As one component of the coral monitoring program, the Florida Keys 
National Marine Sanctuary initiated a five-year zone monitoring program 
in 1997 to look at changes in ecosystem function and populations of key 
species to gauge the relative effectiveness of the sanctuary's zoning 
program. Sanctuary and Florida Department of Environmental Protection 
staff recently brought together various scientists involved in 
monitoring the zones and determined that, after the first full year of 
protection, the Sanctuary's 23 no-take zones are showing signs of 
restoring spiny lobster and fish populations.
    The breadth of system-wide, regional, and local monitoring programs 
will increase with time as specific needs are identified, as management 
issues emerge, and as partnership opportunities arise. Initial plans 
are to work with other relevant parts of NOAA to design a focused 
monitoring program in the sanctuaries. Specifically, a plan is being 
developed with NOS' National Centers for Coastal Ocean Science that 
will incorporate many NOAA experts in the design and implementation of 
the coral reef and system-wide monitoring efforts. In addition, 
discussions with mapping experts in NOAA and USGS are likely to lead to 
cooperation on habitat mapping, which will provide site 
characterizations at larger scales than is possible using ground 
surveys.
    These efforts are but a few examples of the initiatives being 
undertaken by the National Marine Sanctuary Program to protect and 
manage our Nation's ``special places.'' With an eye toward the future, 
I would like to discuss the 1999 reauthorization of the NMSA.

        THE NATIONAL MARINE SANCTUARIES PRESERVATION ACT OF 1999

    With the help of interested constituents and stakeholders, NOAA has 
identified areas where the NMSA may be improved. I would like to 
highlight some of those areas for you today.
Primary Mandate--Resource Protection
    The primary mandate of the NMSA is stated as ``resource 
protection''. The Administration's proposal clarifies and improves the 
mandate for ecosystem management by including such language as 
``maintain natural biodiversity and biological communities, and to 
protect, and where appropriate, restore and enhance natural habitats, 
populations, and ecological processes''. The Administration's proposal 
also stresses the importance of ``precautionary and preventive 
management actions''.

Effective System Management
    Management of the System would not be fully effective without the 
partnerships of others. The Administration's bill adds language to 
increase NOAA's ability to use additional resources to manage National 
Marine Sanctuaries and to expand the role of non-profit organizations 
and the use of the Sanctuary logo by collaborating organizations.

Decreasing Burdens and Clarifying Procedures
    The Administration's proposal simplifies the procedures necessary 
to change a term of designation for an existing sanctuary. In addition, 
it increases flexibility and predictability for issuance of special use 
permits and revises natural resource damage assessment provisions to 
better reflect current practices.

Strengthening Research and Education Missions
    Effective scientific research and education and public outreach are 
fundamental to good resource protection. To strengthen NOAA's ability 
to understand and manage sanctuary resources, our proposal emphasizes 
research and education activities that are appropriate to further our 
resource protection mission. To better bring our sanctuaries to the 
public, the Administration's bill also provides for the development of 
interpretive facilities.

Adequate Funding
    Finally, our legislation authorizes $29 million for the Sanctuary 
Program, as outlined in the President's FY2000 budget request. This 
increase in funding is imperative to fully and effectively manage the 
National Marine Sanctuary System. Reauthorization of the NMSA provides 
us with a unique opportunity to strengthen the Nation's only 
comprehensive system of marine protected areas. We look forward to 
working with the Committee on these important issues.

CORAL REEF PROTECTION
    I would like to turn my attention now to S. 725, the Coral Reef 
Conservation Act of 1999 and S. 1253, the Coral Reef Protection Act of 
1999. I would like to take this opportunity to thank Senators Snowe and 
Inouye for their leadership in introducing bills to address the serious 
problems surrounding our coral reefs.
    Coral reefs are extremely valuable for a variety of reasons, 
including the thousands of jobs and billions of dollars they generate 
every year from tourism, recreation and fishing. Coral reefs are 
probably the most valuable and the most threatened marine ecosystems on 
the planet.
    Right now the future of these incredible ``rainforests of the sea'' 
is very much at risk. Coral reefs in the U.S. and around the world are 
quickly being destroyed by a powerful combination of stresses such as 
polluted runoff, fishing impacts, ship groundings, marine debris trade 
and coral reef species, and new diseases. Most of our fragile coral 
reefs are being hit by these impacts simultaneously. In addition, we 
are still discovering the impacts of global climate change on coral 
reefs. During the past two years we have seen unprecedented levels of 
coral bleaching and mortality associated with abnormally high sea 
temperatures. Evidence now shows that increasing carbon dioxide levels 
could significantly impact reefs worldwide by slowing their growth. 
Together, these impacts overwhelm the corals and other reef species. 
Our reefs are dying deaths of a thousand cuts.
    The Nation's reefs cannot withstand this onslaught of insults. If 
we don't act now, we will lose our most precious, valuable and 
irreplaceable reefs. The social and economic costs to current and 
future generations will be severe. Many of our coral reefs are in 
crisis. This is a battle we cannot afford to lose. The Administration 
strongly supports comprehensive legislation that increases conservation 
and restoration of coral reefs and coral reef ecosystems. Senate bills 
725 and 1253 are powerful steps forward in addressing the coral reef 
crisis. I applaud the Committee's leadership and commitment to 
protecting these incredible reef resources and the communities and 
economies that depend on them.
    I would like to briefly present some specific information on the 
threats to our coral reefs and what can be done to address the coral 
crisis. I also have specific comments on the two coral bills.
    World wide coral reefs cover less than one percent of the ocean 
floor. They are some of the largest and oldest living structures on 
earth. Like tropical rainforests they contain some of the highest 
biodiversity on the planet. Coral reefs are home to 25% of all marine 
fish species and thousands of other species.
    The U.S. has significant coral reefs in the southern Atlantic, 
Caribbean, Gulf of Mexico, and the western Pacific. Coral reefs in U.S. 
waters cover approximately 17,000 square kilometers and include:

        <bullet> The Florida Keys Coral Reef System, the third largest 
        barrier reef in the world reaching over 360 kilometers in 
        length. The Keys coral reefs are home to over 5,500 species and 
        the world's largest sea grass bed (Florida Bay);
        <bullet> Diverse Caribbean coral reefs in Puerto Rico and the 
        U.S. Virgin Islands;
        <bullet> Approximately 90% of all U.S. reefs are in the western 
        Pacific islands of Hawaii, Guam, American Samoa, and the 
        Commonwealth of the Northern Marianas.

    In the U.S., coral reefs have significant economic and social 
value. For example, reefs are the foundation of billions of dollars in 
economic activity through fishing and tourism:

        <bullet> Over 50% of all federally managed fisheries species 
        depend on coral reefs for some part of their life;
        <bullet> The annual dockside value of commercial U.S. fisheries 
        from coral reef ecosystems is over $100 million.
        <bullet> The annual value of reef-dependent recreational 
        fisheries probably exceeds $100 million per year.
        <bullet> U.S. coral reef ecosystems support billions of dollars 
        in tourism every year. For example, tourism related to coral 
        reef ecosystems produces over $2.0 billion per year in the 
        Florida Keys and Hawaii.

    Coral reefs are also valuable sources of new medicines and 
biochemicals. It is estimated that marine ecosystems, and coral reefs 
in particular, will be the primary source of new biomedical compounds 
in the 21st century. Thousands of unique chemicals have already been 
described and the exploration has just begun. Powerful new anti-cancer, 
anti-coagulant, and anti-inflammation compounds have recently been 
developed from coral reef species.
    Coral reefs also help prevent shoreline erosion and provide life 
saving protection from waves and storms for millions of people in 
coastal communities.
    All of this is currently at risk.
    Recent studies suggest that over 60% of the world's coral reefs are 
being degraded or destroyed by human activities. Ten percent of the 
reefs may already be degraded beyond recovery.
    Many of our Nation's reefs have been destroyed or seriously 
degraded, especially shallow reefs near coastal areas with large 
populations. Under natural conditions coral reefs are quite resilient 
and can recover from natural disturbances such as storms and changes in 
sea level. The current coral reef crisis is driven by a variety of 
human activities that together overwhelm the reef and destroy coral 
reef communities. Signs that our reefs are in trouble are numerous. For 
example,

        <bullet> Increased pollution and sedimentation in many coastal 
        areas have damaged reef resources;
        <bullet> The number of coral diseases and the number of 
        infections has increased dramatically in Florida and Caribbean 
        reefs in the last five years;
        <bullet> In Florida and Caribbean reefs, two of the most common 
        shallow water coral species have severely declined throughout 
        their range with losses of over 95% in some areas.
        <bullet> In the Caribbean, over 20% of the reef-dependent 
        fisheries are considered over-fished; the status of most others 
        is unknown;
        <bullet> In some Hawaiian reefs, the most abundant reef fish 
        species have declined by 40% to 60%.
        <bullet> Every year hundreds of vessels strike U.S. coral reefs 
        causing significant damage that goes largely unrepaired. In the 
        Florida Keys alone, approximately 500 small vessel groundings 
        occur each year.
        <bullet> The number of reef-dependent species considered at 
        risk, threatened or endangered is increasing.
        <bullet> Last year we observed unprecedented levels of coral 
        bleaching associated with abnormally high sea surface 
        temperatures;
        <bullet> And we have no comprehensive program to monitor, 
        protect or restore the nation's coral reefs.

    I wish I could give you a more comprehensive assessment of the 
condition of U.S. coral reef resources. Unfortunately the data are not 
available. We estimate that less than 10 % of the Nation's coral reefs 
have been adequately mapped and characterized to determine their 
current condition. Even fewer are adequately monitored to track their 
health.
    Our state and territorial partners are in desperate need of maps 
and other tools, information and resources to implement coral reef 
monitoring programs, track the health of their reefs, and take action 
to protect them. Providing this kind of assistance is critical to the 
future of the Nation's coral reefs because over 35% of all U.S. coral 
reefs are within state or territorial waters.
    On land, we often take maps for granted. Imagine trying to manage 
our National Forests or make land-use decisions as a state resource 
manager without adequate maps of where the resources are, what 
condition they are in, and what they are being used for. This is our 
current situation for coral reefs. Local, state and federal managers 
are having to make very difficult decisions without some of the most 
basic information.
    We can dramatically change this situation. By helping states and 
territories implement effective mapping, assessment, monitoring, 
research and restoration, we can build a comprehensive effort to 
regularly track and improve the health of U.S. coral reefs. This is one 
of two critical steps towards winning the battle for our coral reefs.
    The other critical step is action. Many of our corals are being 
destroyed faster than they can recover. We must reduce the threats to 
our reefs or face the very real possibility that coral reefs as we know 
them will disappear within our lifetime.
    In many cases we know what the problems are and what we need to do 
to solve them. The best possible way to protect and restore coral reefs 
is to stop the things that are destroying them. We must act now at 
local, state or territory and national levels to reduce the impacts of 
coastal water pollution, fishing impacts, marine debris, ship strikes 
and other key threats to our reefs.
    At the National Ocean Conference, President Clinton signed 
Executive Order 13089 on coral reef protection which established the 
U.S. Coral Reef Task Force, which is co-chaired by the Department of 
Commerce and the Department of Interior, and tasked federal agencies 
with developing new comprehensive measures to map, monitor, protect and 
restore our precious coral reefs. As part of the U.S. Coral Reef Task 
Force, federal agencies, states and territories are developing a 
national action plan to prioritize and address threats to our Nation's 
reefs.
    While the Task Force Action Plan is still in draft form, the Task 
Force has already identified many of the key threats and possible 
solutions as called for in the Executive Order. Key actions proposed 
for FY 2000 include:

1. Launching a comprehensive effort to map and assess U.S. coral reefs 
in the Pacific;
2. Establish a coordinated network of coral reef protected areas, 
building on existing sites and activities;
3. Implement a coordinated reef monitoring program;
4. Build emergency response capabilities and restoration efforts;
5. Strengthen local and regional efforts to protect and manage reefs by 
supporting the U.S. Islands Coral Reef Initiative.
6. Work on the international front to address global and regional 
threats to coral reefs.

    NOAA's FY 2000 budget includes $12 million to directly support 
these actions and begin fulfilling the Executive Order for conservation 
and restoration of coral reefs. It is NOAA's first request specifically 
targeting coral reefs. NOAA has no funding to specifically address the 
coral crisis at this time. S. 725 and S. 1253 both propose 
authorization for important new resources to begin addressing the coral 
crisis. Both bills would establish a competitive grant program to make 
these resources available to government and non-government entities at 
local, state and territory levels where direct actions can be taken to 
protect individual reefs. We strongly support these programs and their 
focus on, on-the-ground efforts such as monitoring, management, 
education and restoration. We would consult with our partners on the 
Coral Reef Task Force to effectively direct such resources.
    Both bills also include an important tool to leverage federal 
dollars by establishing a formal mechanism for working with a qualified 
non-profit organization to collect and allocate matching monetary 
donations from the private sector. We believe local-level actions and 
public-private partnerships are powerful tools for coral reef 
conservation and restoration. However, the Administration recommends 
that section 5 of S. 725 and section 10 of S. 1253 be amended to 
conform to the following principles. Federal funds should not earn 
interest, should not be under the control of non-Federal personnel and 
should not be held outside of the Treasury.
    S. 1253 includes several additional elements to comprehensively 
address aspect of the coral crisis. For example, it includes 
authorizations to directly support federal efforts to conserve and 
restore coral reefs. NOAA has a wide range of responsibilities for 
coral reefs and reef resources including management of federal 
fisheries and National Marine Sanctuaries with coral resources. NOAA 
currently has tools and capabilities that, with these additional 
resources, could provide key tools, information and resources to help 
government and non-governmental partners protect, restore and 
sustainably use coral reefs.
    S. 1253 also includes a provision to help prevent the destructive 
and dangerous practice of abandoning vessels on U.S. reefs. We are very 
concerned about the risks these vessels create to the reefs and the 
coastal communities that depend on them. We are also concerned about 
the lack of effective mechanisms to prevent and remove such vessels. We 
believe this provision in S. 1253 could help prevent vessel abandonment 
on coral reefs but want to work with the Committee to review additional 
measures which may also be necessary. We look forward to working with 
you, our federal and state partners, and the private sector to develop 
a broader approach to addressing this problem.
    The Administration's FY 2000 budget includes a total of $21 million 
in new funding to support the coral reef conservation and restoration 
efforts I've discussed here today. This includes $12 million for the 
Department of Commerce and $9 million for the Department of the 
Interior. Coordinated action by both NOAA and the Department of the 
Interior are essential to meet the Nation's coral reef conservation 
needs. S. 1253 provides the necessary authorization to carry out these 
actions for our coral reefs.
    I would like to reiterate the Administration's strong support for 
comprehensive legislation that increases conservation and protection of 
coral reefs and coral reef ecosystems. I thank Senators Snowe and 
Inouye for focusing on this important issue.
                               conclusion
    In conclusion, I applaud the Committee's leadership and commitment 
to protecting our incredible ocean resources, and the communities and 
economies that depend on them. We look forward to working with you to 
win the battle for the Nation's precious coral reefs and our valuable 
National Marine Sanctuaries.

    Ms. Yozell. First and foremost, I want to commend the 
Committee for its leadership on these issues. Let me turn, 
however, to the Sanctuaries Act reauthorization. The 
Sanctuaries Act is responsible for a unique network of marine 
protected areas dedicated to the conservation of nationally 
significant habitats for the enjoyment and use by present and 
future generations.
    Marine protected areas play a critical role in ensuring a 
healthy environment and a healthy economy. For purposes of 
today's hearing I would like to focus my remarks on the 
Administration's proposal and give some examples of our 
accomplishments and successful partnerships.
    The Administration's support for the act was reinforced 
recently when the President announced his Lands Legacy 
Initiative in his fiscal year 2000 budget request. This 
includes an increase of $15 million to strengthen the sanctuary 
program in the following three areas:
    First, if Congress provides the increase, funds will be 
used to enhance the conservation and management of existing 
sanctuaries. So what that means is for the first time 
sufficient funds would be available for all of the existing 
sanctuaries to approach just a core operating and staffing 
level.
    Second, the increase will be used to support critical 
sanctuary education and outreach efforts. Sanctuaries, because 
they are located mostly offshore and underwater, are difficult 
places for Americans to visit and learn about. None of the 
sanctuaries currently have interpretive facilities, so trying 
to understand these places is very difficult, and understanding 
them is key to their protection.
    Third, the Lands Legacy funding will enable NOAA to work 
with coastal communities and States and others to identify and 
evaluate potential new areas for growth. Presently Thunder Bay, 
located in Lake Huron, Michigan, is the only site undergoing 
active designation.
    NOAA has been working with our stakeholders to identify 
changes we need to make to the program to make it more 
effective. Earlier this month we transmitted to Congress the 
National Marine Sanctuaries Preservation Act of 1999, and I 
will submit that for the record as well.
    Senator Snowe: Without objection.
    [The information referred to follows:]

          National Marine Sanctuaries Preservation Act of 1999
106th CONGRESS
2d Session

                                 A BILL

    To reauthorize and amend the National Marine Sanctuaries Act and 
for other purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1.

    This Act may be cited as the ``National Marine Sanctuaries 
Preservation Act of 1999.''

SECTION 2.

    The National Marine Sanctuaries Act (16 U.S.C. 1431 et seq.) is 
amended to read as follows:

                ``The National Marine Sanctuaries Act''

                         16 U.S.C. 1431 et seq.
[NOTE: The Oceans Act of 1992, Pub. L. 102-587, and the National Marine 
Sanctuaries Preservation Act of 1996, Pub. L. 104-283, contain 
provisions pertaining to national marine sanctuaries.]

Sec. 301. FINDINGS, PURPOSES, AND POLICIES

(a) FINDINGS.--The Congress finds that--

          (1) this Nation historically has recognized the importance of 
        protecting special areas of its public domain, but these 
        efforts have been directed almost exclusively to land areas 
        above the high-water mark;
          (2) certain areas of the marine environment possess 
        conservation, recreational, ecological, historical, research, 
        monitoring, educational, cultural, archaeological or aesthetic 
        qualities, which give them special national, and in some 
        instances, international, significance;
          (3) while the need to control the effects of particular 
        activities has led to enactment of resource-specific 
        legislation, these laws cannot in all cases provide coordinated 
        and comprehensive ecosystem conservation and management to 
        special areas of the marine environment;
          (4) a Federal program which identifies special areas of the 
        marine environment will contribute positively to marine 
        resources conservation, research, and management;
          (5) such a Federal program of marine protected areas will 
        also serve to enhance public awareness, understanding, 
        appreciation, and sustainable use of the marine environment;
          (6) this integrated network of marine protected areas, the 
        National Marine Sanctuary System, provides added value to the 
        nation beyond their individual boundaries by applying 
        innovative management techniques across the entire national 
        system; and
          (7) protecting the biodiversity, habitats, and qualities of 
        such special areas through precautionary and preventive 
        management actions can contribute to maintaining a natural 
        assemblage of living resources and the values and ecological 
        services they provide for future generations.

(b) PURPOSES AND POLICIES.--The purposes and policies of this title 
are--

          (1) to identify and designate as national marine sanctuaries 
        areas of the marine environment which are of special national 
        significance;
          (2) to provide authority for comprehensive and coordinated 
        conservation and management of these marine areas, and 
        activities affecting them, in a manner which complements 
        existing regulatory authorities;
          (3) to maintain natural biodiversity and species assemblages, 
        and to protect, and where appropriate, restore and enhance, 
        natural habitats, populations, and ecological processes
          (4) to enhance public awareness, understanding and 
        appreciation of the marine environment and the natural, 
        historical, cultural, and archaeological resources of national 
        marine sanctuaries, in order to ensure their conservation and 
        sustainable use for future generations;
          (5) to support, promote, and coordinate appropriate 
        scientific research on, and long-term monitoring of the 
        resources of these marine protected areas;
          (6) to allow to the extent compatible with the primary 
        objective of resource protection, all public and private uses 
        of the resources of these marine areas not prohibited pursuant 
        to other authorities;
          (7) to develop and implement coordinated plans for the 
        protection and management of these areas with appropriate 
        Federal agencies, State and local governments, Native American 
        tribes and organizations, international organizations, and 
        other public and private interests concerned with the 
        continuing health and resilience of these marine areas;
          (8) to create models of, and incentives for, ways to conserve 
        and manage these areas, including the application of innovative 
        management techniques;
          (9) and to cooperate with global programs encouraging 
        conservation of marine resources.

Sec. 302. DEFINITIONS

As used in this title, the term--

          (1) ``draft management plan'' means the plan described in 
        section 304 (a)(2)(A) of this title;
          (2) ``Magnuson Act'' means the Magnuson-Stevens Fishery 
        Conservation and Management Act (16 U.S.C. 1801 et seq.);
          (3) ``marine environment'' means those areas of coastal and 
        ocean waters, the Great Lakes and their connecting waters, and 
        submerged lands over which the United States exercises 
        jurisdiction, including the exclusive economic zone, consistent 
        with international law;
          (4) ``exclusive economic zone'' means the exclusive economic 
        zone as defined in the Magnuson-Stevens Fishery Conservation 
        and Management Act;
          (5) ``Secretary'' means the Secretary of Commerce;
          (6) ``State'' means each of the several States, the District 
        of Columbia, the Commonwealth of Puerto Rico, the Commonwealth 
        of the Northern Mariana Islands, American Samoa, the Virgin 
        Islands, Guam, and any other commonwealth, territory, or 
        possession of the United States;
          (7) ``sanctuary resource'' means any living or nonliving 
        resource of a national marine sanctuary that contributes to the 
        conservation, recreational, ecological, historical, research, 
        monitoring, educational, cultural, archaeological, or aesthetic 
        value of the sanctuary;
          (8) ``injure'' means to change adversely a sanctuary 
        resource, including, but not limited to, adversely changing a 
        chemical, biological, or physical attribute of a sanctuary 
        resource, or impairing a sanctuary resource service. Injury may 
        occur directly, indirectly or cumulatively, and may be either 
        long or short-term. Injure includes, but is not limited to, to 
        cause the loss of, loss of use, or destroy;
          (9) ``service'' means a function performed by a sanctuary 
        resource for the benefit of another sanctuary resource, other 
        natural resource or the public;
          (10) ``person'' means any individual, corporation, 
        partnership, or other entity, or any officer, employee, agent, 
        department, agency, or instrumentality of the Federal 
        government, of any State or local unit of government, or of any 
        foreign government;

          (11) ``damages'' includes--

                  (A) compensation for--

                        (1) the cost of restoring or rehabilitating the 
                        injured sanctuary resource and its services to 
                        baseline condition until the sanctuary resource 
                        has recovered to its baseline condition; and
                        (2) (i) the cost of replacing or acquiring 
                        resources and services of equivalent value to 
                        the sanctuary resources and services lost; or
                        (ii) the value of the sanctuary resources and 
                        services from the date the injury occurred 
                        until the sanctuary resource has recovered to 
                        its baseline condition;
                  (B) the cost of damage assessments under section 
                312(b)(2);
                  (C) the reasonable cost of monitoring appropriate to 
                the injured, restored, or replaced resources;
                  (D) the cost of curation and conservation of 
                archaeological, historical and cultural sanctuary 
                resources; and
                  (E) the cost of enforcement actions undertaken by the 
                Secretary for losses to sanctuary resources;

          (12) ``baseline'' means the condition of sanctuary resources 
        and services that would have existed had the incident not 
        occurred;
          (13) ``response costs'' means the costs of actions taken or 
        authorized by the Secretary to minimize destruction or loss of, 
        or injury to, sanctuary resources, or to minimize the imminent 
        risks of such destruction, loss, or injury, including 
        enforcement activities related to any incident; and
          (14) ``cause'' means a reasonably close causal connection 
        between the conduct and the resulting injury.
Sec. 303. SANCTUARY DESIGNATION STANDARDS

(a) STANDARDS.--The Secretary may designate any discrete area of the 
marine environment as a national marine sanctuary and promulgate 
regulations implementing the designation if the Secretary--

          (1) determines that the designation will fulfill the purposes 
        and policies of this title; and
          (2) finds that--

                (A) the area is of special national significance due to 
                its biodiversity, its ecological importance, its 
                archaeological, cultural or historical importance, or 
                its human use values;
                (B) existing State and Federal authorities should be 
                supplemented to ensure coordinated and comprehensive 
                conservation and management of the area, including 
                resource protection, scientific research, and public 
                education;
                (C) designation of the area as a national marine 
                sanctuary will facilitate the objectives in 
                subparagraph (B); and
                (D) the area is of a size and nature that will permit 
                comprehensive and coordinated conservation and 
                management,

(b) FACTORS AND CONSULTATIONS REQUIRED IN MAKING DETERMINATIONS AND 
FINDINGS.--

          (1) Factors.--For purposes of determining if an area of the 
        marine environment meets the standards set forth in subsection 
        (a), the Secretary shall consider--

                (A) the area's natural resource and ecological 
                qualities, including its biodiversity, species 
                assemblages, ecological significance, biogeographic 
                representation, contribution to local and regional 
                biological productivity, ecosystem structure and 
                function, and the maintenance of ecologically or 
                economically important habitats and species, including 
                threatened and endangered species;
                (B) the area's historical, cultural, archaeological, or 
                paleontological significance;
                (C) the present and potential human uses of the area 
                that depend on maintenance of a healthy and functional 
                natural ecosystem;
                (D) the present, and potential activities that may 
                threaten or otherwise adversely affect the factors 
                identified in subparagraphs (A), (B), (C);
                (E) the area's scientific value as a protected area;
                (F) the existing State and Federal regulatory and 
                management authorities applicable to the area and the 
                adequacy of those authorities, to fulfill the purposes 
                and policies of this title;
                (G) the manageability of the area, including such 
                factors as its size, its location, its vulnerability to 
                significant ecological disturbance, its ability to be 
                identified as a discrete ecological unit with definable 
                boundaries, its accessibility, and its suitability for 
                monitoring and enforcement activities;
                (H) the feasibility, where appropriate, of employing 
                innovative management approaches to protect sanctuary 
                resources or manage compatible uses.
                (I) the value of the site as part of an integrated 
                network of marine protected areas, both within the 
                National Marine Sanctuary System, and in the broader 
                context of marine protected areas throughout the United 
                States and internationally.
                (J) the public benefits to be derived from sanctuary 
                status, with emphasis on the benefits of long-term 
                protection of nationally significant resources, 
                qualities and vital habitats;
                (K) the negative impacts produced by management 
                restrictions on income-generating activities such as 
                living and nonliving resources development; and
                (L) the socioeconomic effects of sanctuary designation.

          (2) Consultation.--In making determinations and findings, the 
        Secretary shall consult with--

                (A) the Committee on Resources of the House of 
                Representatives and the Committee on Commerce, Science, 
                and Transportation of the Senate;
                (B) the Secretaries of State, Defense, Transportation, 
                and the Interior, the Administrator of the 
                Environmental Protection Agency, and the heads of other 
                interested Federal agencies;
                (C) the responsible officials or relevant agency heads 
                of the appropriate State and local government entities, 
                including coastal zone management agencies, that will 
                or are likely to be affected by the establishment of 
                the area as a national marine sanctuary;
                (D) the appropriate officials of any Regional Fishery 
                Management Council established by section 302 of the 
                Magnuson Act (16 U.S.C. 1852) that may be affected by 
                the proposed designation; and
                (E) other interested persons.

          (3) Resource Assessment Report.--In making determinations and 
        findings, the Secretary shall draft, as part of the 
        environmental impact statement referred to in section 
        304(a)(3), a resource assessment report documenting present and 
        potential uses of the area, including commercial and 
        recreational fishing, research and education, minerals and 
        energy development, subsistence uses, and other commercial, 
        governmental, or recreational uses. The Secretary, in 
        consultation with the Secretary of the Interior, shall draft a 
        resource assessment section for the report regarding any 
        commercial, governmental, or recreational resource uses in the 
        area under consideration that are subject to the primary 
        jurisdiction of the Department of the Interior. The Secretary, 
        in consultation with the Secretary of Defense, the Secretary of 
        Energy, and the Administrator of the Environmental Protection 
        Agency, shall draft a resource assessment section for the 
        report including information on any past, present or proposed 
        future disposal or discharge of materials in the vicinity of 
        the proposed sanctuary. Public disclosure by the Secretary of 
        such information shall be consistent with national security 
        regulations.

Sec. 304. PROCEDURES FOR DESIGNATION AND IMPLEMENTATION

(a) SANCTUARY PROPOSAL.--

          (1) Notice.--In proposing to designate a national marine 
        sanctuary, the Secretary shall--

                (A) issue, in the Federal Register, a notice of the 
                proposal, proposed regulations that may be necessary 
                and reasonable to implement the proposal, and a summary 
                of the draft management plan;
                (B) provide notice of the proposal in newspapers of 
                general circulation or electronic media in the 
                communities that may be affected by the proposal; and
                (C) on the same day the notice required by subparagraph 
                (A) is issued, the Secretary shall submit to the 
                Committee on Resources of the House of Representatives 
                and the Committee on Commerce, Science and 
                Transportation of the Senate Science and Transportation 
                of the Senate the following:

                        (i) the draft environmental impact statement 
                        prepared pursuant to 304(a)(3);
                        (ii) the draft Management Plan prepared 
                        pursuant to 304(a)(2);
                        (iii) the basis of the findings made under 
                        section 303(a) with respect to the area;
                        (iv) an assessment of the considerations under 
                        section 303(b)(1);
                        (v) an estimate of the annual cost of the 
                        proposed designation, including costs of 
                        personnel, equipment and facilities, 
                        enforcement, research, and public education;

          (2) Management Plan.--The Secretary shall--

                (A) prepare a Management Plan document for the proposed 
                sanctuary that includes:

                        (i) the terms of the proposed designation;
                        (ii) proposed mechanisms to coordinate existing 
                        regulatory and management authorities within 
                        the area;
                        (iii) the proposed goals and objectives; 
                        management responsibilities; resource studies; 
                        and appropriate strategies for managing 
                        sanctuary resources, interpretation and 
                        education, research, monitoring and assessment, 
                        resource protection, restoration, and 
                        enforcement, including surveillance activities 
                        for the area;
                        (iv) an evaluation of the advantages of 
                        cooperative State and Federal management if all 
                        or part of a proposed marine sanctuary is 
                        within the territorial limits of any State or 
                        is superjacent to the subsoil and seabed within 
                        the seaward boundary of a State, as that 
                        boundary is established under the Submerged 
                        Lands Act (43 U.S.C. 1301 et seq.); and
                        (v) the proposed regulations referred to in 
                        subparagraph (A).

                (B) make copies of the draft Management Plan available 
                to the public.

          (3) Environmental Impact Statement.--The Secretary shall--

                (A) prepare a draft environmental impact statement, 
                pursuant to the National Environmental Policy Act of 
                1969 (42 U.S.C. 4321 et seq.), on the proposal that 
                includes the resource assessment report required under 
                section 303(b)(3), maps depicting the boundaries of the 
                proposed designated area, and the existing and 
                potential uses and resources of the area, and
                (B) make copies of the draft environmental impact 
                statement available to the public.

          (4) Terms of Designation.--The terms of designation of a 
        sanctuary shall include: the geographic area proposed to be 
        included within the sanctuary; the characteristics of the area 
        that give it conservation, recreational, ecological, 
        historical, research, monitoring, educational, cultural, 
        archaeological or aesthetic value; and a list of the types of 
        activities that may be subject to regulation to protect 
        sanctuary resources. The terms of designation may be modified 
        by following the applicable procedures of the National 
        Environmental Policy Act and the Administrative Procedure Act.
          (5) Public Hearing.--No sooner than thirty days after issuing 
        a notice under this subsection, the Secretary shall hold at 
        least one public hearing in the coastal area or areas that will 
        be most affected by the proposed designation of the area as a 
        national marine sanctuary for the purpose of receiving the 
        views of interested parties.
          (6) Fishing Regulations.--The Secretary shall provide the 
        appropriate Regional Fishery Management Council with the 
        opportunity to prepare draft regulations for fishing within the 
        Exclusive Economic Zone as the Council may deem necessary to 
        implement the proposed designation. Draft regulations prepared 
        by the Council, or a Council determination that regulations are 
        not necessary pursuant to this paragraph, shall be accepted and 
        issued as proposed regulations by the Secretary unless the 
        Secretary finds that the Council's action fails to fulfill the 
        purposes and policies of this title and the goals and 
        objectives of the proposed designation. In preparing the draft 
        regulations, a Regional Fishery Management Council shall use as 
        guidance the national standards of section 301(a) of the 
        Magnuson Act (16 U.S.C. 1851) to the extent that the standards 
        are consistent and compatible with the goals and objectives of 
        this Act and the proposed designation. The Secretary shall 
        prepare the fishing regulations, if the Council declines to 
        make a determination with respect to the need for regulations, 
        makes a determination which is rejected by the Secretary, or 
        fails to prepare the draft regulations in a timely manner. Any 
        amendments to the fishing regulations shall be drafted, 
        approved, and issued in the same manner as the original 
        regulations. The Secretary shall also cooperate with other 
        appropriate fishery management authorities with rights or 
        responsibilities within a proposed sanctuary at the earliest 
        practicable stage in drafting any sanctuary fishing 
        regulations.
          (7) Committee Action.--After receiving the documents under 
        subsection (a)(l)(C), Committee on Resources of the House of 
        Representatives and the Committee on Commerce, Science, and 
        Transportation of the Senate may each hold hearings on the 
        proposed designation and on the matters set forth in the 
        documents. If within the forty-five day period of continuous 
        session of Congress beginning on the date of submission of the 
        documents, either Committee issues a report concerning matters 
        addressed in the documents, the Secretary shall consider this 
        report before publishing a notice to designate the national 
        marine sanctuary.

(b) SANCTUARY DESIGNATION.--

          (1) Notice.--In designating a national marine sanctuary, the 
        Secretary shall publish in the Federal Register notice of the 
        designation together with final regulations to implement the 
        designation and any other matters required by law, and submit 
        such notice to the Congress. The Secretary shall advise the 
        public of the availability of the final management plan and the 
        final environmental impact statement with respect to such 
        sanctuary. The Secretary shall issue a notice of designation 
        with respect to a proposed national marine sanctuary site not 
        later than 30 months after the date a notice declaring the site 
        to be an active candidate for sanctuary designation is 
        published in the Federal Register under regulations issued 
        under this Act, or shall publish not later than such date in 
        the Federal Register findings regarding why such notice has not 
        been published. No notice of designation may occur until the 
        expiration of the period for Committee action under subsection 
        (a)(6). The designation (and any of its terms not disapproved 
        under this subsection) and regulations shall take effect and 
        become final after the close of a review period of forty-five 
        days of continuous session of Congress beginning on the day on 
        which such notice is published unless in the case of a national 
        marine sanctuary that is located partially or entirely within 
        the seaward boundary of any State, the Governor affected 
        certifies to the Secretary that the designation or any of its 
        terms is unacceptable, in which case the designation or the 
        unacceptable term shall not take effect in the area of the 
        sanctuary lying within the seaward boundary of the State.
          (2) Withdrawal of Designation.--If the Secretary considers 
        that actions taken under paragraph (1) will affect the 
        designation of a national marine sanctuary in a manner that the 
        goals and objectives of the sanctuary or the national system 
        cannot be fulfilled, the Secretary may withdraw the entire 
        designation. If the Secretary does not withdraw the 
        designation, only those terms of the designation not certified 
        under paragraph (1) shall take effect.
          (3) Procedures.--In computing the forty-five-day periods of 
        continuous session of Congress pursuant to subsection (a)(6) of 
        this section and paragraph (1) of this subsection--

                (A) continuity of session is broken only by an 
                adjournment of Congress sine die; and
                (B) the days on which either House of Congress is not 
                in session because of an adjournment of more than three 
                days to a day certain are excluded.

(c) ACCESS AND VALID RIGHTS.--

          (1) Nothing in this title shall be construed as terminating 
        or granting to the Secretary the right to terminate any valid 
        lease, permit, license, or right of subsistence use or of 
        access that is in existence on the date of designation of any 
        national marine sanctuary.
          (2) The exercise of a lease, permit, license, or right is 
        subject to regulation by the Secretary consistent with the 
        purposes for which the sanctuary is designated.

(d) INTERAGENCY COOPERATION.--

          (1) Review of Agency Actions.--

                (A) In General.--Federal agency actions internal or 
                external to a national marine sanctuary, including 
                private activities authorized by licenses, leases, or 
                permits, that are likely to destroy, cause loss of, or 
                injure any sanctuary resource are subject to 
                consultation with the Secretary.
                (B) Agency Statements Required.--Subject to any 
                regulations the Secretary may establish each Federal 
                agency proposing an action described in subparagraph 
                (A) shall provide the Secretary with a written 
                statement describing the action and its potential 
                effects on sanctuary resources at the earliest 
                practicable time, but in no case later than 45 days 
                before the final approval of the action unless such 
                Federal agency and the Secretary agree to a different 
                schedule.
                (C) Programmatic Consultation.--The Secretary may 
                conduct programmatic consultations with a Federal 
                Agency, as the Secretary deems appropriate.

          (2) Secretary's Recommended Alternatives.--If the Secretary 
        finds that a Federal agency action is likely to destroy, cause 
        the loss of, or injure a sanctuary resource, the Secretary 
        shall (within 45 days of receipt of complete information on the 
        proposed agency action) recommend reasonable and prudent 
        alternatives, which may include conduct of the action 
        elsewhere, which can be taken by the Federal agency in 
        implementing the agency action that will protect sanctuary 
        resources.
          (3) Response to Recommendations.--The agency head who 
        receives the Secretary's recommended alternatives under 
        paragraph (2) shall promptly consult with the Secretary on the 
        alternatives.
          (4) If the agency head decides not to follow the 
        alternatives, the agency head shall provide the Secretary with 
        a written statement explaining the reasons for that decision, 
        including a description of the actions, if any, the agency head 
        deems reasonable for the agency to take to prevent the 
        destruction, loss, or injury of sanctuary resources. In the 
        event that the federal agency takes action contrary to the 
        Secretary's recommendation and such action results in actual 
        destruction of, loss of, or injury to a sanctuary resource, 
        including but not limited to toxic spills and vessel groundings 
        caused by the federal agency, the agency head shall promptly 
        coordinate with the Secretary and take appropriate action to 
        respond to and mitigate the resulting destruction, loss or 
        injury and, if possible, restore, replace, or provide the 
        equivalent of the Sanctuary resource.

(e) REVIEW OF MANAGEMENT PLANS.--Not more than 5 years after the date 
of designation of any national marine sanctuary, and thereafter at 
intervals not exceeding 5 years, the Secretary shall evaluate the 
substantive progress toward implementing the management plan and goals 
for the sanctuary, especially the effectiveness of site-specific 
management techniques and strategies, and shall revise the management 
plan and regulations as necessary to fulfill the purposes and policies 
of this title.

Sec. 305. APPLICATION OF REGULATIONS; INTERNATIONAL NEGOTIATIONS AND 
COOPERATION

(a) REGULATIONS.--This title and the regulations issued under section 
304 shall be applied in accordance with generally recognized principles 
of international law, and in accordance with treaties, conventions, and 
other agreements to which the United States is a party. No regulation 
shall apply to or be enforced against a person who is not a citizen, 
national, or resident alien of the United States, unless in accordance 
with--

          (1) generally recognized principles of international law;
          (2) an agreement between the United States and the foreign 
        state of which the person is a citizen; or
          (3) an agreement between the United States and the flag state 
        of a foreign vessel, if the person is a crewmember of the 
        vessel.

(b) NEGOTIATIONS.--The Secretary of State, in consultation with the 
Secretary, should take appropriate action to enter into negotiations 
with other governments to make necessary arrangements for the 
protection of any national marine sanctuary and to promote the purposes 
for which the sanctuary is established.

(c) INTERNATIONAL COOPERATION.--The Secretary, in consultation with the 
Secretary of State and other appropriate Federal agencies, shall 
cooperate with other governments and international organizations in the 
furtherance of the purposes and policies of this title and consistent 
with applicable regional and multilateral arrangements for the 
protection and management of special marine areas.

Sec. 306. PROHIBITED ACTIVITIES

It is unlawful to--

          (1) destroy, cause the loss of, or injure any sanctuary 
        resource managed under law or regulations for that sanctuary;
          (2) possess, offer for sale, sell, purchase, import, export, 
        deliver, carry, transport, or ship by any means any sanctuary 
        resource taken in violation of this section;
          (3) interfere with the enforcement of this title by--

                (A) refusing to permit any authorized officer to board 
                a vessel, other than a vessel operated by the 
                Department of Defense or United States Coast Guard, 
                subject to such person's control for purposes of 
                conducting any search or inspection in connection with 
                the enforcement of this title;
                (B) assaulting, resisting, opposing, impeding, 
                intimidating, or interfering with any authorized 
                officer in the conduct of any search or inspection 
                performed under this title;
                (C) submitting false information to the Secretary or 
                any officer authorized by the Secretary in connection 
                with any search or inspection conducted under this 
                title; or
                (D) assaulting, resisting, opposing, impeding, 
                intimidating, harassing, bribing, or interfering with 
                any person authorized by the Secretary to implement the 
                provisions of this title; or

          (4) violate any provision of this title or any regulation, or 
        permit issued pursuant to this title.

Sec. 307. ENFORCEMENT

(a) IN GENERAL.--The Secretary shall conduct such enforcement 
activities as are necessary to carry out this title.

(b) POWERS OF AUTHORIZED OFFICERS.--Any person who is authorized to 
enforce this title may--

          (1) arrest any person, if he has reasonable cause to believe 
        that such person has committed an act prohibited by section 
        306(3);
          (2) board, search, inspect, and seize any vessel suspected of 
        being used to violate this title or any regulation or permit 
        issued under this title and any equipment, stores, and cargo of 
        such vessel;
          (3) seize wherever found any sanctuary resource taken or 
        retained in violation of this title or any regulation or permit 
        issued under this title;
          (4) seize any evidence of a violation of this title or of any 
        regulation or permit issued under this title;
          (5) execute any warrant or other process issued by any court 
        of competent jurisdiction; and
          (6) exercise any other lawful authority.

(c) CRIMINAL OFFENSES.--

          (1) Offenses.--A person is guilty of an offense if he commits 
        any act prohibited by section 306(3).
          (2) Punishment.--Any offense described in subsection (1) is 
        punishable by a fine of not more than $100,000, or imprisonment 
        for not more than 6 months, or both; except that if in the 
        commission of any such offense the person uses a dangerous 
        weapon, engages in conduct that causes bodily injury to any 
        officer authorized to enforce this title or any person 
        authorized to implement the provisions of this title, or places 
        any such officer or person in fear of imminent bodily injury, 
        the offense is punishable by a fine of not more than $200,000, 
        or imprisonment for not more than 10 years, or both.
          (3) Jurisdiction.--There is Federal jurisdiction over any 
        offense described in this section.

(d) CIVIL PENALTIES.--

          (1) Civil penalty.--Any person subject to the jurisdiction of 
        the United States who violates this title or any regulation or 
        permit issued under this title shall be liable to the United 
        States for a civil penalty of not more than $109,000 for each 
        such violation, to be assessed by the Secretary. Each day of a 
        continuing violation shall constitute a separate violation.
          (2) Notice.--No penalty shall be assessed under this 
        subsection until after the person charged has been given notice 
        and an opportunity for a hearing.
          (3) In Rem Jurisdiction.--A vessel used in violating this 
        title or any regulation or permit issued under this title shall 
        be liable in rem for any civil penalty assessed for such 
        violation. Such penalty shall constitute a maritime lien on the 
        vessel and may be recovered in an action in rem in the district 
        court of the United States having jurisdiction over the vessel.
          (4) Review of Civil Penalty.--Any person against whom a civil 
        penalty is assessed under this subsection may obtain review in 
        the United States district court for the appropriate district 
        by filing a complaint in such court not later than 30 days 
        after the date of such order.
          (5) Collection of Penalties.--If any person fails to pay an 
        assessment of a civil penalty under this section after it has 
        become a final and unappealable order, or after the appropriate 
        court has entered final judgment in favor of the Secretary, the 
        Secretary shall refer the matter to the Attorney General, who 
        shall recover the amount assessed in any appropriate district 
        court of the United States. In such action, the validity and 
        appropriateness of the final order imposing the civil penalty 
        shall not be subject to review.
          (6) Compromise or Other Action by Secretary.--The Secretary 
        may compromise, modify, or remit, with or without conditions, 
        any civil penalty which is or may be imposed under this 
        section.

(e) JUDICIAL CIVIL PENALTIES.--The Secretary may bring an action to 
access and collect any civil penalty for which a person is liable under 
paragraph (d)(1) in the United States district court for the district 
in which the person from whom the penalty is sought resides, in which 
such person's principal place of business is located, or where the 
incident giving rise to civil penalties under this section occurred.

(f) FORFEITURE.--

          (1) In General.--Any vessel (including the vessel's 
        equipment, stores, and cargo) and other items used, and any 
        sanctuary resource taken or retained, in any manner, in 
        connection with or as a result of any violation of this title 
        or of any regulation or permit issued under this title shall be 
        subject to forfeiture to the United States pursuant to a civil 
        proceeding under this subsection. The proceeds from forfeiture 
        actions under this subsection shall constitute a separate 
        recovery in addition to any amounts recovered as civil 
        penalties under this section or as civil damages under section 
        312. None of those proceeds shall be subject to set-off.
          (2) Application of the Customs Laws.--The Secretary may 
        exercise the authority of any United States official granted by 
        any relevant customs law relating to the seizure, forfeiture, 
        condemnation, disposition, remission, and mitigation of 
        property in enforcing this title.
          (3) Disposal of Sanctuary Resources.--Any sanctuary resource 
        seized pursuant to this title may be disposed of pursuant to an 
        order of the appropriate court or, if perishable, in a manner 
        prescribed by regulations promulgated by the Secretary. Any 
        proceeds from the sale of such sanctuary resource shall for all 
        purposes represent the sanctuary resource so disposed of in any 
        subsequent legal proceedings.
          (4) Presumption.--For the purposes of this section there is a 
        rebuttable presumption that all sanctuary resources found on 
        board a vessel that is used or seized in connection with a 
        violation of this title or of any regulation or permit issued 
        under this title were taken or retained in violation of this 
        title or of a regulation or permit issued under this title.

(g) PAYMENT OF STORAGE, CARE, AND OTHER COSTS.--

          (1) Expenditures.--

                (A) Notwithstanding any other law, amounts received by 
                the United States as civil penalties, forfeitures of 
                property, and costs imposed under paragraph (2) shall 
                be retained by the Secretary in the manner provided for 
                in section 107(f)(1) of the Comprehensive Environmental 
                Response, Compensation and Liability Act of 1980.
                (B) Amounts received under this section for forfeitures 
                and costs imposed under paragraph (2) shall be used to 
                pay the reasonable and necessary costs incurred by the 
                Secretary to provide temporary storage, care, 
                maintenance and disposal of any sanctuary resource or 
                other property seized in connection with a violation of 
                this title or any regulation or permit issued under 
                this title.
                (C) Amounts received under this section as civil 
                penalties and any amounts remaining after the operation 
                of subparagraph (B) shall be used, in order of 
                priority, to--

                        (i) manage and improve the national marine 
                        sanctuary with respect to which the violation 
                        occurred that resulted in the penalty or 
                        forfeiture, with priority given to protecting 
                        and enhancing the sanctuary's resource(s);
                        (ii) pay a reward to any person who furnishes 
                        information leading to an assessment of a civil 
                        penalty, or to a forfeiture of property, for a 
                        violation of this title or any regulation or 
                        permit issued under this title; and
                        (iii) manage and improve any other national 
                        marine sanctuary, with priority given to 
                        protecting and enhancing the sanctuary's 
                        resource(s), particularly degraded resources.

          (2) Liability for Costs.--Any person assessed a civil penalty 
        for a violation of this title or of any regulation or permit 
        issued under this title, and any claimant in a forfeiture 
        action brought for such a violation, shall be liable for the 
        reasonable costs incurred by the Secretary in storage, care, 
        and maintenance of any sanctuary resource or other property 
        seized in connection with the violation.

(h) SUBPOENAS.--In the case of any hearing under this section which is 
determined on the record in accordance with the procedures provided for 
under section 554 of title 5, United States Code, the Secretary may 
issue subpoenas for the attendance and testimony of witnesses and the 
production of relevant papers, books, electronic files and documents, 
and may administer oaths.

(i) NATIONWIDE SERVICE OF PROCESS.--In any action by the United States 
under this chapter, process may be served in any district where the 
defendant is found, resides, transacts business, or has appointed an 
agent for the service of process.

(j) USE OF RESOURCES OF STATE AND OTHER FEDERAL AGENCIES.--The 
Secretary shall, whenever appropriate, use by agreement the personnel, 
services, and facilities of State and other Federal departments, 
agencies, and instrumentalities on a reimbursable or nonreimbursable 
basis, to carry out the Secretary's responsibilities under this 
section.

(k) COAST GUARD AUTHORITY NOT LIMITED.--Nothing in this section shall 
be considered to limit the authority of the Coast Guard to enforce this 
or any other Federal law under section 89 of title 14, United States 
Code.

(l) INJUNCTIVE RELIEF.--If the Secretary determines that there is an 
imminent risk of destruction or loss of or injury to a sanctuary 
resource, or that there has been actual destruction or loss of, or 
injury to, a sanctuary resource which may give rise to liability under 
section 312, the Attorney General, upon request of the Secretary, shall 
seek to obtain such relief as may be necessary to abate such risk or 
actual destruction, loss, or injury, or to restore or replace the 
sanctuary resource, or both. The district courts of the United States 
shall have jurisdiction in such a case to order such relief as the 
public interest and the equities of the case may require.

(m) AREA OF APPLICATION AND ENFORCEABILITY.--The area of application 
and enforceability of this title includes the territorial sea of the 
United States, as described in Presidential Proclamation 5928 of 
December 27, 1988, which is subject to the sovereignty of the United 
States, and the United States exclusive economic zone, consistent with 
international law.

Sec. 308. REGULATIONS AND SEVERABILITY

(a) The Secretary may issue such regulations, in accordance with 5 
U.S.C. 553, as may be necessary to carry out any provision of this Act.

(b) If any provision of this Act or the application thereof to any 
person or circumstances is held invalid, the validity of the remainder 
of this Act and of the application of such provision to other persons 
and circumstances shall not be affected thereby.

Sec. 309. RESEARCH, MONITORING AND EDUCATION PROGRAMS AND INTERPRETIVE 
FACILITIES

(a) IN GENERAL.--The Secretary shall conduct, support or coordinate 
research, monitoring and education programs consistent paragraphs (b) 
and (c) of this section. Such efforts shall be consistent with the 
purposes and policies of this title and focus primarily on 
understanding the natural processes necessary to maintain biodiversity 
and viable ecosystems, and on reducing anthropogenic impacts to their 
long-term conservation and threats thereof.
(b) RESEARCH AND MONITORING.--The Secretary may support, promote, and 
coordinate appropriate research on, and long-term monitoring of, the 
resources and human uses of marine sanctuaries, with particular 
emphasis on maintaining or restoring diversity of living marine 
resources, their habitats, ecological processes, and functions 
fundamental to the viability and conservation of these protected areas. 
Specific activities may include, but are not limited to: research, 
monitoring, exploration, mapping, and environmental and socio-economic 
assessment. In addition, the Secretary may undertake restoration 
efforts to enhance the rate of recovery of degraded habitats or 
resources, and may develop and test appropriate restoration methods. 
The results of such efforts will be made accessible to all interested 
parties.

(c) EDUCATION AND INTERPRETIVE FACILITIES.--

          (1) The Secretary may support, promote, and coordinate 
        efforts to enhance public awareness, understanding and 
        appreciation of the marine environment, in order to ensure 
        better understanding of resources and natural processes and 
        their conservation for future generations. Such efforts will 
        emphasize the conservation goals of national marine 
        sanctuaries, and will, to the extent practicable, address 
        specific threats to sanctuary resources stemming from human 
        uses that affect the marine environment. Specific activities 
        may include, but are not limited to, education targeted at the 
        general public, teachers, students, sanctuary users and 
        environmental decision makers.
          (2) The Secretary may undertake, either solely or in 
        partnership with other persons, pursuant to an agreement under 
        section 311 of this title, to develop interpretive facilities 
        across the nation focused on marine resource protection. Such 
        interpretive facilities will promote marine conservation by 
        providing the public and specific user groups with innovative, 
        focused and effective information about the nature, biological, 
        ecological and social functions and values of sanctuary 
        ecosystems.
Sec. 310. SPECIAL USE PERMITS

(a) ISSUANCE OF PERMITS.--

          (1) The Secretary may issue special use permits which 
        authorize the conduct of specific activities in a national 
        marine sanctuary if the Secretary determines such authorization 
        is necessary--
                (A) to establish conditions of access to and use of any 
                sanctuary resource or
                (B) to promote public use and understanding of a 
                sanctuary resource.
          (2) The Secretary shall provide appropriate public notice 
        when identifying specific activities subject to Special Use 
        Permits under subparagraph (1).

(b) PERMIT TERMS.--A permit issued under this section--

          (1) shall authorize the conduct of an activity only if that 
        activity is compatible with the purposes for which the 
        sanctuary is designated and with protection of sanctuary 
        resources;
          (2) shall not authorize the conduct of any activity for a 
        period of more than 5 years unless renewed by the Secretary;
          (3) shall require that activities carried out under the 
        permit be conducted in a manner that does not destroy, cause 
        the loss of, or injure sanctuary resources; and
          (4) shall require the permittee to purchase and maintain 
        comprehensive general liability insurance, or post an 
        equivalent bond, against claims arising out of activities 
        conducted under the permit and to agree to hold the United 
        States harmless against such claims.

(c) FEES.--

          (1) Assessment and Collection.--The Secretary may assess and 
        collect fees for the conduct of any activity under a permit 
        issued under this section.
          (2) Amount.--The amount of a fee under this subsection shall 
        be equal to the sum of--

                (A) costs incurred, or expected to be incurred, by the 
                Secretary in issuing the permit;
                (B) costs incurred, or expected to be incurred, by the 
                Secretary as a direct result of the conduct of the 
                activity for which the permit is issued, including 
                costs of monitoring the conduct of the activity; and
                (C) an amount which represents the fair market value of 
                the access to and use of the sanctuary resource and a 
                reasonable return to the United States Government.

          (3) Waiver or Reduction of Fees.--

                (A) For activities that do not derive profit from the 
                access to and use of sanctuary resources, the Secretary 
                may waive or reduce any fees listed in subparagraphs 
                (2)(A)-(C).
                (B) The Secretary may accept in-kind services for fees 
                described in subparagraph (2)(C).

          (4) Use of Fees.--Amounts collected by the Secretary in the 
        form of fees under this section may be used by the Secretary--

                (A) for issuing and administering permits under this 
                section; and
                (B) for expenses of designating and managing national 
                marine sanctuaries.

(d) VIOLATIONS.--Upon violation of a term or condition of a permit 
issued under this section, the Secretary may--

          (1) suspend or revoke the permit without compensation to the 
        permittee and without liability to the United States;
          (2) assess a civil penalty in accordance with section 307; or
          (3) both.

(e) FISHING.--Nothing in this section shall be considered to require a 
person to obtain a permit under this section for the conduct of any 
fishing activities in a national marine sanctuary.

Sec. 311. COOPERATIVE AGREEMENTS, DONATIONS, AND ACQUISITIONS

(a) COOPERATIVE AGREEMENTS, GRANTS AND OTHER AGREEMENTS.--The Secretary 
may enter into cooperative agreements, financial agreements, grants, 
contracts, or other agreements with States, local governments, regional 
agencies, interstate agencies, foundations, or other persons to carry 
out the purposes and policies of this title. Notwithstanding any other 
provision of law, the Secretary may apply for, accept, and use grants 
from Federal agencies, States, local governments, regional agencies, 
interstate agencies, foundation, or other persons, to carry out the 
purposes and policies of this title.

(b) USES OF RESOURCES OF STATE AND OTHER FEDERAL AGENCIES.--The 
Secretary may, whenever appropriate, use by agreement the personnel, 
services, or facilities of State or other Federal departments, agencies 
or instrumentalities, on a reimbursable or non-reimbursable basis, to 
assist in carrying out the purposes and policies of this title.

(c) AUTHORIZATION TO SOLICIT DONATIONS.--The Secretary may enter into 
such agreements with any nonprofit organization authorizing the 
organization to solicit private donations to carry out the purposes and 
policies of this title.

(d) DONATIONS.--The Secretary may accept donations of funds, property, 
and services for use in designating and administering national marine 
sanctuaries under this title. Donations accepted under this section 
shall be considered as a gift or bequest to or for the use of the 
United States.

(e) ACQUISITIONS.--The Secretary may acquire by purchase, lease, or 
exchange, any land, facilities, or other property necessary and 
appropriate to carry out the purposes and policies of this title.

Sec. 312. DESTRUCTION OR LOSS OF, OR INJURY TO, SANCTUARY RESOURCES

(a) LIABILITY.--

          (1) Liability to United States.--All persons who destroy, 
        cause the loss of, or injure any sanctuary resource or creates 
        an imminent risk of destruction, loss of or injury to any 
        sanctuary resource are jointly and severally liable to the 
        United States for an amount equal to the sum of--

                (A) the amount of response costs and damages resulting 
                from the destruction, loss, or injury, including 
                damages resulting from response actions;
                (B) any costs related to seizure, forfeiture, storage 
                or disposal arising from liability under this section; 
                and
                (C) interests on that amount calculated in the manner 
                described under section 1005 of the Oil Pollution Act 
                of 1990.

          (2) Liability In Rem.--Any vessel that destroys, causes the 
        loss of, or injures any sanctuary resource shall be liable in 
        rem to the United States for response costs, seizure, 
        forfeiture, storage and disposal costs, and damages resulting 
        from such destruction, loss, or injury. The amount of that 
        liability shall constitute a maritime lien on the vessel and 
        may be recovered in an action in rem in the district court of 
        the United States having jurisdiction over the vessel.
          (3) Defenses.--A person is not liable under this subsection 
        if that person establishes that--

                (A) the destruction or loss of, or injury to, the 
                sanctuary resource was caused solely by an act of God, 
                an act of war, or an act or omission of a third party 
                (other than an employee or agent of the defendant, or 
                than one whose act or omission occurs in connection 
                with a contractual relationship, existing directly or 
                indirectly with the defendant), and the person acted 
                with due care; or
                (B) the destruction, loss, or injury was a direct 
                result of activities--specifically authorized under 
                Federal or State law or permit (excluding 
                recommendations, instructions, or any other actions 
                undertaken by the Secretary or any other person 
                authorized to enforce this title in responding to an 
                incident creating liability under this section), and 
                the person was in compliance with such law or permit 
                and acted with due care.

          (4) Limits to Liability.--Nothing in sections 4281-4289 of 
        the Revised Statutes of the United States or section 3 of the 
        Act of February 13, 1893, shall limit the liability of any 
        person or vessel under this title.

(b) RESPONSE ACTIONS AND DAMAGE ASSESSMENT.--

          (1) Response Actions.--The Secretary may undertake or 
        authorize all necessary actions to prevent or minimize the 
        destruction or loss of, or injury to, sanctuary resources, or 
        to minimize the imminent risk of such destruction, loss, or 
        injury.
          (2) Damage Assessment.--The Secretary shall assess damages to 
        sanctuary resources in accordance with section 302 (9).

(c) CIVIL ACTIONS FOR RESPONSE COSTS AND DAMAGES.--The Attorney 
General, upon request of the Secretary, may commence a civil action in 
the United States district court for the appropriate district against 
any person or vessel that may be liable under subsection (a) for 
response costs, seizure, forfeiture, storage and disposal costs, and 
damages. The Secretary, acting as trustee for sanctuary resources for 
the United States, shall submit a request for such an action to the 
Attorney General whenever a person or vessel may be liable for such 
costs or damages. Venue is appropriate in the district in which the 
person is found or in which the destruction, loss, or injury to any 
sanctuary resource occurred.

(d) USE OF RECOVERED AMOUNTS.--Response costs, seizure, forfeiture, 
storage and disposal costs, and damages recovered by the Secretary 
under this section shall be retained by the Secretary in the manner 
provided for in section 107(f)(1) of the Comprehensive Environmental 
Response, Compensation and Liability Act (42 U.S.C. 9607(f)(1)), and 
used by the Secretary as follows:

          (1) Response Costs And Damage Assessment Costs.--Funds 
        recovered as reimbursement for past response, seizure, 
        forfeiture, storage and disposal costs, and damage assessment 
        costs under section 312(d) shall be used, as the Secretary 
        deems appropriate, to reimburse the Secretary or other Federal 
        or State agencies for response costs, seizure, forfeiture, 
        storage and disposal costs, and the costs of undertaking damage 
        assessments and to fund future response actions and damage 
        assessments.
          (2) Restoration, Replacement, and Prevention.--All other 
        funds recovered under section 312(d) shall be used, in order of 
        priority--

                (A) to restore, replace, or acquire the equivalent of 
                the sanctuary resources which were the subject of the 
                action, including the costs of monitoring and the cost 
                of curation and conservation of archaeological, 
                historical and cultural sanctuary resources;
                (B) to prevent threats of injury to or destruction of 
                sanctuary resources within the national marine 
                sanctuary that was the subject of the action;
                (C) to manage and improve the national marine sanctuary 
                that was the subject of the action, with priority given 
                to restoring and protecting comparable resources and 
                habitats; and
                (D) to manage and improve any other national marine 
                sanctuary, with priority given to restoring or 
                enhancing injured or degraded habitats or resources.

          (3) Federal-State Coordination.--Amounts recovered under this 
        section with respect to sanctuary resources lying within the 
        jurisdiction of a State shall be used under paragraphs (2)(A) 
        and (B) in accordance with the court decree or settlement 
        agreement and an agreement entered into by the Secretary and 
        the Governor of that State.
          (4) Statute of Limitations.--An action for response costs and 
        damages under paragraph (c) of this subsection shall be barred 
        unless such action is commenced within 3 years after the date 
        of completion of the damage assessment and restoration plan 
        prepared by the Secretary.

Sec. 313. AUTHORIZATION OF APPROPRIATIONS

There are authorized to be appropriated to the Secretary to carry out 
this title the following: (1) $29,000,000 for fiscal year 2000; (2) and 
such sums as are needed to fully implement this Act in fiscal years 
2001, 2002, 2003, and 2004.

Sec. 314. U.S.S. MONITOR ARTIFACTS AND MATERIALS

(a) CONGRESSIONAL POLICY.--In recognition of the historical 
significance of the wreck of the United States ship Monitor to coastal 
North Carolina and to the area off the coast of North Carolina known as 
the Graveyard of the Atlantic, the Congress directs that a suitable 
display of artifacts and materials from the United States ship Monitor 
be maintained permanently at an appropriate site in coastal North 
Carolina. [P.L. 102-587 authorized a grant for the acquisition of space 
in Hatteras Village, NC, for display of artifacts and administration 
and operations of the Monitor National Marine Sanctuary.]

(b) DISCLAIMER.--This section shall not affect the following:

          (1) Responsibilities Of Secretary.--The responsibilities of 
        the Secretary to provide for the protection, conservation, and 
        display of artifacts and materials from the United States ship 
        Monitor.
          (2) Authority Of Secretary.--The authority of the Secretary 
        to designate the Mariner's Museum, located at Newport News, 
        Virginia, as the principal museum for coordination of 
        activities referred to in paragraph (1).

Sec. 315. ADVISORY COUNCILS

(a) ESTABLISHMENT.--The Secretary may establish one or more advisory 
councils (in this section referred to as an `Advisory Council') to 
provide advice and recommendations to the Secretary regarding the 
designation and management of national marine sanctuaries. The Advisory 
Councils shall be exempt from the Federal Advisory Committee Act.

(b) MEMBERSHIP.--Members of the Advisory Councils may be appointed from 
among--

          (1) persons employed by Federal or State agencies with 
        expertise in management of natural resources;
          (2) members of relevant Regional Fishery Management Councils 
        established under section 302 of the Magnuson Fishery 
        Conservation and Management; and
          (3) representatives of local user groups, conservation and 
        other public interest organizations, scientific organizations, 
        educational organizations, or others interested in the 
        conservation of sanctuary resources.

(c) LIMITS ON MEMBERSHIP.--For sanctuaries designated after the date of 
enactment of the National Marine Sanctuaries Program Amendments Act of 
1992, the membership of Advisory Councils shall be limited to no more 
than 15 members.

(d) STAFFING AND ASSISTANCE.--The Secretary may make available to an 
Advisory Council any staff, information, administrative services, or 
assistance the Secretary determines are reasonably required to enable 
the Advisory Council to carry out its functions.

(e) PUBLIC PARTICIPATION AND PROCEDURAL MATTERS.--The following 
guidelines apply with respect to the conduct of business meetings of an 
Advisory Council:

          (1) Each meeting shall be open to the public, and interested 
        persons shall be permitted to present oral or written 
        statements on items on the agenda;
          (2) Emergency meetings may be held at the call of the 
        chairman or presiding officer;
          (3) Timely notice of each meeting, including the time, place, 
        and agenda of the meeting, shall be published locally and in 
        the Federal Register, except that in the case of a meeting of 
        an Advisory Council established to provide assistance regarding 
        any individual national marine sanctuary the notice is not 
        required to be published in the Federal Register; and
          (4) Minutes of each meeting shall be kept and contain a 
        summary of the attendees and matters discussed.

Sec. 316. ENHANCING SUPPORT FOR NATIONAL MARINE SANCTUARIES

(a) AUTHORITY.--The Secretary may establish a program consisting of--

          (1) the creation, adoption, and publication in the Federal 
        Register by the Secretary of a symbol for the national marine 
        sanctuary program, or for individual national marine 
        sanctuaries;
          (2) the solicitation of persons to be designated as official 
        sponsors of the national marine sanctuary program or of 
        individual national marine sanctuaries;
          (3) the designation of persons by the Secretary as official 
        sponsors of the national marine sanctuary program or of 
        individual sanctuaries;
          (4) the authorization by the Secretary of the use of any 
        symbol published under paragraph (1) by official sponsors of 
        the national marine sanctuary program or of individual national 
        marine sanctuaries;
          (5) the creation, marketing, and selling of products to 
        promote the national marine sanctuary program, and entering 
        into exclusive or nonexclusive agreements authorizing entities 
        to create, market or sell on the Secretary's behalf;
          (6) the solicitation and collection by the Secretary of 
        monetary or in-kind contributions from official sponsors for 
        the manufacture, reproduction, sale, or use of the symbols, 
        including sale of items bearing the symbols, published under 
        paragraph (1);
          (7) the retention of any monetary or in-kind contributions 
        collected under paragraphs (5) and (6) by the Secretary; and
          (8) the expenditure and use of any monetary and in-kind 
        contributions, without appropriation, by the Secretary to 
        designate and manage national marine sanctuaries.

Monetary and in-kind contributions raised through the sale, marketing, 
or use of symbols and products related to an individual national marine 
sanctuary shall be used to support that sanctuary.

(b) CONTRACT AUTHORITY.--The Secretary may contract with any person for 
the creation of symbols or the solicitation of official sponsors under 
subsection (a).

(c) COLLABORATIONS.--The Secretary may authorize the use of the symbol 
described in paragraph (a) of this section by any person with which the 
Secretary is engaged in a collaborative effort to carry out the 
purposes and policies of this title.

(d) RESTRICTIONS.--The Secretary may restrict the use of the symbols 
published under subsection (a), and the designation of official 
sponsors of the national marine sanctuary program or of individual 
national marine sanctuaries to ensure compatibility with the goals of 
the national marine sanctuary program.

(e) PROPERTY OF UNITED STATES.--Any symbol which is adopted by the 
Secretary and published in the Federal Register under subsection (a) is 
deemed to be the property of the United States.

(f) AUTHORIZATION FOR NON-PROFIT ORGANIZATION TO SOLICIT SPONSORS.--

          (1) The Secretary may enter into an agreement with a non-
        profit organization authorizing it to assist in the 
        administration of the sponsorship program established under 
        this section. Under an agreement entered into under this 
        paragraph, the Secretary may authorize the non-profit 
        organization to solicit persons to be official sponsors of the 
        national marine sanctuary program or of individual national 
        marine sanctuaries, upon such terms as the Secretary deems 
        reasonable and will contribute to the successful administration 
        of the sanctuary system. The Secretary may also authorize the 
        non-profit organization to collect the statutory contribution 
        from the sponsor, and, subject to subparagraph (2), transfer 
        the contribution to the Secretary.
          (2) Under the agreement entered into pursuant to sub-
        paragraph (1), the Secretary may authorize the non-profit 
        organization to retain up to five (5) percent of monetary 
        contributions it receives from official sponsors pursuant to 
        such agreement, to offset the administrative costs of the non-
        profit in soliciting sponsors.

(g) PROHIBITED ACTIVITIES.--It is unlawful for any person--

          (1) designated as an official sponsor to influence or seek to 
        influence any decision by the Secretary or any other Federal 
        official related to the designation or management of a national 
        marine sanctuary, except to the extent that a person who is not 
        so designated may do so;
          (2) to represent himself or herself to be an official sponsor 
        absent a designation by the Secretary;
          (3) to manufacture, reproduce, or use any symbol adopted by 
        the Secretary absent designation as an official sponsor and 
        without payment of a monetary or in-kind contribution to the 
        Secretary, or without prior authorization under paragraph (c) 
        of this section; or
          (4) to violate any regulation promulgated by the Secretary 
        under this section.''

    Ms. Yozell. Let me highlight five important features of the 
Administration's bill:
    The bill clarifies the act's primary mandate for ecosystem 
protection. This includes protecting natural biodiversity and 
biological communities, instead of focusing, as we have in the 
past, on a species by species basis.
    Second, the bill strengthens NOAA's ability to manage our 
sanctuaries as an integrated system, instead of focusing on 12 
individual sites.
    The legislation also reduces procedural burdens on the 
public and increases accountability when resources are damaged.
    Fourth, the bill strengthens the system's research and 
education missions.
    Finally, the bill authorizes increased funding of $29 
million beginning in fiscal year 2000, which will enable us to 
fully and effectively manage our sanctuaries.
    Let me now turn, if I could, to one of NOAA's successful 
partnerships. Earlier this year, with a $5 million grant from 
the Richard and Rhoda Goldman Fund, NOAA and the National 
Geographic Society launched the Sustainable Seas Expedition. 
This 5-year project of deep water exploration and public 
education in NOAA's sanctuaries is being led by Dr. Sylvia 
Earle, the National Geographic's explorer in residence.
    Using newly designed DeepWorker submersibles, we will be 
mapping the biodiversity of all the Nation's marine 
sanctuaries. I would like to invite members of the Committee to 
participate in various expedition kickoffs. I know we are doing 
one next week in Boston up in Stellwagen Bank. In September we 
will be doing one in Texas on the Gulf at the Flower Gardens; 
and in Hawaii next year.
    It is an amazing experience. I actually had the opportunity 
to go down in one of the submersibles myself and it was really 
something.
    So, Madam Chair and the Committee, I urge and ask for the 
support for the Administration's reauthorization.
    Now, if I could, I would like to turn my focus to coral 
reef conservation and, more specifically, to S. 725 and S. 
1253. Many of our coral reefs are in crisis, as Senator Kerry 
and, Madam Chair, you stated earlier. We can no longer delay 
action. NOAA strongly supports comprehensive legislation that 
increases conservation and restoration of coral reefs and the 
coral reef ecosystem.
    I want to commend Senators Snowe and Inouye for their 
leadership in this area. Both bills are powerful steps forward 
in addressing the coral reef crisis, and I pledge my 
willingness to work with the committee on these initiatives.
    The U.S. has significant coral reefs in the southern 
Atlantic, Caribbean, Gulf of Mexico, and western Pacific, all 
of which have significant economic and social value. For 
example, reefs are the foundation of billions of dollars in 
economic activity through fishing and tourism. Approximately 50 
percent of all federally managed fisheries species depend on 
coral reefs for some part of their life. Tourism related to 
coral reef systems has produced over $2 billion per year in 
both the Florida Keys and in Hawaii.
    All of this is now at risk. Recent studies suggest that 
nearly 60 percent of the world's corals are seriously degraded 
by human activities and 10 percent of the reefs have already 
been destroyed. I have to tell you, these numbers are kind of 
soft. In fact, I wish I could give you a more comprehensive 
assessment of the situation in the United States. But 
unfortunately the data just does not exist.
    We presently have no comprehensive program to monitor, 
protect, or restore the Nation's coral reefs. Our State and 
territorial partners, where 35 percent of the U.S. coral reefs 
reside, are in desperate need of maps and other tools and 
information and resources to implement coral reef monitoring 
programs, track the health of their reefs, and take actions to 
protect them.
    Imagine, if you would, trying to manage our national 
forests or make land use decisions at the local level without 
maps showing where the resources are or what condition they are 
in or what they are being used for. This is our current 
situation when it comes to coral reefs. Local, State, and 
Federal managers have to make tough decisions every day without 
some of the most basic information.
    Last year at the National Ocean Conference President 
Clinton signed an executive order creating the U.S. Coral Reef 
Task Force. It is made up of Federal agencies, States and 
territories who are developing a national action plan, and they 
prioritized the threats to the reefs. If I could, let me just 
highlight a few of those.
    They agreed to launch a comprehensive effort to map and 
assess the U.S. coral reefs in the Pacific, to establish a 
coordinated network of coral reef protected areas, to implement 
a coordinated reef monitoring program, to build emergency 
response capabilities and strengthen local and regional efforts 
by supporting the U.S. Islands Coral Reef Initiative. All of 
these are parts of the legislation that you have introduced.
    Now, NOAA's part of the Lands Legacy Initiative includes 
$12 million to directly support these actions and to begin to 
fulfill the executive order.
    S. 725 and S. 1253 both propose authorizations for 
important new resources to address the coral crisis. Both bills 
would establish a competitive program to make resources 
available to government and nongovernment entities at local, 
State, and territorial levels where direct actions can be 
taken. We support the focus of these programs toward on the 
ground efforts such as assessment, monitoring, management, 
education, and restoration, as well as the matching 
requirements and leveraging of Federal dollars. Local level 
actions and public-private partnerships are effective means for 
coral reef conservation and restoration.
    S. 1253 includes some necessary additional elements to 
address aspects of the coral crisis. It recognizes the need to 
support Federal efforts to conserve and restore coral reefs. 
NOAA, for example, has the tools, knowledge, and experience to 
assist States and territories in managing their coral reefs.
    S. 1253 also includes a provision designed to help prevent 
the destructive and dangerous practice of abandoning vessels on 
U.S. reefs, and we would like to work with the Committee to 
review additional measures which may be necessary in this area.
    Finally, S. 1253 authorizes the necessary level of 
appropriation to begin to address coral protection.
    I would like to reiterate the Administration's strong 
support for comprehensive legislation that increases 
conservation and protection of coral reefs. S. 725 and S. 1253 
are both important steps forward. I look forward to working 
with you and the Committee to ensure passage of good 
legislation in this area.
    So in conclusion, Madam Chair and Committee members, I 
applaud the Committee's leadership and the commitment to 
protecting our resources and the communities and economies that 
depend on them, and I look forward to working with you and all 
of these areas.
    Senator Snowe. Thank you, Ms. Yozell.
    Let me start with what should be the focus in coral reef 
conservation efforts. My legislation, as well as Senator 
Inouye's legislation, includes local conservation programs and 
grants to create an impetus for local participation, perhaps 
that will enhance the sustainability of some of these programs. 
That is why I included a 50 percent match. I want to discuss 
that with you in a moment.
    But let us first talk about the most urgent unmet need with 
respect to coral reef conservation. Is it still local 
participation and local conservation efforts that is the 
largest unmet need at this point?
    Ms. Yozell. There are so many unmet needs, I do not know if 
I would say that is the largest unmet need. Without a doubt, in 
order to address these issues we do have to work with the local 
communities and at the local level. For example, polluted 
runoff is one of the--and other water quality issues, are one 
of the No. 1 issues that are affecting the coral reefs, the 
health of the reefs. I have got to say that if we do not work 
with the local communities to figure out how to address these 
issues that is going to be a major problem.
    The other issue, though, that we learned recently, and I 
was surprised--that was when we had the task force meeting in 
Hawaii--is mapping. Less than 10 percent of the U.S. coral 
reefs have been mapped to date. Most mapping has been in the 
Florida Keys. So in order to develop a regime of management and 
monitoring and protection, we really first need to know where 
they are and what condition they are in. That is why mapping 
plays such a key role there.
    We can work with local communities and State-level folks to 
do that mapping, but I would say mapping, water quality, 
fishing activities, and education and outreach are really the 
most important issues, and they can all be done at one level or 
another through local, State partnerships.
    Senator Snowe. Isn't capacity-building important? Working 
on the local level through the grant program to get everybody 
involved, will enhance the sustainability of the project 
through a matching program. I happen to think that once people 
have a stake in a local project that it will encourage long-
term participation.
    It seems to me from all that has been said on this subject 
that there needs to be more of this kind of local 
participation.
    Ms. Yozell. Capacity-building without a doubt is very, very 
important, and we do need to get buy-in at the local 
communities. However, I will note when you look to some of the 
island territory areas they may not actually have the funds to 
be able to do the match. I recognize in your bill you provide 
for in-kind as well, as one of the matches when appropriate.
    Capacity-building at the local level is very, very 
important. But sometimes they do not have the tools or the 
expertise. They are willing to do it, they are willing to 
learn. That is where having a national program to be able to 
enhance what is going on at the local level is very important.
    Senator Snowe. Some of these grants were a one-time event 
rather than a sustainable, long term and ongoing project. 
Therefore, through a match program you are more likely to 
achieve that.
    Now, of the grants issued in 1997, I understand there were 
about 20 that were under $25,000. Do you know how many of those 
projects exist today?
    Ms. Yozell. Well, those grants that you are referring to 
are through the National Fish and Wildlife Foundation and they 
are very, very small, on-the-ground grants. I do not know off 
the top of my head if they are ongoing. I would assume many of 
them are because we have a coral program with the National Fish 
and Wildlife Foundation, and I assume that if they prove 
successful then these local folks applied for a second round. I 
can get that information for you, though, specifically.
    [See Administration's prepared responses for the record.]
    Senator Snowe. I would be interested. I would like to know 
exactly how many are still under way today.
    You said in your statement that NOAA has no funding to 
specifically address the coral crisis. According to a summary 
provided by your staff, NOAA spent $13 million in coral 
programs last year.
    Ms. Yozell. That is correct.
    Senator Snowe. So what did you specifically spend money on 
if it was not spent on the coral crisis?
    Ms. Yozell. Well, I do not know if I said ``no,'' then I 
erred in the no. But let me say it is merely a drop in the 
bucket. The $13 million that NOAA has been spending is 
primarily on research. For example, we have the national 
undersea research program which we will be hearing more about 
from the Caribbean Center today, and the aquarius undersea 
research program in Florida Keys, and in Hawaii the undersea 
research program there.
    The sea grant program also spends some money on research. 
Then with the fishery management councils, they have been 
providing or trying to get up to speed to develop fisheries 
management plans affecting corals. They are way behind in their 
efforts, and in fact WestPac, which is the Western Pacific 
Fishery Management Council, has come to the Senate requesting 
more money just to address corals.
    So we have got a little bit going on here, it is really 
just the beginning and just scratching the surface of the 
problem.
    Senator Snowe. Well, you mentioned on page 15 of your 
prepared statement that NOAA has no funding to specifically 
address the coral crisis at this time. So the money that is 
being funded in this table that says ``Summary of funding for 
coral reef activities'' is not addressing the crisis, or is it 
providing minimal funding in each of these programs?
    Ms. Yozell. I would say I obviously must have erred in 
``addressing the crisis.'' We are scratching the surface of the 
crisis. We are definitely losing the battle with $13 million 
funding this. We are not achieving any kind of major success in 
preventing the destruction of our corals.
    Senator Snowe. In Senator Inouye's bill he includes a 
provision on revoking the Jones Act eligibility if a ship that 
is abandoned on a coral reef. Do owners of ships that are 
abandoned on coral reefs pay for any damages? Do we have 
instances where they do not pay for the damages and still 
maintain their eligibility to participate in the Jones Act 
trade?
    Ms. Yozell. Well, I think the problem, the specific issue 
that we are focusing on there, is the abandoned vessels in 
American Samoa. All of those vessel owners have gone into 
bankruptcy and were unable to pay for any kind of corrective 
measures to restore the reefs.
    We do have a damage assessment program where when resources 
are harmed, for example corals are harmed in the sanctuaries, 
we are able to go after them. But like all damage assessment, 
if they are bankrupt and cannot pay, they cannot pay.
    I think the effort--and I would have to check with Senator 
Inouye's folks--that they are trying to do there is if a 
shipowner goes into chapter 11 and then tries to startup 
elsewhere, they should not be able to do so without first 
owning up to their responsibility of damaging the resource.
    Senator Snowe. Yes, and do we have any current examples?
    Ms. Yozell. I do not, no. But again, I would be happy to 
get back to you and double check on that.
    [See Administration's prepared responses for the record.]
    Senator Snowe. So it is possible they could maintain or 
regain eligibility?
    Ms. Yozell. I think it is possible that they can.
    Senator Snowe. They could become eligible again to compete 
in the for Jones Act trade even if they filed bankruptcy and 
then they started again?
    Ms. Yozell. I believe that is what they are trying to 
address.
    Senator Snowe. But you do not know of any instances in 
which that has happened?
    Ms. Yozell. I personally do not know of any instances. But 
I can check that out easily. It must be an issue.
    Senator Snowe. I would appreciate that. I would like to 
have that information before the Committee.
    Ms. Yozell. Sure.
    Senator Snowe. Thank you.
    Senator Kerry.
    Senator Kerry. Just a couple of quick questions.
    Ten years ago the Bush Administration had an expert panel 
that said the sanctuary program needed a minimum of $30 million 
in annual funding. The program has been funded at only half 
that amount, and that was before we added six new sites to the 
program.
    Therefore, you now say or the Department says that one-
third of the twelve sanctuaries have reached a ``baseline 
operational level.'' What do you consider a baseline 
operational level to be?
    Ms. Yozell. When we talk about a core level we're merely 
talking about a manager, an education outreach coordinator, a 
scientist, and some support staff. We also look to perhaps have 
a multi-purpose vessel at each sanctuary where appropriate. We 
also look to have them be part of--a sanctuary advisory 
committee. Only 7 of the 12 sanctuaries currently have local 
advisory committees.
    Then third, we are trying to get to a point where we can 
develop a management program where every 5 years we can have a 
strong management plan, review it, and implement changes to it.
    Some of our sanctuaries have as little as a couple hundred 
thousand dollars as their annual operating level, hardly enough 
to manage the vast resources that they are trying to protect.
    Senator Kerry. Is there a showing of any detriment to those 
sanctuaries as a consequence of that?
    Ms. Yozell. Absolutely. We have issues going on throughout 
the sanctuaries that, one, we are either not aware of because 
we cannot monitor it or we do not even have a baseline 
assessment of the biodiversity that exists in most of our 
sanctuaries.
    We have these things called site assessments and we have 
only finished 1 in all 12 national marine sanctuaries and that 
was at the USS Monitor, which it is pretty easy to go down and 
do the site assessment for a ship. But on the actual resources, 
the vast resource of the Hawaii Humpback Whale Sanctuary, 
Stellwagen Bank, and others, we do not have a baseline 
understanding of what exists there.
    Senator Kerry. Will the current request of $29 million 
bring each of the sites up to the baseline as you have defined 
it?
    Ms. Yozell. Yes, it certainly will be a good start. I mean, 
it is not going to happen in 1 year, but we believe that level 
of funding over several years is going to bring us to the level 
we need to get to, and then move on to make further 
improvements.
    Senator Kerry. So we only have one site that currently has 
any kind of baseline assessment?
    Ms. Yozell. Full baseline assessment, and it is the USS 
Monitor, which is a ship.
    Senator Kerry. Can you share with the Committee any of the 
specific shortfalls with respect to the mission as defined at 
any of the other sites? You can submit it to the Committee.
    Ms. Yozell. Let me submit a list for the record.
    Senator Kerry. I would like to see an assessment of that. I 
would like to see exactly what your assessment is of the 
deficiencies/shortfall at those sites due to lack of funding.
    Ms. Yozell. Let me give you an example. I am so overwhelmed 
with how many there are, it is hard to even begin to focus. But 
looking at Florida Keys for example, there we have been asked 
to do a comprehensive water quality management and monitoring 
program. We know that a place like the Keys, where the land is 
made of porous coral, and water quality is so important to the 
adjacent coral reefs, pollution runs through the land. In the 
past week there have been examples of beaches being closed 
around the Key West area due to poor water quality.
    That sort of thing happens frequently down there and we are 
not able to get a handle on it because we do not have the funds 
to address it.
    Senator Kerry. Well, I think it would be really good to 
have that assessment in terms of any kind of advocacy or 
struggle for funding, rather than being abstract. I think that 
creates a little more specificity.
    With respect to the coral reefs in the last years, you have 
estimated expenditures over 3 years, 1997, 1998, 1999, of $10 
million, $12.1 million, and $13 million. How does that compare 
to the recommendation of the Coral Reef Task Force?
    Ms. Yozell. The current spending or what we have requested?
    Senator Kerry. What you have spent.
    Ms. Yozell. Again, it really is a drop in the bucket, as I 
said earlier to Senator Snowe. We have huge requirements that 
the Task Force is trying to undertake. We are putting together 
budgets that will be available for 2001, but in just our 
preliminary Task Force meeting NOAA was able to come up with 
its $12 million request added to the $13 million that we 
already have.
    We fine-tuned the budget more after our first Task Force 
meeting when we recognized that we have to assess what the 
status of the coral reefs are, develop management programs, and 
then monitor them as well as map them. There are so many 
stressors focusing on our coral reefs, as I said, water 
quality, fishing, marine debris, and in order to handle all 
these issues $13 million is just not enough to do it.
    Senator Kerry. If adequately funded, how long would it take 
to map all the coral reefs?
    Ms. Yozell. If adequately funded, it would take about 5 to 
7 years to fulfil our efforts of mapping.
    Senator Kerry. That is at an annual funding of what level?
    Ms. Yozell. That would be at the annual funding level that 
NOAA is requesting, $12 million. And not all of that money 
would be used for that, but that would probably be a few 
million dollars a year. Without the money, Senator, I am not 
sure we will ever get it done. If we go at the rate we are 
going, it could be 20 or 30 years from now.
    Senator Kerry. Thank you very much.
    Senator Snowe. Senator Breaux.
    Senator Breaux. Thank you, Madam Chairman. I thank the 
witness.
    I think we ought to have a field hearing in an underwater 
submersible on top of a coral reef.
    Senator Snowe. That would be interesting.
    Ms. Yozell. I would love to take you all down.
    Senator Breaux. We are going to do it. I was looking at 
Yachting Magazine, I guess, in June. Actually, what attracted 
my attention to the magazine was the 41-foot Sea Ray on the 
cover, but I did notice that in the magazine was an article 
``Who's Killing the Coral Reefs in Florida?,'' which you have 
seen.
    There seems to be some sort of argument, which I was 
surprised to learn, that part of the problem is the increase in 
the salinity in the area around the coral reefs. Others have 
said, no, it is the increase of fresh water and all the 
nitrogen and phosphorus; it destroys the oxygen and causes the 
gradual destruction of the reefs.
    Is there any doubt what is causing it with regard to 
nitrogen and phosphorus?
    Ms. Yozell. Senator, you bring this up at a rather timely 
point. Later this week, in fact tomorrow I guess, we will be 
announcing a major restudy of the South Florida Everglades 
Restoration in that NOAA has a key role to monitor the coral 
reefs in the Florida Keys. As we are re-plumbing the whole 
Everglades and the whole water quality as well as salinity and 
non-salinity and other changes, we are going to be monitoring 
very closely to see how that affects the reefs.
    The reason we are doing that is because that is the No. 1 
issue there. Water quality is probably the most important issue 
when it comes to the Florida Keys.
    I would like to further note on your initial comment, we 
would love to invite you to come down and dive on the Keys.
    Senator Breaux. I accept. [Laughter.]
    Ms. Yozell. We would love you to come down and give you sub 
training, which we will be doing in August.
    Senator Breaux. I accept.
    Ms. Yozell. There you go. We will work with your staff to 
make sure that we get to do that.
    Senator Breaux. Well, we have talked with the Chairwoman of 
the Subcommittee, my good friend from Maine, about the problem 
we have in the Gulf of Mexico with regard to the dead zone that 
occurs every summer: we have 7,000 square miles utterly without 
oxygen. We also have the Flower Garden Banks which I remember 
helping authorize back in 1972 as a marine sanctuary.
    I think the consensus of scientists there is that it is the 
nitrogen and phosphorus that are being dumped into the Gulf of 
Mexico that allows the algae to grow very rapidly. When the 
algae dies off, it destroys the oxygen content, thereby 
destroying the coral reefs. Is there any doubt that that is not 
the same problem that is occurring in the Florida Everglades?
    Ms. Yozell. I believe it is. Let me turn to our coral 
scientist, Mike Crosby.
    Dr. Crosby. Senator, I think you are hitting the nail on 
the head in terms of one of the perturbations. The nitrogen is 
certainly, and phosphorus, certainly acting the way that you 
described it.
    Senator Breaux. So it is really the influence of fresh 
water into this ecosystem that creates part of the problem?
    Dr. Crosby. It is the combination of all of these factors.
    Senator Breaux. Rank in general terms the causes of the 
deterioration of the coral reefs. Obviously anchoring, someone 
anchors on top of a coral reef and rips it up, is a problem. Is 
the anchoring and everything else part of it a potential 
problem? Is people breaking off the coral reefs to sell in 
shops a problem? What about the algae and the lack of oxygen?
    Give us a ranking of what seems to be the current major 
reason for the problems that the coral reefs are having?
    Dr. Crosby. The significance of the perturbations is 
dependent upon the site. In the Florida Keys water quality is 
obviously a major, major factor. In some of the more isolated 
reefs in the Pacific, for instance, water quality would not be, 
but perhaps nets from various fishing vessels that have washed 
aground on the atolls may be a problem, coral bleaching is 
definitely a problem.
    Senator Breaux. Coral bleaching is caused by what?
    Dr. Crosby. Well, actually high temperature is one of the 
drivers. There's a good strong correlation there. The actual 
physiological mechanism for the expulsion of the symbionic 
algae which is causing the bleaching, the overhead that Senator 
Snowe had up there, the exact physiological mechanism is being 
studied right now. There is some new evidence that may indicate 
that it is actually a vibriobacteria that is causing the 
disruption of the physiological processes of the phytoplankton 
itself, causing them to be expelled or to die.
    But depending on what reef you are at, there are different 
stressors, and it is not any one stressor that you can point 
your finger to.
    Senator Breaux. How much damage is caused by human 
involvement--actual contact with the reefs and breaking them 
up?
    Dr. Crosby. Significant in areas where there is a large 
degree of tourism. Some of the tourist areas in Hawaii get a 
lot of damage from people because there is not an adequate 
amount of education and outreach for maybe tourists coming into 
an area. They may step or walk or throw their anchors 
overboard.
    Florida Keys is doing a very good job with respect to 
education and outreach, but again that is only 325 square 
kilometers of a total of about 17,000 square kilometers of 
coral reefs in the U.S.
    Senator Breaux. How many of the coral reefs are not in 
marine sanctuaries within the economic zone of the U.S.?
    Dr. Crosby. The overwhelming majority.
    Senator Breaux. Are in?
    Dr. Crosby. Are not in.
    Senator Breaux. Are not in the sanctuaries?
    Dr. Crosby. Yes, sir.
    Ms. Yozell. 90 percent of the corals are in the Pacific and 
just a small amount of that is actually in the humpback whale 
sanctuary.
    Senator Breaux. I was talking about in areas where we have 
the authority to put them in a sanctuary, within the 200 mile 
economic zone of the United States.
    Ms. Yozell. That is the 90 percent.
    Senator Breaux. Really?
    Ms. Yozell. Yes.
    Senator Breaux. So 90 percent are not in marine 
sanctuaries?
    Dr. Crosby. I would say over 90 percent are not in 
sanctuaries, yes, sir.
    Senator Breaux. Now, those that are in marine sanctuaries, 
are the tools available for us to adequately protect them 
within the sanctuary? I would think they are.
    Ms. Yozell. We have adequate tools within the sanctuary. We 
have broken some of the most incredible ground in the Florida 
Keys National Marine Sanctuary. I think you will hear in a few 
minutes from Mike Collins and he will talk about where we were 
with the Florida Keys Sanctuary as a first. It was the first 
sanctuary ever to have zoning. It was the first sanctuary ever 
to have a water quality program. It was the first sanctuary 
ever to have a sanctuary advisory committee.
    All of these things were sort of problematic as we broke 
major new ground in trying to manage such a vast resource. 
Today, however, we have learned so much from this process.
    Another place I would love to get you to dive is the 
Tortugas 2000--I mean Tortugas, and we are creating a program 
called Tortugas 2000, where we are going with the national 
park, the State, our dive community, our fishing community, and 
we are all working in concert at the local level to be able to 
create a large, 180 square mile ecological reserve. That is a 
no-take zone.
    Senator Breaux. That is in the 200 mile exclusive economic 
zone?
    Ms. Yozell. Yes, it is. And it is gaining incredible 
support throughout the community and it is getting that kind of 
support because we have been working with the stakeholders, and 
it has just been a real good example of what we learned from 
our initial efforts in the Florida Keys as we developed 
protective measures.
    Senator Breaux. I do not want to belabor this too long, 
Madam Chair, but let me ask if the coral is out in the 
Tortugas, I guess the fresh water intrusion--with nitrogen and 
plex-plains is not a problem in that area is it?
    Dr. Crosby. Actually, some of the current information, 
``current'' as in water current information, indicates that 
actually some of the waters that are coming out of the 
Mississippi and are creating the dead zone up around Louisiana 
are actually coming down and impacting the Florida Keys as 
well. You will also be getting impacts, potential impacts, 
coming out of the Florida Bay area.
    Senator Breaux. Are the destruction of the corals in the 
Tortugas and further out toward the east in the Caribbean 
similar to the type of problems and destruction that you are 
having in the Keys, or is it different?
    Dr. Crosby. Similar in many ways, because of the human--the 
high density of human beings--in the Caribbean in association 
with coral reefs. There are a lot of similarities, yes.
    Senator Breaux. Well, I really want to work with you. The 
good news is you have got Democrats and Republicans both 
offering a bill on corals. I mean, what are we headed for? This 
is unbelievable. We are arguing about who is going to put the 
most money in it, which is really a wonderful argument to be 
having. So at least we are moving in the same direction, and I 
would hope we could all come together.
    I have just got one final question. It is sort of a 
technical thing, but I have a memory of this. The Flower Garden 
Banks background information--I do not know if this is from 
NOAA or from who--says: ``Flower Garden Banks is one of the 12 
national marine sanctuaries designated under the Marine 
Protection, Research, and Sanctuaries Act of 1972.'' Then it 
says further down: ``Flower Gardens Banks was designated in 
January 1992.''
    I remember designating it in 1972. It was not 1992. It has 
been designated as part of the national marine sanctuaries 
since 1972, has it not? Was it something different in 1992 that 
was done that I do not remember? I mean, I authored the 
legislation back in 1972. I remember that.
    Ms. Yozell. I will tell you why it took so long.
    Senator Breaux. It is sort of a technical question. It is 
not really important.
    Ms. Yozell. Apparently we started it and then there was a 
``hiatus.''
    Senator Breaux. A 20-year hiatus?
    Ms. Yozell. It gained a lot of support to become a 
sanctuary, so we started again and with that support we made it 
one.
    Senator Breaux. Good things take a long time.
    Thank you.
    Ms. Yozell. It is tremendous--that is my next goal, to go 
there. From what I have heard, it is a tremendous sea mount 
that is just so unique.
    Senator Breaux. It is the northern most shallow water coral 
reef in North America.
    Ms. Yozell. Yes. Not to belabor the point, but that adds to 
the reason why we so badly want to create visitor exhibitry 
centers or whatever. I believe it is something like 60 miles 
off the coast. It is not the sort of thing that, like a 
national park where people can drive in and participate.
    Senator Breaux. In fact it is about 110 miles, so it is 
even further than that.
    Ms. Yozell. But that even furthers the reason that we 
really need to get our communities and visitors to understand 
what is out there in the deep, so that they can protect and 
learn to appreciate the resources.
    Senator Breaux. Thank you.
    Thank you, Madam Chairman.
    Senator Snowe. Thank you, Senator Breaux.
    Has your agency identified national priorities with respect 
to coral reef degradation? You mentioned mapping, and I assume 
that that has been an existing problem. Is it a result of a 
lack of funding? Has the agency gone through a process of 
identifying what is absolutely essential and made a forceful 
case to Congress over the years with respect to this issue?
    Ms. Yozell. I would say no, we probably have not made a 
forceful case over the years. That is why--first you had the 
islands report which identified it at the local island level of 
what really needed to be done. At the National Oceans 
Conference last year, that was why President Clinton created 
this task force, the Coral Reef Task Force, to really bring all 
that together.
    In doing so, I think it really helped NOAA get its house in 
order with regard to what its priorities are for corals. Again, 
water quality, fishing, mapping, those are the sort of issues 
that we really need to address.
    Senator Snowe. Will the Coral Reef Task Force come up with 
a plan and identify those priorities?
    Ms. Yozell. Yes.
    Senator Snowe. They will?
    Ms. Yozell. Yes. We have already begun to do so and it is 
due out in October.
    Senator Snowe. This morning there was a report on global 
warming that mentioned the fact that in the next 100 years the 
temperature could increase by 7 degrees. What would that mean 
to the problem at hand with respect to coral reefs? Are there 
any efforts under way or planned to prevent further degradation 
of coral reefs? Obviously, some efforts have been developed, 
but have we taken a major step toward preventing further 
degradation of coral reefs if global warming does increase over 
the next 100 years?
    Ms. Yozell. I am going to start this and then I am going to 
turn it over to Michael for the more accurate response. But my 
understanding is with coral bleaching that often the reefs can 
come back after a warming spell. However, when you add a lot of 
stresses to the corals they are weakened, and something like a 
coral bleaching event due to, if it is climate change, global 
warming, whatever, make it far more difficult for it to be able 
to recover.
    Senator Snowe. Can you reverse coral bleaching?
    Dr. Crosby. It can be reversed if it does not occur over an 
extended period of time and the water temperatures go back down 
within the normal range. There are many, many cases of the 
coral developing--renewing the relationship with the symbionic 
algae. But if it goes for an extended period of time, there are 
also many cases that show that the coral does die.
    Ms. Yozell. But I also believe--correct me, Michael--if it 
is in a weakened state due to other diseases, pollution, too 
much algae or whatever, it has less of an opportunity to be 
able to come back from a coral bleaching event than maybe 
otherwise if it were totally a healthy reef.
    So when you say are we doing anything for the future, I 
think we are trying to develop ways to make sure that the 
existing corals are as healthy as possible so they can survive 
these kind of events.
    Senator Snowe. What percentage of the reefs are in the 
northwest Hawaiian Islands?
    Ms. Yozell. Of all----
    Dr. Crosby. The northwest Hawaiian Islands I think have a 
little over 60 percent of all.
    Senator Snowe. Do they suffer the same impact?
    Dr. Crosby. With respect to global warming?
    Senator Snowe. Yes.
    Dr. Crosby. With respect to temperature increases, yes, 
ma'am. They probably are a little bit less impacted than say 
the Florida Keys with respect to tourism.
    Senator Snowe. Because they are not populated?
    Dr. Crosby. They are a little less accessible, although 
there is a growing ecotourism activity in the Hawaiian Islands. 
People want to go where the coral reefs are most beautiful. In 
fact, like moths being drawn to a flame, sometimes the 
relationship ends up not being mutually beneficial.
    Senator Snowe. On the National Marine Sanctuaries Act, you 
mentioned earlier the implementation of the management plans. 
So not 1 of the 12 sanctuary programs' management plan has been 
implemented, is that correct?
    Ms. Yozell. No, no, no, no. I was talking about the site 
characterizations.
    Senator Snowe. OK.
    Ms. Yozell. With regard to the management plans, all of the 
sanctuaries have a management plan.
    Senator Snowe. They have a management plan, but they have 
not been implemented and updated?
    Ms. Yozell. No, they are being----
    Senator Snowe. They have?
    Ms. Yozell. Oh, updated, now that is another story. Every 5 
years we are supposed to update the management plans, and we 
have just begun to do that. We started with Stellwagen Bank a 
few months ago with scoping and what-not.
    Senator Snowe. All 12 management plans have been fully 
implemented?
    Ms. Yozell. They are fully written. We are not able to 
implement them.
    Senator Snowe. Well, that is what I am talking about, the 
actual implementation.
    Ms. Yozell. No, we are not able to implement them. That is 
the whole core staffing level issue that I was discussing 
earlier.
    Senator Snowe. Right. But they have been in place for how 
long, for 5 years or 25 years?
    Ms. Yozell. Well, no. They vary from site to site because 
they have all come on line at different times.
    Senator Snowe. Yes, because of different times. But not one 
of them has been fully implemented over the course of time?
    Ms. Yozell. No, no, no. The site characterization at 
every----
    Senator Snowe. I know that every site has a management 
plan.
    Ms. Yozell. Yes.
    Senator Snowe. That's not the question I am asking. Have 
they or have they not fully implemented the management plans?
    Ms. Yozell. I believe they have.
    I will turn it over to----
    Mr. Lindelof. Madam Chairwoman, they are living documents 
that are revised as we go along, but periodically every 5 
years. None of the sites are currently fully implemented. We 
are in the process of doing that, and that is where the Lands 
Legacy increase becomes significant.
    Senator Snowe: So not one of the plans has been fully 
implemented. I have been told that they have not been updated 
either.
    Mr. Lindelof. That would be correct.
    Senator Snowe. They have not been reviewed and updated.
    Mr. Lindelof. That is correct. When a sanctuary is 
designated there is a management plan as part of its 
designation. That management plan lays out an education 
program, research program, an enforcement program, and how that 
sanctuary is going to be managed. It contains a list of 
activities.
    What we have been able to do in most sites is partially 
implement, with the current funding, the sanctuary activities. 
None of the sanctuaries have completely had a revision of their 
management plan, nor are they fully implemented.
    Senator Snowe. So what would it take to do both?
    Ms. Yozell. That is the whole point in our reauthorization.
    Why don't Ed stay here just in case. This is Ed Lindelof, 
who is currently the Acting Manager of the Stellwagen Bank 
Sanctuary, but works here in Washington.
    Senator Snowe. The $29 million would be for reviewing and 
implementing?
    Ms. Yozell. Both.
    Senator Snowe. Both. So the $29 million would do both?
    Ms. Yozell. The $29 million--it is not going to happen in 1 
year, but it is the starting point so that we can get all of 
our sanctuaries to the core operating level where we can 
implement management strategies, do site evaluations, and then, 
further, start to begin this 5-year review period, which is 
quite extensive. We go out to the communities, as we just did 
in Massachusetts in Stellwagen Bank, and have public hearings 
and work with our sanctuary advisory councils to determine what 
are the important management regimes we need to put in place, 
and then put them in place.
    Senator Snowe. None of the management plans have been 
updated?
    Ms. Yozell. Correct, none of them have been updated. 
Stellwagen Bank was the first to begin to be updated.
    Senator Snowe. So what does that process take?
    Ms. Yozell. It takes, as I just said, it is starting with 
going out----
    Senator Snowe. But how long?
    Ms. Yozell. Eighteen to 24 months.
    Senator Snowe. Eighteen to 24 months. And the reason why 
they have not been fully implemented, is due to the lack of 
funds?
    Ms. Yozell. That is correct, and updated.
    Senator Snowe. For lack of funds?
    Ms. Yozell. Both, because you cannot really go out and 
update if you do not have staff or scientists or managers or 
anyone to go out and do this kind of work.
    Senator Snowe. Obviously, it is required under the law. Why 
hasn't NOAA done it over the years?
    Ms. Yozell. NOAA has not had the funds to do it over the 
years.
    Senator Snowe. Have they made a case for that?
    Ms. Yozell. We have certainly tried.
    Senator Snowe. I cannot imagine after all these years that 
no one was hearing or listening in Congress.
    Ms. Yozell. We find that hard to believe as well.
    Senator Snowe. I know. It is a shock to hear you say that.
    Ms. Yozell. I have to say, I think this is truly the year 
of the national marine sanctuary, and that is why we are very 
pleased with working with the committee to ensure that we 
succeed.
    Senator Snowe. So NOAA has established priorities for the 
implementation of plans?
    Ms. Yozell. Yes.
    Senator Snowe. Updating?
    Ms. Yozell. Yes.
    Senator Snowe. How about expansion of the program? Does 
that take away from doing either of those tasks?
    Ms. Yozell. At the moment NOAA has no plans to expand its 
existing sanctuary program.
    Senator Snowe. Other than the most recent one in Michigan.
    Ms. Yozell. Right, exactly.
    Now, I will note the House bill, for example, tries to put 
a cap on any kind of expansion and that is our plan at the 
moment. But if the State of say Maine or Alaska or Louisiana 
wanted to paint a really good case why we ought to have a 
sanctuary off its coast, we would not want to be able to 
prohibit that if it was a worthy cause.
    Senator Snowe. How about enforcement? I know there has been 
an issue concerning lack of enforcement. In the 
administration's bill and the House bill new criminal penalties 
are proposed. How will that work if we are unable to enforce 
the current law?
    Ms. Yozell. Enforcement is also part of the getting our 
core staffing levels up to speed.
    Now, with regard to criminal, I want to make that clear. 
The criminal part of that is just for individuals who harass 
the enforcement officials. It is not to create penalties, and I 
want to make sure that that is understood.
    Senator Snowe. Are the current civil penalties enforced?
    Ms. Yozell. It is very spotty. We do not have enough 
enforcement capability. In the Florida Keys, where we probably 
have our greatest enforcement, we have a dual enforcement with 
the State. It is very effective. We do not do that many 
penalties unless it is a major case. Many of our officers are 
out there more to educate and provide warnings and really 
educate the population.
    But if it is an egregious event, they are there to do the 
enforcement. But it is under, under, under capacity with regard 
to the other sanctuaries.
    Senator Snowe. Also, has your agency noticed greater 
pressure outside the sanctuary with respect to fishing and 
other activities?
    Ms. Yozell. Well, fishing is permissible within the 
sanctuaries and many of the activities. So except for the few 
no-take zones which we have in Florida, that has really not 
been the case. In fact, I think as Mike Collins can tell you 
later, in the Florida Keys the fishermen have really embraced a 
lot of the areas of no-take zones, because they are very, very 
rich biodiversity areas which are creating more fish outside of 
the no-take zones.
    Senator Snowe. Right, and in Florida they have a number of 
no-take zones. But has there been any attention placed in those 
areas where the pressure might be greater?
    Ms. Yozell. We have not noticed it. I really believe that 
it is an effective tool for assisting the fishing community and 
the dive community outside of those areas. I do not think the 
level of fishing has increased.
    Senator Snowe. Do you think it is publicly known that there 
are compatible uses of the sanctuary? Is that a widely known 
concept?
    Ms. Yozell. I think that is a mixed bag. I think some 
people believe that it is the heavy hand of the government, and 
others who are living and working and closely understand the 
sanctuary understand that it is mixed use. I think that is why 
again in our request we are trying to much harder to get the 
education and outreach component fulfilled.
    Senator Snowe. Right, and I think that it is important for 
the agency to get that message out, because it would minimize 
the adversarial relationship that might develop between the 
communities and the agency with respect to operating a 
sanctuary.
    I noticed in the testimony of Mike Collins, who we will be 
hearing in the next panel, his comments on the process in 
Florida involved in developing a sanctuary management plan. It 
became controversial and then the plan disappeared, he said, 
``in the Beltway for a year.'' The agency provided, I gather, a 
less than objective and open process at that point. It did not 
encourage this type of openness that is critical.
    I really think that it is absolutely essential, otherwise, 
no matter how well intended a plan or effort is on the part of 
the Federal Government, if it is not well understood the 
motivations are second-guessed, or other new issues develop 
that have not been subject to a public process, and you are 
clearly going to have some serious problems overcome.
    Fortunately, it did not cause the plan to fail, in the 
final analysis and Mr. Collins supports it. But he is saying 
that we always have to have an open public process, and I would 
certainly encourage that.
    Ms. Yozell. Madam Chair, you are 150 percent right on when 
it comes to that.
    Senator Snowe. It is about the only time, but that is all 
right. Thank you. People do not often say that.
    Ms. Yozell. We have learned so much through our experience 
in the Florida Keys National Marine Sanctuary. I want to if I 
could pass to you--this is an advertisement that has been done 
by the Monroe County Development Council supporting the 
sanctuary and the no-take zones and all of the things that 
people were so paranoid about initially. The Chamber of 
Commerce is doing it, CNN is running ads.
    The more open the process, the better the consequence. That 
is what we are doing in this Tortugas 2000 effort, where we are 
making 180 square miles of area an ecological reserve. The 
openness has made--it is just like night and day, the 
difference in our ability to accomplish this.
    Senator Snowe. Well, I appreciate your testimony on this 
issue, and I intend to work with you and others in the agency. 
I will be drafting legislation on the reauthorization of the 
Sanctuaries Act and I am going to take into account many of the 
issues here today, as well as your comments on the Coral Reef 
Conservation Act.
    On another matter that I want to raise, and I suspect you 
probably anticipated it, concerning the New England Fisheries 
Management Council decision, I have to register my opposition 
to the Secretary's recent decision. I want to be sure that 
everybody in your agency understands my very strong 
dissatisfaction with what happened in wresting from the State 
of Maine one of its at-large seats on the Fisheries Management 
Council. Since your agency is responsible for the council, I 
wanted to make sure you understand. I did raise this yesterday 
with Dr. Baker.
    But I have to tell you how unhappy not only I am, but the 
people who are subject to the decisions made by the council. 
Maine fishing communities lost that seat to the State of New 
Hampshire. What I am saying here is that those seats have been 
proportional. Maine has had two at-large seats since the 
inception of the council. Just as Massachusetts has had three 
seats, Maine has had two at-large.
    We have 3,500 miles of coast line. The State of New 
Hampshire has 11. So that is one representative for every 3.7 
miles and we have one representative for every 1,167 miles--we 
also have 25 times the industry as in New Hampshire.
    I am not trying to pit one State against another. There was 
a very good reason for that proportionality on the at-large 
seats on the council. What it is going to do is place a 
tremendous burden on the individual that is there that has an 
at-large seat and the council member obligatory seat. In fact, 
I was talking to the only remaining at-large representative the 
other day and he said: I just do not know how we are going to 
do it. There are so many issues and challenges facing our 
industry.
    We have a $273 million industry in the State of Maine. The 
State of New Hampshire has $13 million. So you can imagine the 
enormity of the problems that are facing our industry at a time 
when we have a crisis in the groundfish industry, as Senator 
Kerry will tell you. Yet now we are facing it with reduced 
representation.
    Yes, sometimes our interests will coincide, but other times 
they will not, as in the issues concerning the groundfish 
industry. So we have lost our representation and that 
represents a significant hardship to people who do not deserve 
to face this problem on top of everything else.
    We did not even have a chance to discuss this with 
Secretary Daly. We had none. I tried to do it. I tried to call 
him a number of times, with no response. I wanted to have a 
discussion as to why it mattered to my industry and the State 
of Maine. Unfortunately it became an arbitrary decision, rather 
than sitting down and talking about it to figure out how we 
could resolve the situation.
    We are not pitting State against State. In New England, are 
all in this together. But you could see the difference between 
having a 3500 mile coast line and a $273 million industry 
versus 11 miles and a $13 million industry.
    So here we are, facing this kind of a confrontation when it 
was unnecessary. Unfortunately, the fishing communities in my 
state get to suffer from it. I am hoping the Secretary will 
reconsider his decision. But since NOAA oversees the council 
and NMFS, I wanted to be sure that I expressed my strong 
dissatisfaction, unhappiness and disappointment that this kind 
of arbitrary decision was made.
    Ms. Yozell. Senator, let me assure you we do not take this 
issue lightly at all, and I will make sure that Secretary Daly 
understands where you stand on this issue.
    Senator Snowe. I appreciate it.
    Again, I want to thank you, Ms. Yozell, for your testimony 
and for your colleagues participation here today. Thank you 
very much for being here.
    Ms. Yozell. Thank you.
    Senator Snowe. We will continue to work on these two 
issues. Thank you.
    Ms. Yozell. I look forward to working with the Committee.
    Senator Snowe. Thank you.
    Ms. Yozell. Thank you.
    Senator Snowe. We will now proceed to our second panel of 
distinguished witnesses. I am pleased to welcome Ms. Renee 
Cooper, the Executive Director of the Caribbean Marine Research 
Center. The next witness will be Dr. Cynthia Hunter, Curator of 
the Waikiki Aquarium. We will also hear from Dr. Phillip 
Dustan, who currently serves as the Science Advisor to The 
Cousteau Society, and Mr. Michael Collins, a fishing guide from 
Florida who has served on several sanctuary advisory committees 
in the Florida Keys National Marine Sanctuary. Also on our 
panel will be Dr. Michael Connor, Vice President for Programs 
and Exhibits at the New England Aquarium.
    I would like to welcome all of our guests, and I thank you 
for taking the time for being here on these important issues. I 
would ask you to summarize your comments to 5 minutes, and we 
will place your full written testimony in the hearing record.
    Ms. Cooper, we will begin with you. Welcome.

  STATEMENT OF C. RENEE COOPER, EXECUTIVE DIRECTOR, CARIBBEAN 
                     MARINE RESEARCH CENTER

    Ms. Cooper. Madam Chairwoman, thank you for the opportunity 
to testify on behalf of coral reef conservation. I imagine that 
few people outside of this room understand the urgency of the 
need for this legislation. I commend you, Madam Chairwoman and 
committee members, for taking action to provide for the 
revitalization of an invaluable resource, our Nation's coral 
reefs.
    The Perry Institute for Marine Science, which operates the 
Caribbean Marine Research Center, CMRC, and one of the six 
regional centers of the National Undersea Research Program, has 
conducted all facets of coral reef research for 30 years. CMRC 
operates the largest field station and marine laboratory in the 
southeastern U.S., the Gulf Coast, and Caribbean region, and is 
one of the premier sites for coral reef research in the world.
    Our work includes applying biotechnology to rebuild injured 
coral reefs, assessing coral reef health, and evaluating the 
impacts of disease, pollution, coral bleaching, and global 
warming on coral reefs.
    CMRC strongly endorses the efforts being made by this 
committee's leadership to establish a coral reef conservation 
program. The importance of such legislation cannot be 
overstated. We need this legislation because coral reefs and 
the marine resources that depend on them are severely 
threatened throughout the world. Human activities that cause 
stress, deterioration, and death to coral reef ecosystems have 
increased significantly over the past several decades.
    Approximately 60 percent of the world's coral reefs are 
currently threatened by human activities, including intense 
coastal development, overfishing, and pollution. Ten percent of 
the world's reefs are severely damaged or destroyed. Many coral 
reefs can recover to a healthy state if stresses are removed or 
reduced through conservation actions like the ones made 
possible through the pending legislation.
    Coral reefs are estimated to be worth $375 billion annually 
by providing fish, medicines, tourism revenues, and coastal 
protection for more than 100 countries. Coral reefs and coastal 
areas account for 38 percent of the goods and services provided 
by the Earth's ecosystems. This equates to over $12.5 trillion 
per year, slightly more than from terrestrial systems.
    Over 30 drugs from the oceans, many of which come from 
coral reef environments, are under development. Biotechnology 
discoveries in reef environments also have application in reef 
restoration. CMRC is sponsoring research that will provide a 
simple and universal solution to the world's declining reef 
communities by inducing coral reef rejuvenation and 
restoration. This revolutionary solution focuses on the 
development of a coral fly paper, a chemically treated surface 
designed to induce coral larvae to settle from the plankton and 
metamorphose into baby corals.
    CMRC believes enactment of a coral conservation bill would 
be a significant step forward in the rejuvenation of the 
country's coral reefs. Current efforts are focused on 
assessment, monitoring, and enforcement in coral reef areas. We 
could continue to monitor the decline of our coral reefs for 
years to come and we can take preemptive action. The provisions 
of this bill directly support the next vital step of verifying, 
demonstrating, and implementing coral reef conservation and 
restoration technologies.
    My sincere hope is that this committee will move forward to 
enact a coral reef conservation program which will propel this 
Nation into an international leadership position on coral reef 
conservation and management. CMRC is prepared to work with and 
to support this committee's initiative in every possible way.
    Coral reefs in the U.S. and throughout the world provide 
enormous benefits to our society and merit the full attention 
of this Congress and of this country.
    [The prepared statement of Ms. Cooper follows:]

      Prepared Statement of C. Renee Cooper, Executive Director, 
                    Caribbean Marine Research Center

    Madam Chairwoman, as President of the Caribbean Marine Research 
Center I am pleased to appear before you today on behalf of the Perry 
Institute of Marine Science and the Caribbean Marine Research Center to 
strongly endorse this Subcommittee's commitment to coral reef 
conservation.
    The Caribbean Marine Research Center (``CMRC''), one of the six 
regional centers participating in the National Undersea Research 
Program, has a thirty year history of accomplishment in coral reef 
research and conservation. CMRC operates the largest field station and 
marine laboratory in the southeast United States, Gulf Coast and 
Caribbean region. Its research facilities are one of the premier sites 
for coral reef research in the world.
    Researchers from approximately 120 U.S. universities and research 
institutions have conducted research projects at CMRC's research 
facilities. More than 150 scientists have come to CMRC's research 
facilities to undertake coral reef research. Based on their research at 
CMRC's facilities, these scientists have published 155 scientific 
papers on coral reef conservation and restoration.
    Recent coral reef projects conducted at CMRC's research facilities 
or sponsored by CMRC include research on (1) how to rebuild injured 
coral reefs by applying biotechnology to reseed damaged reefs; (2) 
methodologies to assess the health of coral reefs and other reef 
organisms; (3) the effect of oceanographic conditions on nutrient 
transport and the health of coral reefs; (4) the optimal light and 
temperature conditions needed for coral reef growth; (5) the impact of 
global warming on coral reefs, including the impact of ultraviolet 
radiation on tropical reefs; (6) the impact of various pollutants on 
coral reefs; (7) the effects of increased water turbidity on coral reef 
survival; (8) the range of natural variation in coral reef health and 
ecosystem structure; (9) methodologies for identifying and monitoring 
the incidence of coral disease; (10) larval production and 
metamorphosis in coral reefs; (11) the physiology of coral reefs; (12) 
the impact of hurricanes on reefs; (13) the community structure of reef 
corals; and (14) the phenomena of coral bleaching and recovery.
    The previous Director of the National Undersea Research Program 
characterized CMRC's coral reef program as providing ``an invaluable 
service not only to the scientific community, but also to U.S. resource 
managers'' because the research conducted at CMRC's facilities ``is 
absolutely required to help in the preservation and restoration of the 
U.S. [Exclusive Economic Zone] coral reefs....Without the responsive 
nature of CMRC's coral reef studies, it would be difficult to determine 
how to proceed to save severely damaged corals.''
    Although CRMC also conducts extensive research relating to global 
warming, fish ecology and fisheries conservation, aquaculture, deep sea 
dynamics, alternative energy sources, physical oceanography, and 
biotechnology, it is our expertise and experience in coral reef 
conservation and restoration which brings us before you today.
    CRMC strongly endorses the efforts being made by this Committee's 
leadership to establish a coral reef conservation program. The 
importance of such legislation cannot be understated. Existing coral 
reef programs focus primarily on reef assessment and monitoring 
techniques. It is important to take the next step which is to develop, 
verify, and implement coral reef conservation methods and restoration 
technologies.
    More than 60% of the world's coral reefs are threatened by human 
activities including intense coastal development, overfishing and 
pollution. Coral reefs fulfill many vital needs of the United States 
including:

        <bullet> providing major commercial and sport fisheries with 
        habitats essential to their survival during one or more life 
        stages,
        <bullet> supplying the prey that the major species of fish feed 
        upon since reefs are the primary habitat of many of the prey 
        species,
        <bullet> protecting our coastal communities from major storm 
        damage,
        <bullet> attracting tourists and supporting the coastal tourist 
        economy in the tropics and subtropics, and
        <bullet> providing vitally important biotechnology and genetic 
        material for use in medicines and cancer-arresting drugs and 
        for use as surgical implants in bone reconstruction.

    Coral reefs are estimated to be worth $375 billion annually by 
providing fish, medicines, tourism revenues, and coastal protection for 
more than 100 countries. As the most productive areas in the ocean, 
coastal environments that include coral reefs as a major component 
account for 38% of the goods and services provided by the earth's 
ecosystems. This magnitude of productivity equates to over $12.5 
trillion per year, slightly more than that from terrestrial systems.
    Coral reefs support major ocean fisheries such as spiny lobster, 
grouper, snapper, jack, ballyhoo, mackerel and dolphin fish. Coral 
reefs provide the engine to support the world's fisheries because coral 
reef environments provide vital links in the food chain and the 
critical habitat that major commercial and sport fish species depend on 
for survival during one or more parts of their life cycle. And the 
importance of protecting our fisheries cannot be underestimated. 
Worldwide, people obtain approximately 16% of their animal protein from 
fish--and the demand for seafood is expected to increase by 70% in the 
next 35 years. Over 200 million people worldwide depend on fishing for 
some portion of their income. A significant portion of the multi-
billion dollar value of international fisheries comes from fisheries 
associated with and supported by coral reefs.
    An invaluable wealth of medicines and genetic material are waiting 
to be discovered in the life forms that inhabit coral reef 
environments. For example, as recently as 1997, scientists discovered 
that a fish inhabiting reef environments produces a compound that 
arrests cancer by stopping the blood flow to tumors.\1\ CMRC has 
supported vital biotechnology research on the newly discovered active 
compound in a Caribbean soft coral used in skin treatments. This 
discovery, along with the development of sustainable harvest 
techniques, culture techniques, basic biology and essential habitat 
information is expected to lead to a new and economically important 
biotechnology industry which holds the promise of new treatments and 
cures.
---------------------------------------------------------------------------
    \1\ Other examples of anti-cancer drug discoveries from ocean 
resources include the following: a chemical in an Indian Ocean mollusk 
shows promise as a skin cancer cure; a Caribbean sea whip produces a 
compound that has been effective against leukemias and human breast 
cancer; agents found in Australian yellow soft coral and a 
Mediterranean coral stop malignant tumors from growing; and a New 
Zealand yellow sponge produces a promising anticancer chemical.
---------------------------------------------------------------------------
    Over 30 drugs from the oceans, many of which are from coral reef 
environments, are under investigation by drug companies. Compounds have 
been developed which can be used to sooth swelling caused by sunburn or 
chemical irritants by blocking a key enzyme involved in inflammation. 
Psoriasis, sunburn and arthritis all involve inflammation that one day 
may be treated by an agent found in the soft coral. The same extract 
could potentially have many medicinal uses. For example, the extract 
might be added to toothpaste for soothing inflamed gums, or to skin 
creams to limit sun damage.
    The results of biotechnology discoveries in reef environments also 
have application in reef restoration. For example, CMRC is sponsoring 
research that unlocks the mystery of coral colonization. The new 
technology will provide a vital solution to the world's declining reef 
communities by inducing coral reef rejuvenation and restoration.
    This new research, sponsored by CMRC, the National Undersea 
Research Program, and the National Science Foundation, offers the 
prospect of responding to the distressing trends in coral decline with 
a practical, universal solution. This revolutionary solution focuses on 
the development of a ``coral flypaper''--a chemically treated surface 
designed to induce coral larvae to settle from the plankton and 
metamorphose into baby corals. The larvae of corals must first detect a 
chemical signal in their ocean environment before they can settle from 
the plankton, attach to a hard surface and develop into mature corals. 
The newly discovered signal molecule required by coral larvae is 
attached to materials such as glass or tile. The result is ``coral 
flypaper'' to cue coral larvae to settle from the water, attach to its 
surface and develop into thriving corals.
    It is a distressing fact that we need such restoration programs 
because coral reefs and the marine resources that depend on them are 
severely threatened throughout the world. Direct and indirect human 
activities that cause stress, deterioration and death to coral reef 
ecosystems have increased significantly over the last several decades. 
Approximately 60% of the world's coral reefs are currently threatened 
and 10% of the world's reefs are severely damaged or destroyed. 
Although many coral reefs can recover to a healthy state if stresses 
are removed or reduced through conservation efforts, the facts are that 
restoration programs are essential.
    The conditions that make coastal areas the prime site of coral reef 
growth--shallow water and their place at the crossroads between land 
and seas--unfortunately also make them vulnerable to human assault. 
Currently more than 2 billion people live in coastal areas and many 
more millions crowd the world's beaches and coastal areas each year. 
Human activities increasingly cause much of the decline in coral reefs. 
Coral reefs in the southeastern United States and the wider Caribbean 
region, indeed, reefs throughout the world, are currently under siege 
by various threats.
    The most accessible coastal environments are becoming heavily 
impacted due to the sheer numbers of visitors. Damage is done to 
fragile reef areas by careless snorkelers and divers, anchor impacts, 
accidental boat groundings and propeller damage. But, coastal 
deforestation, coastal development, and beach renourishment projects 
are also significant forces impacting coral reefs. Such activities 
often cause sediment runoff which clouds nearshore waters and smothers 
corals that need sunlight to survive. Contaminants such as fertilizers, 
human wastes, toxic chemicals and sediment also come from land-based 
pathways, flowing down rivers into tidal estuaries where these 
contaminants bleed into the reef environments. Some of these 
contaminants promote algal blooms that rob the oxygen content of 
coastal waters, choking the life out of fish, corals and countless 
other marine creatures. Large portions of the Gulf of Mexico are now 
considered ecological ``dead zones'' due to algal blooms.
    The introduction of exotic species, those species transplanted from 
their place of origin by human actions, represents another threat to 
the world's coral reefs. Globally, thousands of exotic species are 
estimated to be in the ballast tanks of ships that cruise from one 
country to another. The waters of the United States are thought to 
receive at least 56 million tons of discarded ballast water a year. 
Heavily stressed marine environments are more susceptible to rapidly 
colonizing species. For example, the Black Sea was vulnerable in the 
1980's to an exotic species introduction due to a combination of 
overfishing, coastal habitat degradation, and increasing agricultural 
and industrial pollution. With no natural enemies and a diet of fish 
eggs, larvae and other plankton, the Atlantic comb jelly--probably 
released from a ship's ballast--helped wipe out 85% of the marine 
species in the Black Sea. Today, the coral reef environments of the 
Florida Keys, Gulf of Mexico and wider Caribbean are equally vulnerable 
to exotic species due to heavy ship traffic in the region.
    Changes in temperature, climate and atmospheric conditions pose 
high risks to marine species living in and comprising coral reef 
environments. CMRC has been monitoring these changes and their effects 
on coral and other reef organisms for two decades. Data have shown 
increases in ultraviolet radiation caused by a decrease in the 
protective ozone layer of the atmosphere. Studies on the resulting 
effects shows that the increase in radiation has a negative effect on 
photosynthesis and, therefore, on the base of the food chain in the 
oceans and on primary food production in reef environments. Research 
has also shown that the increased radiation damages larval development 
in corals, shrimp, crabs, and some fish. These effects could devastate 
coral reefs and some fisheries. Other potential devastation resulting 
from climate change includes increasing ocean temperatures that 
scientific research has linked to the severity in coral bleaching. 
Researchers at CMRC have studied natural variation in coral 
pigmentation and the factors contributing to coral bleaching since the 
mid-1980's when wide-spread coral death resulted from a major bleaching 
event. Further study is needed to identify coral reef areas with the 
highest risk of bleaching induced death and to discovery ways of 
mitigating those threats. Passage of the pending legislation will help 
make that important work possible.
    We appreciate that you share our concern about the preservation of 
healthy coral reef environments and about the urgent need to develop 
conservation and restoration methods for coral reefs. We have a chance 
to protect our important coral reef resources through sound scientific 
methods and the development of viable management approaches.
    CMRC believes enactment of S. 725 would be a significant step 
forward in the conservation and restoration of coral reefs. We would, 
however, suggest a few minor amendments to S. 725. The text of these 
amendments is enclosed as Attachment A to my testimony. CMRC believes 
these amendments would strengthen S. 725 which provides for a vitally 
important next step in the fight to save the viability of our coral 
reefs. Current funding and agency support is focused on assessment, 
monitoring and enforcement in coral reef areas. The provisions of S. 
725 directly support the verification, demonstration and implementation 
of coral reef conservation and restoration technologies. This 
legislation provides marine resource managers responding to our 
nation's urgent plea for action with real solutions and the funding 
with which to implement them.
    I would also like to apologize to Senator Inouye because we did not 
have the time before this testimony was required to be submitted to 
carefully examine S. 1253, principally because I was serving on jury 
duty last week. However, we would be pleased to offer suggested 
amendments to that bill if that would be helpful to you.
    Madam Chairwoman, I commend you and Senator McCain for your 
leadership in establishing a national coral reef conservation program. 
I also commend Senator Inouye and several Members on the other side of 
the aisle who are equally interested in this issue and are fully 
committed to establishing a national coral reef conservation program. 
My sincere hope is that this Committee will move forward to enact a 
coral reef conservation program which will propel this nation into an 
international leadership position on coral reef conservation and 
management. We also recognize that in this era of budgetary limitations 
there is substantial difficulty in starting new programs and that our 
expectations and goals must be realistic. Nevertheless, CMRC is 
prepared to work with, and to support, this Committee's initiative in 
every way possible. Coral reefs in the United States and throughout the 
world provide enormous benefits to our society and merit the full 
attention of this Congress and of this country.
                                 ______
                                 
                                               Attachment A

                     PROPOSED AMENDMENTS TO S. 725

    1. Page 1, after line 11, insert the following and renumber 
subsequent paragraphs accordingly:
    ``(3) To verify and demonstrate coral reef conservation and 
restoration technologies and methodologies;
    ``(4) To assist in the conservation, protection and restoration of 
coral reefs by developing standard conservation and restoration 
criteria and guidelines;''.
    2. Page 4, line 14, after the period insert the following:
    ``Such projects shall be consistent with standardized conservation 
and restoration criteria and guidelines developed by the Secretary or 
developed pursuant to projects approved under this Act.''.
    3. Page 3, line 19 after the second semi-colon, insert the 
following:
    ``the development of standardized conservation and restoration 
criteria and guidelines for coral reef resource managers; verifying and 
optimizing coral reef protection and restoration methodologies and 
technologies; the development of sound scientific methods for 
determining the condition of coral reef ecosystems and for identifying 
and categorizing the threats to such ecosystems;''.
    4. Page 9, amend lines 9-11 to read as follows and renumber 
subsequent paragraphs accordingly:
    ``(4) verifying and optimizing conservation and restoration 
methodologies, technologies and procedures through research and 
demonstration;
    ``(5) developing standardized conservation and restoration criteria 
for coral reef resource managers;
    ``(6) developing sound scientific methods for determining the 
condition of coral reef ecosystems, identifying and categorizing the 
threats to such ecosystems and selecting optimum mitigation and 
restoration actions based on the specific circumstances of such 
ecosystems;
    ``(7) developing decisionmaking processes and guidelines for coral 
reef resource managers;''.
                                 ______
                                 
  Perry Institute for Marine Science Caribbean Marine Research Center
                        affiliated organizations
1. Auburn University
2. Austin Community College. Austin, TX
3. Bahamas National Trust, Exuma Land & Sea Park (Bahamas)
4. Baylor University
5. Boston University
6. Bowling Green State University
7. Brevard Mosquito Control, Brevard County, Florida
8. Bronx Center for Social Services.
9. Brookhaven National Lab--Upton, NY
10. California State University, Monterey Bay
11. California State University, Northridge
12. Carleton University, Canada
13. Center for Marine Conservation
14. Coastal Systems Station, Panama City, FL
15. College of Charleston
16. College of the Atlantic
17. Collage of the Bahamas (Bahamas)
18. Colorado School of Mines
19. Columbia University--Palisades, NY
20. Coral Reef Research Foundation
21. Cornell University
22. CPACC--Organization of American States (OAS)
23. Dalhousie University (Canada)
24. Dartmouth College, Hanover NH
25. Dauphin Island Sea Lab
26. Department of Environmental Protection, Florida
27. Department of Meteorology--Bahamas
28. Dill Geo-Marine
29. Divers Alert Network (DAN)
30. Division Fish and Wildlife, U.S. Virgin Islands
31. Dreyfoos School of the Arts, Palm Beach Co. Public Schools
32. Duke University, Beaufort, NC
33. Earthwatch
34. Eckerd College
35. Exuma High School (Bahamas)
36. FTU--Mote Marine Lab
37. Flamingo Bay Research, Cairns, Australia
38. Florida Atlantic University
39. Florida Environmental Research Institute--The Florida Aquarium, 
Tampa, 
Florida
40. Florida Game & Fish Commission
41. Florida Institute of Oceanography
42. Florida Institute of Technology
43. Florida Keys Marine Laboratory
44. Florida Marine Research Institute
45. Geologisches Institute (Switzerland)
46. Geologish-Palaeontologishes Institut, J.W.Goethe Universitat 
(Germany)
47. Georgia Southern University Statesboro, GA
48. Gumbo Limbo Environmental Complex--Boca Raton, FL
49. Harbor Branch Oceanographics Institute
50. Haskins Shellfish Research Laboratory
51. Humboldt State University
52. Institute of Zoology, Germany
53. Instituto Technologico y Estudios Superiores do Monterrey (Mexico)
54. James Cook University
55. Kings College--London (England)
56. Laurentian University (Canada)
57. Looe Key National Marine Sanctuary
58. Maine Maritime Academy
59. Manhattan College
60. Massachusetts Institute of Technology
61. Max Planck Institute for Marine Microbiology, Brenen, Germany
62. Miami University
63. Michigan State University
64. Monell Chemical Senses Center
65. Moss Landing Marine Labs--Hopkins Marine Station
66. Mote Marina Laboratory (Florida)
67. Natural History Unit, BBC, Briston, UK
68. Naval Research Lab
69. NMFS--Miami
70. NOAA Flower Gardens National Marine Sanctuary
71. NOAA/AMPL/OCD
72. NOAA/Coastal Ocean Office Processes
73. NOAA/OAC-PDL
74. NOAA/Oceanic and Atmospheric Research
75. North Carolina State University
76. North Dakota Geological Survey
77. Northeast Fisheries Science Center NOAA/NMFS
78. Nova University
79. Oasis Program--University of South Florida
80. Oberlin College, Oberlin, OH
81. Office of Naval Research--Bigelow Lab
82. Office of Naval Research, DOD
83. Old Dominion University
84. Oregon State University
85. Pew Charitable Trusts
86. Principia College
87. Rosenstiel School of Marine & Atmospheric Science (Florida)
88. Rutgers University
89. Salem State College
90. Science Applied International
91. Scripps Institute of Oceanography
92. Shearwater Foundation
93. Smith College
94. Smithsonian Institute
95. Smithsonian Tropical Research Institute
96. Southern Cross University (Australia)
97. Southern Methodist University
98. State University of New York--Buffalo
99. State University of New York--Stony Brook
100. Station Marine d'Endoume, Centre d'Oceanologie (France)
101. Stoakes Consulting Group Ltd. (Canada)
102. Swedish Museum of Natural History-Stockholm, Sweden
103. Tetra Tech, Inc.
104. Texas A & M University, College Station
105. Texas A & M University, Galveston
106. Tulane University
107. United States Geological Survey
108. Universita degli Studi dela Calabria (Italy)
109. Universitat Innsbruck, Innsbruck, Austria
110. Universite de Bourgogne, Dijon, France
111. University of Arkansas
112. University of California--Davis
113. University of California--Los Angeles
114. University of California--San Diego
115. University of California - Santa Barbara
116. University of California. - Santa Cruz
117. University of Cincinnati, Cincinnati, OH
118. University of Connecticut
119. University of Copenhagen, Copenhagen. Denmark
120. University of Delaware
121. University Edinburgh, Edinburgh, Scotland
122. University of Florida--Archie Carr Center for Sea Turtle Research, 
Gainesville, FL
123. University of Frankfort--Germany
124. University of Georgia
125. University of Graz, Graz, Austria
126. University of Guam Marine Laboratory
127. University of Guam, Mangilao, Guam
128. University of Hamburg, Hamburg, Germany
129. University of Hawaii - Honolulu, HI
130. University of Houston, Houston, TX
131. University of Leicester, Leicester, UK.
132. University of Maine, Walpole, ME
133. University of Maryland-College Park
134. University of Maryland--Eastern Shore
135. University of Maryland--Princess Anne
136. University of Miami
137. University of Mississippi
138. University of New Hampshire
139. University of New Orleans
140. University of North Carolina
141. University of Noith Carolina--Wilmington
142. University of Puerto Rico
143. University of Queensland (Australia)
144. University of Richmond
145. University of Rochester
144. University of South Carolina
147. University at South Florida
148. University of Sydney--Sydney, Australia
149. University of Technology--Sydney, Australia
150. University of Texas--Austin
151. University of Texas--Dallas
152. University of Texas--Houston
153. University of Vigo, Spain
154. University of Virginia
155. University of Washington
156. University of West Florida
157. Utah State University
158. Virginia Institute of Marine Science
159. Warren Wilson College, Asheville, NC
160. Western Washington University
161. Western Washington University-Shannon Point Marine Center
162. Wilmington College, Wilmington, OH
163. Woods Hole Oceanographic Institution
164. Wright State University
165. Yale University

    Senator Snowe. Thank you very much, Ms. Cooper.
    Dr. Dustan.

    STATEMENT OF PHILLIP DUSTAN, PH.D, SCIENCE ADVISOR, THE 
                        COUSTEAU SOCIETY

    Dr. Dustan. Thank you. Madam Chairman, Chairperson, good 
afternoon. My name is Phillip Dustan. I am testifying on behalf 
of the Cousteau Society. I am a professor at the College of 
Charleston in South Carolina. I am a principal investigator on 
the USEPA coral reef monitoring project in the Florida Keys and 
also principal investigator on the Sustainable Seas Project. I 
would like to share with you some of the results of my work 
over the last 25 years in the Florida Keys, and I have brought 
a carousel of slides to do that. So if we can lower the lights, 
I would be happy to turn on the machine.
    [Slide.]
    As we have heard today, we know that coral reefs are the 
largest construction projects on the face of the planet. If you 
were approaching from space, the first sign of life you would 
have on this planet would actually be coral reefs, as you see 
here in the Maldives.
    [Slide.]
    I do not want to dwell on these areas too much.
    [Slide.]
    [Slide.]
    Corals in many respects are very, very thin amounts of 
tissue on top of a rock that they build. So when we are talking 
about coral, we are talking about maybe a tenth of a millimeter 
of living flesh on top of this skeleton.
    [Slide.]
    Most of the time you see them as you see here, as mostly 
these animals that are expanded with their mouths. They are 
very active predators, and their yellow-brown color is due to 
the algae or symbiotic zozanthellae that live in their tissues. 
That is the real key to their ecological success.
    What I would like to talk to you about today is my work in 
the Florida Keys, down here at the bottom of Florida. 
Especially in this photograph taken from the Space Shuttle, the 
hydroscape of the Florida area starts at Lake Okeechobee and 
this water moves south through the Everglades and through this 
area and ultimately down through the Florida Keys, as well as 
water moving along the coasts.
    [Slide.]
    This area has undergone explosive growth in the last few 
years, and people enjoy certain aspects of living in these 
areas. Thousands of people go diving every year. Thousands of 
people build houses, and I would like to dwell on this just for 
a moment because this is an old mangrove area that was dredged 
out and the dredge spoil was put here to build houses on. So 
the original soil was disturbed, which opens the area up for 
erosion.
    Then every single one of these houses has what you might 
call a cesspit. It basically has a pipe that goes down into the 
porous rock. There is no sewage infrastructure in most of the 
Florida Keys. In a matter of hours, if you flush the toilet in 
one of these you will see signs of that out here in the canal.
    [Slide.]
    People like to--they enjoy boating. Small vessels or ships 
sometimes go boating on the reefs.
    [Slide.]
    This is what it looks like underwater, where we see the 
wreckage of the boat and a lot of broken coral. This particular 
grounded boat, in 1974, is a 36-foot trimaran. It absolutely 
destroyed an area 10 meters wide and 60 meters long of one of 
the most pristine reefs in the Florida Keys at that time, Key 
Largo Dry Rocks.
    By the way, that reef still looks that way today, except 
that it is just overgrown with algae.
    My work began in the Florida Keys at Carysfort Reef, the 
largest and the most diverse reef in the Florida Keys, in 1974 
when I was asked to head up a project funded by the Smithsonian 
and the Harbor Branch Foundation. We started the Florida Keys 
Coral Reef Project. We surveyed the reef with line transects 
and collected actual numerical data on the abundance of corals.
    We encountered diseases, such as black band disease, which 
you had a photograph of. This particular coral (photo) is 
probably 300 to 500 years old and black band disease is 
creeping across its surface in terms of millimeters per day.
    I had the dubious distinction of discovering the second 
scourge of corals or coral disease, white plague, so named 
because it leaves behind just the white bright skeleton of the 
coral. It is caused by some sort of a microorganism, and we are 
beginning to identify that now with one of my colleagues, Dr. 
Lauri Richardson.
    White plague is much more virulent than black band disease. 
It will kill a large coral colony like this (photo) in a matter 
of sometimes days, but probably mostly months. Recently we have 
seen a resurgence of white plague disease, and the divers would 
come in and ask: What are all those snowballs on the reef? And 
they were just recently dead corals.
    So we have corals that are 200 to 300 years old, the elders 
of the society, dying in a matter of months.
    [Slide.]
    We also have bleaching. Bleaching has been relatively well 
known for about a hundred years. Corals would bleach when they 
were stressed. The water is too cold, the water is too hot, the 
water is too saline, the water is not saline enough. Put the 
corals in the dark, they bleach.
    It has only been recently that they have become more 
stressed and the environment has become more stressful, that 
sometimes they bleach and die.
    [Slide.]
    The bottom line to my research in the Florida Keys from 
1975 to 1985 can be summarized in three slides, actually two 
with the third follow-on. This is the shallow reef with elkhorn 
coral in 1975 on Carysfort Reef in our study site. It 
approached about 50 to 60 percent cover of the bottom at that 
point. It is a very healthy reef.
    [Slide.]
    Ten years later, in 1985, this is the exact same reef. Most 
of this is rubble now. If you look carefully, there is a vee 
here that comes out and is probably the scar marks from a 
relatively small boat, somewhere between 30 and 50 feet, that 
crashed into the reef. So the shallows have been destroyed, and 
the corals are not regenerating the way they used to do.
    Hurricanes would come through in the fifties and destroy a 
reef like this and the reef would regrow in a matter of years. 
That is not happening any more.
    [Slide.]
    This is the reef in 1995, the same reef. There is virtually 
no living coral in this area. What you see here, these little 
black marks, are fish. That is a fish school that has come 
through to graze. So we have seen a precipitous decline.
    Now, in 1995 the EPA started the Florida Keys Coral Reef 
Monitoring Project and I was asked to be a principal 
investigator on that.
    [Slide.]
    We took one site here and two other sites down here where 
we had been working for a while, and we extended the amount of 
our sampling all the way up and down the reefs, because we 
wanted to not just look at one site, but we wanted to increase 
the spatial scale of our sampling.
    [Slide.]
    We studied, we examined and censused for diseases, 
bleaching and various kinds of diseases. We have a new category 
called ``other diseases.'' There are probably between 5 and 15 
new diseases, and new ones being discovered annually. Our 
initial findings actually spawned a second project called the 
Coral Reef Disease Study, which is also funded by EPA in the 
Florida Keys.
    [Slide.]
    I will share with you a few repetitive sampling transects. 
In 1997 we see a relatively healthy coral with some areas of 
dead, but the brown here is living coral tissue with its 
symbiotic algae. In October there was a bleaching event and you 
can see the white area here is bleached coral. Now, at the same 
time this coral became infected with black band disease, and 
that is this band.
    In May 1998 the coral had recovered its algae, but there 
were large areas that were dead and a large part of this is due 
to this disease. So corals that are stressed, as we heard 
earlier, are more susceptible to disease most probably.
    [Slide.]
    Here is another series of transects I would like to share 
with you--1996, 1997, 1998. This is Carysfort Reef and this is 
about 10 meters of bottom. This is a live coral here in 1996, 
and there is another one here and there is another one here. 
This is a dead coral.
    This coral in the next picture, 1997, is still alive, but 
in 1998 it is dead and being encrusted with algae. This coral 
here, you can see here, has a white area. That is white plague, 
and it is reef rock here in 1998; it is just turned into rock. 
This coral is still alive.
    These are the kinds of results that we are finding with our 
EPA project, which is probably the most precise and large-scale 
monitoring project on the planet for coral reefs at this time.
    [Slide.]
    This graph summarizes what has happened at Carysfort Reef 
between 1975 and 1997. In the shallows, with the pictures I 
showed you we started at somewhere around 40 percent cover, 
went up a little bit, and then precipitously declined, so we 
are now at around 10 percent cover or less. In the deeper parts 
of the reef we have gone from 60 percent to 50 percent and down 
now we are at around 5 or 6 percent on this same reef.
    [Slide.]
    This is the first pictures that anyone has ever done to 
show actually that you can use satellites to map and monitor 
the change in reefs. In this image what I would like to show 
you is, this is an aerial photograph of the reef. This is a 
lighthouse right here and that is the shadow of the lighthouse. 
This is about a 300 foot long shadow.
    This area of this reef, Carysfort, are these sequences that 
I have shown you. We have taken the outline of this reef and 
used it to outline thematic mapper satellite imagery, and we 
have processed this imagery so the color is actually related to 
the true color of the reef, the browns and the yellows, and 
then out here you can see the blues of the sands.
    The vertical axis on this three dimensional rendering is 
change over time. It is very clear to see that in the last 16 
years that we have this data from we see the most change on the 
reef occurring where we have seen the greatest ecological 
change. This I think represents the forefront of using 
satellite technology to map and monitor coral reefs, and this 
was done in my laboratory at the College of Charleston.
    [Slide.]
    Now, Reefs at Risk, which you have heard about was 
published about a year ago. It suggests that about 58 percent 
of the coral reefs are threatened on the planet. The ones that 
are not threatened are the ones more in the central Pacific 
areas. There are dramatic threats over here. (Caribbean and 
S.E. Asia).
    We also have at the same time these coastal hypoxic dead 
zones which we have been hearing about. These are outlined on 
this map in red. What I have done here, is also placed the 
patterns of the ocean currents in this image. What we see here 
is, for instance, deforestation in the Amazon will be picked up 
by the Guyana current and brought into the Caribbean and out 
past the Florida Keys. We have actually detected sediments from 
the Guyana Shield from South America on Carysfort Reef.
    So everything is connected in the oceans. What I would like 
to submit is that reefs are indicators of the health of the 
ocean. Not only are they important to themselves, but they are 
harbingers of a changing ocean, and harbingers in terms of what 
we put in in localized places, what we put in from dustfall 
from here has created a series of nested stresses.
    [Slide.]
    I think I have painted a pretty grim picture of what is 
going on, and I really would rather not have done that, but 
this is the truth. This is what I have seen with my own eyes.
    I really like the bill that you have proposed, S. 725, 
because it puts the money in the hands of little people. Most 
of the work you have seen here, with the exception of EPA, and 
even that is grossly underfunded, but most of this was done 
with 5 and $10,000 grants or by myself and my students because 
we just wanted to do it.
    Much of the innovative science today is done on that level, 
by people that are innovative and really just constructive and 
creative scientists doing this sort of work. That goes for the 
conservation industry as well, all the NGO's and everybody 
else.
    So in summary, I would like to say that Captain Cousteau 
actually taught us that the oceans are alive and he shared his 
love of the sea with us. He always felt that people would 
protect things they love, and we all love coral reefs and we 
all love the ocean and we all love people. So I think it is 
time we get together and try to make it happen.
    Thank you very much, and the Cousteau Society is more than 
willing to work with you.
    [The prepared statement of Dr. Dustan follows:]

     Prepared Statement of Phillip Dustan, Ph.D., Science Advisor, 
                          The Cousteau Society

                              INTRODUCTION

    Good afternoon. My name is Phil Dustan, and I am testifying on 
behalf of the Cousteau Society for which I serve as Science Advisor. As 
the new millennium approaches, it is appropriate to take stock of the 
health and assess the future prospects of the most fantastic undersea 
ecosystems ever explored by Captain Cousteau--the world's coral reefs.
    The Cousteau Society is a nonprofit, membership-supported 
organization dedicated to the protection and improvement of the quality 
of life for present and future generations. Created in 1973 by Captain 
Jacques-Yves Cousteau, the Society has approximately 150,000 members 
worldwide. Cousteau teams have explored the water system throughout the 
world for over forty years. Their unique explorations and observations 
have been documented in more than forty books, four feature films, and 
over one hundred television documentary films that help millions of 
people to better understand and appreciate the fragility of life on our 
Water Planet.
    I am a Professor of Biology at the University of Charleston, SC. I 
am a coral reef ecologist specializing in the ecology, photophysiology, 
and vitality of corals and coral reef communities. Much of my work 
centers on detecting changes in the coral reefs of the Florida Keys. I 
have worked in the Florida Keys, Bahamas and throughout the Caribbean 
Sea, Sinai Peninsula in the Red Sea, and the Seychelles Islands, Indian 
Ocean. My field experience includes over 1000 scientific dives, 
submersible experiences, and thousands of miles at sea on scientific 
research cruises to most of the oceans of the world. As a young 
scientist, I first worked with Captain Cousteau in 1974-5 filming, 
writing, and editing the Mysteries of the Hidden Reefs, part of the 
Undersea World of Jacques Cousteau series. I also have worked on the 
synthetic coral reef project in the ecologically closed Biosphere2 
experiment in Arizona and participated in developing the use of NASA 
satellites to map oceanic productivity. Finally, I am presently a 
principal investigator on the U.S. Environmental Protection Agency 
Florida Keys Coral Reef/Hardbottom Monitoring Project.
    Madame Chair, Members of the Committee, thank you for providing me 
with this opportunity to appear today as witness before the 
Subcommittee on Oceans and Fisheries.

               ANCIENT ECOSYSTEMS FACING MODERN PROBLEMS

    Captain Jacques Cousteau opened the eyes of millions of people 
around the world to the wonders of the undersea realm. He showed us 
that the oceans are alive. His vision and spirit of adventure took us 
to places never before experienced. The voyages of Calypso fed our 
imagination and sparked our desire to understand the nature of life 
beneath the sea. Some of his earliest films focused on coral reefs, the 
most marvelous of all underwater ecosystems.
    Coral reefs are found throughout the tropical, equatorial waters of 
the world's oceans. They are the oldest, most complex ecosystems in the 
sea--the marine equivalent of tropical rain forests in terms of 
ecosystem diversity and productivity. Coral reefs are a reservoir for 
much of the world's marine biodiversity, supply an estimated 10% of the 
world's fisheries, protect small island developing states from coastal 
erosion, and provide a strong economic base for tourism. Additionally, 
we are just beginning to understand the incredible potential this rich 
biodiversity may hold for scientific and medical advances.
    Modern coral reefs evolved approximately 225 million years ago, and 
over this enormous span of time they have developed sophisticated 
ecological relationships that support such rich marine biodiversity. 
Reefs are built by tiny colonial organisms who compound their skeletal 
masses over thousands of years. Crystalline calcium carbonate is 
deposited by single celled animal-plants with paper thin tissues who 
make skeletons that withstand the strongest seas. Coral reefs are 
without doubt the strongest biologically built structures on the 
planet, and are the only naturally built ecosystems in the seas that 
are visible from space. Coral reefs are nature's biggest construction 
project.
    Unfortunately, their delicate complexity makes coral reefs 
vulnerable to changing environmental conditions, particularly 
temperature, sediment, and nutrient concentrations. Ironically, the 
many values of coral reefs--as a fisheries resource, for coastal 
protection and building materials, and more recently as tourist 
attractions--now are contributing to their steady and rapid decline. 
Sadly, scientists and resource managers recognize that catastrophic 
coral reef degradation is occurring in all oceans of the world at 
unprecedented and alarming rates.
    Anthropogenic stresses are thought to be contributing to the 
deterioration of coral reef ecosystems throughout the world, but most 
notably in the Caribbean and the western Atlantic. Growing coastal 
populations and related development have altered the ecological 
characteristics of watersheds, resulting in rivers overloaded with 
sediments, nutrients, and toxic chemicals. Coral reefs subjected to 
these conditions are showing signs of decreasing health--coral cover is 
disappearing while lethal algal growth is expanding. Overfishing and 
the commercial harvest of reef resources have contributed to 
unprecedented decline in reef diversity and ecological stability. 
Ironically, many reefs also are suffering from increased ``eco- 
tourists'' who cause direct, physical damage to the reefs they visit by 
taking home ``just one souvenir.'' Finally, coral bleaching is 
widespread in every tropical sea, which scientists have linked the 
gradual warming of the ocean.
    In addition to their intrinsic biological and esthetic values, 
coral reefs are important to many regions of the United States as a 
source of economic development, principally through tourism, but also 
as a foundation for many important recreational and commercial 
fisheries. Coral reefs also play a fundamental role in the economic 
structure of tropical coastal countries throughout the world, both as 
sources for local commercial fisheries and attractions for foreign 
visitors. Ultimately, coral reefs may be a vital indicator of overall 
oceanic health and global climate developments and may assist in our 
understanding of the complex relationships in our global ecosystems.

              LONG TERM SCIENTIFIC STUDY ON THE HEALTH OF

                      THE FLORIDA KEYS CORAL REEFS

    My research into coral reefs began with my graduate studies in 
Jamaica in 1969. In 1974, I began to investigate man's impact on coral 
reefs in the Florida Keys, a project funded by the Smithsonian 
Institution and the Harbor Branch Foundation. My direction was to 
investigate human impacts on coral reefs. This began the longest, 
continuously running study of the health and vitality of corals reefs 
in the Florida Keys, and in the world. My approach to the problem was 
hierarchical, with studies at the levels of individual corals, 
localized populations, and the broader ecosystem. We established a 
permanently marked transect study site at Carysfort Reef, the richest 
and most diverse reef in the Florida Keys. My research team surveyed 
abundance of corals, estimated their recruitment and mortality rates, 
and began to assess anthropogenic impacts. Today these data serve as a 
baseline for evaluating the degradation of a once healthy coral reef 
ecosystem.
    My team's initial work suggested that the reef tract was changing 
quickly. Coral recruitment was much lower than in the West Indies, and 
small corals were becoming more difficult to find. Two coral diseases, 
Black Band Disease and White Plague were just becoming significant 
infectious diseases, and a third condition, algal-sediment 
encroachment, comprised the major agents of mortality. In the summer of 
1975, we established a study site in the Dry Tortugas, ostensibly as a 
control site for the Florida Keys. The reefs there were in much better 
condition that the northern Florida Keys, as coral development there 
was very rich, with little or no disease.
    Returning in 1982 to resurvey Carysfort Reef, I observed that in 
seven years coral cover and diversity had increased in the shallow 
areas of the reef while the deeper, fore-reef terrace had suffered 
significant losses (Dustan and Halas, 1987). Change in shallow water 
seemed driven by the destruction of the dominant stands of Acropora 
palrnata, elkhorn coral. The area bore the scars of boat groundings, 
including pieces of propeller blades and signs of antifouling bottom 
paint. Cover had increased because the lush, three-dimensional habitat 
had been reduced to planar rubble which covered more of the bottom and 
smaller colonizing species were settling on open substrate. However, 
deeper colonies were dying from disease and sediment damage, and they 
no longer were being replaced by recruitment. High rates of mortality 
continued to be documented by other researchers in the Florida Keys 
between 1984 and 1991 (Porter and Meier, 1992).
    In July 1984, my students and I made observations on the phenotypic 
condition of over 9800 corals on 19 different reefs in the Key Largo 
region. Sixty percent of the corals showed signs of physical or 
biological stress, 5-10 percent were infected with disease and about 
one third appeared healthy. Surprisingly, virtually all the areas we 
surveyed had approximately the same level of unhealthy corals.
    As a control to our observations, we visited the reefs of San 
Salvador, Bahamas, site of Columbus' first landing in the Western 
Hemisphere. I was surprised to find that similar patterns of reduced 
coral vitality. A higher percentage of corals were considered healthy, 
but we also found a host of diseases, including Black Band and White 
Plague. Therefore, it was disturbing to observe such high percentages 
of ``stressed'' corals could be found even in waters that are remote 
from industrial pollution or anthropogenic nutrient loading (Dustan, 
1993).

                   EARLY FEDERAL RESPONSE TO THREATS

                    FACING FLORIDA KEYS CORAL REEFS

    As a result of increased scientific recognition that Florida Keys 
coral reefs were deteriorating, Congress passed legislation to provide 
protection to coral reefs and support research on the declining health 
of coral reef ecosystems. In 1990, the Florida Keys National Marine 
Sanctuary Act established the Florida Keys National Marine Sanctuary 
and directed the U.S. Environmental Protection Agency (``U.S. EPA'') to 
institute a water quality assurance and protection plan for the Florida 
Keys, and to monitor the status and trends of the seagrasses, coral 
reefs and hardbottom communities and water quality.
    My colleagues and I designed the U.S. EPA Coral Reef Monitoring 
Project (``CRMP''), to detect change in the status and trends of coral 
reef and hardbottom communities of the Florida Keys. We used repetitive 
underwater observations and video transects to provide estimates of 
biodiversity, distribution, and coverage of reef corals and associated 
benthie organisms. Starting - in 1996, the CRMP annually sampled 160 
stations at 40 sites on 32 reefs that are distributed throughout the 
Florida Keys. In June 1999 we added ten more stations at threes site in 
the Dry Tortugas.
    When we began this project I felt that we might see some changes 
within the first five years. However, the rate of degradation has been 
much faster. In three years of sampling we have witnessed increases in 
the distribution of diseases which kill corals, increases in the number 
of species with diseases, and coral bleaching has become relatively 
common. Many of the reefs have lost species.

            PRECIPITOUSLY DECLINING HEALTH AT CARYSFORT REEF

    Carysfort Reef has continued to decline. By June 1998, coral cover 
in the shallows had decreased to approximately 10%, and 5 to 10% in the 
deeper habitat zones. During a dive on Carysfort Reef in July 1998, we 
were unable to find a single colony of star coral, Montastrea annularis 
species complex, that was not infected with the White Plague. Large 
colonies (in excess of 1 meter in diameter) were rapidly being 
overtaken by White Plague. Since the skeletal growth rate of M. 
annularis has been measured at 5 to 10 ram/year, I estimated that these 
colonies are at least 100 years old (Dustan, 1975). Some colonies are 
at least twice this age, and White Plague kills them in less than a 
single year. With such rapid mortality of large colonies, coral cover 
may soon fall below 5% cover, and corals will cease providing any 
significant contribution to reef framework construction.
    It is not an overstatement to suggest that this reef is entering a 
state of ecological collapse. Similar ecological degradation has 
occurred on many reefs throughout the Florida Keys, including Molasses 
Reef, Looe Key, and Sand Key. Carysfort, however, is the only reef 
where this longterm change has been documented with quantitative line 
transect studies. In fact, the change is so extensive that it can be 
detected in Landsat Thematic Mapper satellite imagery.
    Interestingly, observations I made in the Dry Tortugas last month 
suggest that the reefs there are showing slower decline than in the Key 
West area. So it appears that corals in the Dry Tortugas are not 
stressed to the same degree as in the "mainland" Florida Keys. Coral 
Cover on Bird Key has decreased an estimated 20-25% as opposed to the 
5-10% for Cawsfort Reef. These reefs are buffered from Key West by 65 
miles of ocean which may help to explain why these reefs are somewhat 
healthier than the Keys reefs. Although the reefs in the Dry Tortugas 
are in marginally better condition, nevertheless, they are experiencing 
considerable decline and there is cause for serious concern.

                        NESTED LEVELS OF STRESS

    Based on my systematic examination of the decline of coral reefs in 
the Florida Keys, I have drawn several conclusions regarding root 
causes of the collapse of reef ecosystems. Some of the increased 
stresses that corals are now exposed to are simply amplifications of 
naturally occurring stress, and others are new within the lives of 
presently living corals. Many of these stresses are nested within each 
other and probably amplify the intensity on any single factor. Reefs in 
all the tropical seas are threatened by degraded ecological conditions 
that originate locally, regionally, and from the shores of distant 
continents (Bryant et. al., 1998; Hatziolos et. al 1998). Remote 
oceanic reefs are effected by global change such as elevated ocean 
temperatures and increased ultraviolet light. Reefs in coastal waters 
are effected by these factors and additional stressors such as 
increased sediments, carbon, nutrients and harvesting. Coastal reefs 
near population centers have the increased pressures from sewage, 
watershed effluent, garbage dumping, and greatly increased levels of 
harvesting.
    A significant portion of reef degradation may be related to 
watershed lands that have been altered from their natural state. 
Generally, natural terrestrial ecosystems tend to be conservative and 
export little in the way of nutrients, carbon, and sediments. 
Agriculture, urbanization, and deforestation reduce the capacity of 
terrestrial ecosystems to trap and retain these materials, and the 
rivers become overloaded with sediments, nutrients, and toxic 
chemicals. Simple runoff becomes an effluent that can have a 
significant negative influence on water quality. The addition of 
fertilizers, organic carbon, and urban and commercial dumping further 
enrich the watersheds effluent as it flows into the sea. Although 
concentrations may be diluted, these agents may still affect reef 
health. Coral reef ecosystems have evolved to be very efficient in 
trapping and retaining nutrients even in concentrations that, though 
technically beyond the level of detection, are still ecologically 
significant. This creates a situation in which materials from a diffuse 
array of sources contribute to pervasive levels of chronic stress to 
reefs.
    In the Florida Keys, the question is frequently asked, which is the 
single factor mainly responsible, sediments or nutrients? It may well 
be that the factor is actually the accumulation of a series of nested 
stresses which axe as local as fishing and tourism; as regional as 
cities, agriculture, and industry; and as global as deforestation of 
the rainforests, the hole in the ozone, and the greenhouse effect. Each 
factor compounds upon the others, and the vitality of the reef 
declines.
    Locating the sources of increased nutrient and sediment levels and 
other stressors, has proved as elusive as defining the nested levels of 
stress. Point sources are usually known and can be controlled through 
permitting processes. Non-point sources are much more difficult to 
define. The Florida Keys are downstream from almost every source of 
sediment or nutrient in the Caribbean basin and Gulf of Mexico. Just 
upstream of the Keys, the effluent of cities, towns, and farms slowly 
bleeds into the sea through canals, rivers, and coastal bays. The area 
extends into the watershed of the Mississippi River and continues 
throughout the Caribbean Sea. For example, sediments from as distant as 
the Orinoco or Amazon Rivers have been identified on Carysfort Reef 
(Dustan, unpublished).
    Point sources, such as sewage outfalls or agricultural irrigation 
canals, are steady, well defined, and easily traceable. Leaching from 
shallow septic tanks, urban lawns, and run-off from agricultural and 
deforested lands are considered non-point sources of pollution. They 
are widely dispersed and less consistent. Both types contribute to the 
hydraulic flow that pushes sediments, nutrients, and contaminants into 
the sea. In Florida, some of these materials wash into the sea along 
the west and east coasts of the peninsula, some flow through the 
Everglades, and others emanate from the Mississippi and lands that are 
farther upstream. On a larger geographical scale, the over-addition of 
nutrients, organic carbon, and sediments from land use practices are 
responsible for coastal hypoxia near river mouths and deltas. Many of 
these areas are defined as dead zones because the water is depleted of 
oxygen to the extent that it will not support aerobic metabolism 
(Cooper, S. and G. Brush, 1991; Malakof, 1998; Costanza et al, 1998). 
On still a larger scale, coastal ocean current patterns circulate 
coastal pollutants and their effects throughout the seas.
    Corals with weakened immune systems are more susceptible to disease 
than healthy corals. In the Florida Keys, disease is a significant 
source of colony mortality, and appears to be on the increase. 
Additionally, coral recruitment and regeneration rates are low and 
appear to be decreasing. Increased sedimentation will smother corals, 
increased nutrients in the absence of elevated herbivory will result in 
algal overgrowth, elevated temperatures will promote bleaching, and 
diseases do seem to be more prevalent in areas close to centers of 
human habitation. Unfortunately for the coral reefs of the Florida 
Keys, these stresses seem to have converged to produce a suite of 
multiple stressors which are pushing the reefs into a state of 
ecological collapse from which recovery may not be possible within a 
human lifetime. It is not an exaggeration to suggest that the world's 
coral ecosystems, through neglect, are suffering severe ecological 
degradation. Some suggest that, like tropical rain forests, these 
biomes will continue their downward spiral. Events such as the mass 
bleaching with subsequent mass mortality in the Maidives in May 1998, 
raise the question of the influences of global scale anthropogenic 
stress such as global warming affecting the health of reefs. 
Ultimately, coral reef ecosystem health may be a sensitive indicator of 
overall oceanic health and changing climate, and can help to focus our 
attentions on preserving the ecological integrity of our global 
ecosystems.

                     CORAL REEF CONSERVATION GRANTS

    The Cousteau Society strongly supports provisions in S. 725 and S. 
1253 establishing an innovative financing mechanism for coral reef 
conservation. The availability of these funds will help to foster 
innovative projects that reward entrepreneurial and creative approaches 
to coral reef conservation. Using federal grants to leverage coral 
conservation projects developed at the local level also provides an 
important means for involving communities and concerned citizens in 
this effort. To assure success, however, adequate financial resources 
must be authorized and appropriated.
    One positive aspect of this bill is its apparent goal of putting 
money into the hands of ``little'' people. Much of the research I have 
described was accomplished with small grants or personal funds. 
Independent investigator science, not big programs, has been 
responsible for most of the creative and insightful science done on 
coral reefs. Much of the current reef conservation is accomplished by 
similar people, not large programs. Even today, our Coral Reef 
Monitoring Project (``CRMP''), the largest, most precise monitoring 
project of its kind is done by people with a passion for their work. As 
large as our project is, it is still underfunded. Our institutions have 
cut then' indirect rates, and people work for reduced wages because 
they love coral reefs. From my reading of the bill, it focuses on 
putting funds into the hands of ``reef'' people, not programs. Larger 
programs may add value to coral reef conservation efforts, if they are 
well-designed and implemented, however, they often become unwieldy or 
lose focus on the goal of enhancing direct protection or conservation 
actions. This bill will provide support where it is needed right now.
    For example, the following initiatives could be pursued by 
innovative public/private grants:

        <bullet> Develop and test small-scale innovative alternative 
        sewage systems
        <bullet> Encourage a reef gardening approach to care for local 
        reefs
        <bullet> Support Local conservative issues.
        <bullet> Fund scientific process studies into coral health and 
        vitality
        <bullet> Fund local case studies.
        <bullet> Encourage education activities
        <bullet> Fund graduate student projects related to coral reef 
        conservation
        <bullet> Develop innovative boater awareness programs - Support 
        the installation and maintenance of mooring buoys
        <bullet> Develop the mariculture of coral reef organisms for 
        the aquarium trade

    In addition, modest funding also could stimulate educational and 
public outreach activities, including:

        <bullet> Support the development of strong and continuing 
        broad-based educational programs at all levels to increase 
        awareness of the impact of human activities on coral reef 
        ecosystems.
        <bullet> Increase global awareness that ultimately, coral reefs 
        may be a vital indicator of overall oceanic health and changing 
        climate.

    I have noted that stress to coral reefs resides within a series of 
nested scales. As the scale increases, the magnitude of the problem 
increases and it becomes more difficult to ameliorate environmental 
pressures. The legislation before you today, S. 725 and S. 1253, 
represents an important step in the fight direction. Assuring the 
future of the nation's coral reefs will depend on our willingness to 
invest in protecting and maintaining their health. Proposals to address 
water quality such as H.R. 673, the Florida Keys Water Quality 
Improvement Act (sponsored by Congressman Deutsch (D-FL)), also should 
be considered. The Committee also should consider recommendations under 
consideration by the Coral Reef Task Force. Clearly, the need for 
additional funding over the long term to protect these resources must 
not cause us to shirk from our obligations. More comprehensive 
legislation will be needed in the future if we are to assure the 
survival of the nation's coral reefs for the benefit of present and 
future generations.

                               CONCLUSION

    In closing I would like to say that I have painted a grim picture 
for the future of the reefs of the Florida Keys. It is based on my own 
scientific data collected since 1974. I met Captain Cousteau the same 
year I began my work in Florida. He shared his personal observations on 
the degradation of coral reefs in the Red Sea, and we talked of the 
changes that humans caused to reefs. Neither of us ever imagined that 
ecological events would progress this far so fast. However, Captain 
Cousteau felt that people want to protect things that they love and 
cherish.
    The reef is a structure of ancient ecological design. Its physical 
morphology, its orientation to the forces of the sea, and its community 
structure have been tested and molded by time and natural selection. 
Reefs have weathered global climate shifts, plate tectonics, and 
dramatic sea level change. The reef community has evolved into a fully 
integrated marine civilization superbly adapted to a nutrient 
impoverished ocean. Its design for ultimate conservation of nutrients 
through symbioses and detailed trophic interactions has made it 
vulnerable to small external perturbations. This delicate complexity 
makes coral reefs vulnerable to changing environmental conditions, 
particularly temperature, sedimentation, increased nutrient 
concentrations, and overharvesting. Ironically, the many values of 
coral reefs--as a fisheries resource, for coastal protection and 
building materials, and as tourist attractions--now are contributing to 
their steady and rapid decline and disruption of their biological 
integrity. We need to factor these realities into an approach for long-
term reef conservation.
    As stewards of these valuable marine resources, the United States 
has a responsibility to continue to take steps to conserve coral reefs 
within its jurisdiction. Congress has enacted important legislation to 
meet this challenge, and supported the establishment of marine 
sanctuaries to safeguard specific coral reef ecosystems. More than 
ever, coral reef conservation efforts are essential to raise public 
awareness about the importance of humanity' s impact on the marine 
environment, before current trends becomes irreversible. Clearly, 
"business as usual" is no longer acceptable if we are to conserve these 
critical resources for the benefits of present and future generations. 
We stand on the threshold, but it is not too late to reverse the tide 
of destruction.
    Madame Chair, members of the Committee, the legislation before you 
today is the first step in this direction. The Cousteau Society stands 
ready to continue to work with you and the Committee toward the goal of 
enhanced conservation of coral reef ecosystems. As a start, I have 
attached a series of recommendations compiled by the Cousteau Society 
intended to highlight opportunities for enhanced conservation for coral 
reefs, and in particular, recommendations for specific scientific 
research.
Thank you.
                                 ______
                                 
       The Conservation of Coral Reefs An Opportunity for Action

                             JUNE 30, 1999

``Evolution produces a very few new species every million years. If we 
        are to assume that nature can cope with our feverish 
        developments, it is probable that mankind would be submitted to 
        the fate of the dinosaurs. We have a moral obligation toward 
        our descendants, a patrimony that we must protect if we 
        ourselves are to survive.''

                         JACQUES-YVES COUSTEAU

          Recommendations for Congress and the Administration
        <bullet> Enact comprehensive coral reef legislation to address 
        the root causes of coral reef decline.
        <bullet> Strengthen existing federal programs directed at coral 
        reef conservation and continue strong support for the 
        implementation of the Presidential Executive Order on coral 
        reef protection. Provide additional conservation incentives for 
        States, territories, or countries with coral reefs or 
        watersheds that affect coral reefs, to conserve these important 
        resources.
         Establish an ongoing interagency working group, including 
        scientific and policy experts, to identify human activities 
        which adversely impact U.S. coral reefs, and to develop 
        recommendations to eliminate or minimize such harm. Recognizing 
        that ``rivers are the roots of the ocean,'' the group should 
        address land, water and atmospheric sources of pollution by 
        developing comprehensive watershed management programs and 
        other management tools, including integrated coastal area 
        management.
        <bullet> Actively engage the scientific community by increasing 
        federal support for coral reef research. Establish an 
        independent scientific panel to advise federal agencies on 
        coral reef conservation and related efforts, including the 
        National Marine Sanctuary Program, responsibilities in U.S. 
        territories and international initiatives.
        <bullet> Establish water quality goals and standards (including 
        sediment and nutrient loading, and biological oxygen demand) 
        compatible with the maintenance of healthy reef systems. Focus 
        attention on preserving the ecological integrity of the reef 
        system and its watershed, not simply the physical reef 
        structure. Reduce inputs of excessive nutrients, untreated or 
        partially-treated sewage, sedimentation and other 
        pollutantsintegrity of reefs as they can contribute increased 
        nutrient and sediment loading from distant sources.
        <bullet> Increase efforts for coral reef restoration with 
        emphasis on whole ecosystem restoration that includes attention 
        to ecologically-connected watershed and airshed components. 
        Address issues at the appropriate geographic scale, including 
        local, regional, and global levels. Focus on the design and 
        implementation of best practices and support appropriate 
        demonstration projects.
        <bullet> Establish national and international programs to 
        utilize remote sensing capabilities to map and monitor the 
        global distribution and health of coral reef communities and 
        identify potential hazards to their future. Develop a program 
        within NASA's Earth Science Enterprise to map and monitor the 
        global distribution and health of coral reef communities and 
        identify potential hazards to their future (and make this 
        information widely available through the Internet). Remote 
        sensing data should be combined with standardized field 
        sampling and Geographical Information Systems analyses. NASA 
        should consider using Space Station Freedom to monitor reefs in 
        equatorial areas.
        <bullet> Promote the establishment and expansion of marine 
        protected areas and strengthen support for applied scientific 
        study and monitoring, especially in core nursery and 
        recruitment zones. Establish the Dry Tortugas as an ecological 
        reserve, and expand the Flower Garden Banks, Gray's Reef and 
        American Samoa Sanctuaries to assure their future viability. 
        Consider immediate sanctuary designation or protected area 
        status for the northern Hawaiian Islands and the U.S. Pacific 
        Islands: Johnston, Palmyra Atolls, Kingman Reef and Howard and 
        Baker Atolls.
        <bullet> Increase aid for coral reef conservation to American 
        tropical trust territories in the Pacific and Caribbean 
        regions, principally Guam, American Samoa, and Puerto Rico. 
        Assure adequate Coast Guard funding to help patrol remote reefs 
        and deter illegal fishing activities, remove derelict 
        shipwrecks, and enforce conservation regulations.
        <bullet> Ensure that that the knowledge and means for coral 
        reef management is transferred to tropical developing nations 
        where most of the world's coral reefs are located. Expand 
        efforts by the Agency for International Development and the 
        Peace Corps to address coral reef conservation concerns in 
        developing countries, focusing on integrated coastal area 
        management, fisheries conservation, and education and community 
        involvement. Respect and incorporate local knowledge into such 
        management schemes.
        <bullet> Assure that economic demands and trade do not result 
        in further harm to reefs. Support the establishment of 
        certification programs to eliminate the use of cyanide in fish 
        capture, and restrict the trade in coral or coral products that 
        threaten reef communities. Consider the use of sanctions for 
        nations that engage in illegal fishing practices such as the 
        live fish trade, cyanide fishing, or the use of dynamite. 
        Consider adopting debt for nature swaps as a tool for reef 
        conservation.
        <bullet> Strengthen U.S. involvement and financial support for 
        the International Coral Reef Initiative, and support full 
        implementation of the Biodiversity Convention and the Jakarta 
        Mandate on Marine and Coastal Biodiversity, along with other 
        international agreements on marine protection and conservation.
        <bullet> Recognize the critical role of education by supporting 
        the development of strong and continuing broad-based 
        educational programs at all levels to increase awareness of the 
        impact of human activities on coral reef ecosystems. Work with 
        key parties to increase global awareness that ultimately, coral 
        reefs may be a vital indicator of overall oceanic health and 
        changing climate.

                      RECOMMENDATIONS FOR RESEARCH

        <bullet> Test the hypothesis that coral reefs are harbingers of 
        change in response to an anthropogenic alteration of the 
        physical and chemical environment of the sea.
        <bullet> Create a GAP analysis process to identify geographic 
        areas where baseline data on the distribution and health of 
        coral reef ecosystems is not available.
        <bullet> Develop remote sensing protocols to detect on-going 
        ecological perturbations that impact coral reefs and to 
        estimate the rates of relevant ecological processes such as 
        primary production, calcification, and the impact that reefs 
        have on surrounding seas.
        <bullet> Support the establishment of a scientifically rigorous 
        global coral reef monitoring network at selected locations in 
        all the tropical reef regions of the world that is designed to 
        detect change at the community level.
        <bullet> Develop research initiatives that focus on defining 
        the linkages between habitat degradation in temperate and 
        topical nations with coral reef health and vitality.
        <bullet> Strengthen support for applied scientific study and 
        monitoring, especially in core nursery and recruitment zones.
        <bullet> Support the establishment of a Center for the Study of 
        Diseases of Marine Organisms which is closely linked to the 
        Center for Disease Control.

                            LITERATURE CITED

Bryant, D, et al., 1998. Reefs at Risk. Washington, DC, World Resources 
    Institute. Cooper, S. and G. Brush, 1991. Long-term history of 
    Chesapeake Bay anoxia. Science 254:992-996.
Costanza, R., et al, 1998. Principles for Sustainable Governance of the 
    oceans. Science 281: 198-199.
Dustan, P. 1993. Developing Methods for Assessing Coral Reef Vitality: 
    A tale of Two Scales: Global Aspects of Coral Reefs, 10-11 June. 
    University of Miami. pp. M8-M14.
Dustan, P., 1987. Preliminary observations on the vitality of reef 
    corals in San Salvador, Bahamas. In Proceedings of the Third 
    Symposium on theology of The Bahamas: Fort Lauderdale, Florida, 
    CCFL Bahamian Field Station, p 57-65.
Dustan, P. 1975. On growth and form in the reef-building coral 
    Montastrea annularis (Ellis and Solander). Marine Biology
Dustan, P. and J. Halas, 1987. Changes in the reef-coral population of 
    Carysfort Reef, Key Largo, Florida, 1975-1982. Coral Reefs, 6:91-
    106.
Hatziolos, M., A.J. Hooten, M. Fodor.(eds), 1998. Coral Reefs: 
    Challenges and opportunities for sustainable management. 
    Washington, DC, The World Bank.
Malakoff, D. 1998. Death by suffocation in the Gulf of Mexico. Science 
    281:190-192.
Porter, J.W. and O.W. Meier. 1992. Quantification of loss and change in 
    Floridian reef coral populations. Amer. Zool. 32:625-640.f
Richardson, Laurie, W. Goldberg, R. Carlton, and J.C. Halas. 1998, 
    Coral disease outbreak in the Florida Keys: Plague Type II. Rev. 
    Trop. Biol., 46 Supl. 5:187-198

    Senator Snowe. I appreciate that, Dr. Dustan. It has been 
very helpful as well.
    You were showing a reef that was destroyed by a boat years 
ago and it is still in the same condition. Can that be rebuilt?
    Dr. Dustan. You could rebuild it if the appropriate quality 
of the environment were there. There have been some wonderful 
reconstructions, mostly by Harold Hudson down in the Florida 
Keys. In some places he has taken these corals and cemented 
them back in place, and they die now.
    It used to be, for example--in the first year after the Dry 
Rocks wreck, the corals regrew dramatically. But then about 5 
years later they started to die, in the eighties. That 
particular coral, Acoopora palmata, which I think is so 
amazing, was the signature coral of the Florida Keys. That is 
the coral you think of, elkhorn coral. Last year we had a very 
serious discussion on the coral list-server about whether or 
not it should be put on the Endangered Species List.
    Senator Snowe. Thank you. I appreciate it.
    Dr. Hunter, your equipment is ready.

         STATEMENT OF CYNTHIA HUNTER, PH.D., CURATOR, 
             WAIKIKI AQUARIUM, UNIVERSITY OF HAWAII

    Dr. Hunter. Yes, it is.
    Senator Snowe. OK.
    Dr. Hunter. Thank you, Madam Chairwoman, and thanks to your 
great staff for their prompt assistance with a dead battery.
    Senator Snowe. Are they technologically proficient?
    Dr. Hunter. They are awesome.
    I am Cynthia Hunter. I am the Curator at Waikiki Aquarium, 
University of Hawaii. I have been working around reefs in the 
Caribbean and more recently in the Pacific for the last 20 
years.
    In the most expedient use of your time and the committee's 
time and in hopes that a picture really does convey a thousand 
words, and because the reefs of the Pacific are such a long way 
from Capitol Hill, we have prepared about a three and a half 
minute video clip.
    I wanted to explain, and maybe you will relay this message 
to Senator Breaux, more about what corals are, so we can better 
understand their vulnerability. I believe this is very 
important both for the public and for the committee, and that 
way we will better understand the need for immediate actions.
    Briefly, reefs are not rock structures, but they are 
composed of thousands of organisms living interdependently in a 
very complex and productive ecosystem. It is all based on the 
living corals themselves. They produce the structure and the 
food base for what we call coral reef ecosystems.
    Corals are living animals, but they do not look like us or 
cows or fish, certainly. But they carry on the basic processes 
of life. That is, they have need for nutrition, they grow in 
size, and they reproduce.
    The key to corals as reef builders is that, as Dr. Dustan 
referred to, they produce a hard mineral skeleton. This again 
is the reef framework. Some people think perhaps that coral 
reefs are rocks based on the fact that they have these mineral 
skeletons. But it is this thin layer of living coral tissue 
that can produce a coral colony. A single individual colony may 
easily grow to the size of this room.
    How do they do that? Again, Phil made reference, corals 
have a secret. It sounds wild, but it's true. They have single-
celled algae: plants that live inside their cells. These plants 
use the energy from the sun through the process of 
photosynthesis and they provide carbohydrates or food energy to 
the corals, and that allows them the energy to produce this 
enormous reef framework.
    Corals grow upward and outward, some very quickly, up to a 
quarter meter a year, but more often on the order of one to two 
centimeters each year.
    Fish, and other creatures of course, urchins, lobsters, 
etcetera, depend on the corals and associated organisms and 
seaweeds for food and shelter.
    So this sets the stage for our understanding of the threats 
to reefs. Runoff and sediment, of course, decrease light. 
Increased fertilizers cause an overgrowth of algae over the 
slower growing corals. Increased stress, such as from elevated 
sea water temperatures, will result in coral bleaching, and I 
want to explain a little bit more what this bleaching is.
    But I will start with the video, please, now.
    Thank you again for your patience as we get to this tape.
    [Videotape.]
    I am talking about Pacific reefs specifically today and 
they are a very different picture than what we have been seeing 
in the Atlantic and the Caribbean lately.
    Most of us see fish on a coral reef, but of course this is 
the major player. This is a closeup of the major players.
    Again, a typical reef of the Pacific. The major players are 
the ``rocks'' in the background--not rocks atall, but living 
corals. Thousands of organisms live inside the holes, nooks, 
and crannies of these corals.
    On closer inspection, to the untrained eye they may still 
look like rocks. These are two of the most common coral species 
in the Pacific Ocean. When we look closer, though, you will see 
that they are a wall of mouths. They are basically tiny mouths 
surrounded by rings of tentacles. Through time lapse 
photography, you can see the anemone-like structures actually 
move, but not far. They are attached to the bottom. That is why 
corals cannot escape runoff and sedimentation.
    This is how the anemone-like coral actually produces the 
skeleton underneath it. It sits on a platform of the coral 
skeleton.
    Corals do feed. This is a tidbit offered to a mushroom 
coral that can actually open its mouth and ingest the organism. 
But again,--reef-building corals are more dependent on these 
single-celled algae that live inside their cells, a million per 
square centimeter or more of these little algae. They are solar 
cells, power packs that contribute to the majority of the 
coral's energy needs.
    When corals are stressed, these algae are removed from the 
association and the animal appears white.
    I promised you sex: reproduction. These are corals, captive 
corals at Waikiki Aquarium that have been there for about 12 
years. This video was taken 2 weeks ago at new moon. At 9 
o'clock at night, guaranteed, every June, at new moon, they 
will release eggs and sperm into the water. The eggs and sperm 
are fertilized there and form a coral larva or embryo like 
this, that may swim for days, weeks or months, before settling 
on the reef to grow into a new colony.
    This next part you will need to watch quickly. This is 
coral growth upward and outward. I will show you one more time, 
upward and outward. That is two months worth of coral growth, 
in a very quickly growing species.
    This coral is very large, probably more than 200 or 300 
years old. We expect that it was already a large coral colony 
when Captain Cook sailed into Kealakekua Bay on the Island of 
Hawaii, when this country was still in its infancy.
    Of course, reefs provide enormous economic benefit in the 
Pacific islands from fisheries, tourism, shoreline protection, 
and the basic biological diversity that we have heard so much 
about already this afternoon. Reefs are beset by a number of 
challenges. I hope this explanation has helped explain why they 
are sensitive on a number of fronts.
    To preserve and restore reefs in the U.S. Pacific islands, 
we need to develop and enforce fisheries policy and coastal 
land use policy. We need to establish marine protected areas. 
We need to assess, map, and monitor current reef status, but 
not only current reef status. We need to assess and monitor the 
responsive of coral reefs to management actions that we take. 
We need education, about the importance and fragility of reefs, 
and also for the training of managers and scientists who will 
be charged with the preservation of these ecosystems into the 
next millennium.
    Thank you very much.
    [The prepared statement of Dr. Hunter follows:]

         Prepared Statement of Cynthia Hunter, Ph.D., Curator, 
                 Waikiki Aquarium, University of Hawaii

    Madam Chair and members of the subcommittee, thank you for the 
opportunity to testify in support of coral reef conservation.
    For the past decade, assemblies of scientists, community members, 
and resource managers have become increasingly concerned about the 
health and sustainability of coral reef ecosystems. A substantial body 
of evidence now shows us that many coral reefs are in decline or 
threatened on both local and global scales. Immediate and decisive 
action is necessary to protect reefs and reef resources from further 
degradation.
    Coral reefs are alive--hey are composed of millions of entities 
living in complex and interdependent associations. Microscopic algae 
living inside coral cells provide the food and energy that enable their 
hosts to secrete their skeletons--ediment or turbid water blocks the 
light they need to survive and grow. Introduced seaweeds grow over 
native coral, resulting in the ultimate loss of reef structure. Some 
species of butterflyfish or blennies eat only a few types of corals--
ecline of these corals results in decreasing numbers of butterflyfish, 
followed by declines in predators of butterflyfish and blennies, and so 
on up the food chain. These tightly-linked associations are what make 
reef ecosystems particularly vulnerable to over-harvest, destructive 
fishing and land-use practices, and pollution.
    Like redwoods, corals may live for hundreds or even thousands of 
years. A semi-truck sized coral head in Kealakekua Bay today existed 
(although at a much smaller size) at the time when Captain Cook first 
sailed to Hawaii in 1778 (and when our nation was in its infancy). 
Growing on the order of a centimeter a year, corals such as this 
provide habitat and a food base for thousands of other reef species.
    Coral reef ecosystems are of nearly incalculable importance to 
Pacific island economies. They provide natural shoreline protection, an 
attractive tourism base, biological diversity, and essential fisheries 
habitat. Nearly a million people inhabited the Hawaiian Islands prior 
to western contact, living sustainably on food and resources obtained 
from the land and the sea. However, this was before the advent of 
combustion engines, chemical fertilizers and pesticides, dredging, 
asphalt, and jets bringing an additional 3 million visitors each year. 
We must find new ways and management principles to allow the 
sustainable use and enjoyment of remaining reef resources.
    Funds are urgently needed to establish, maintain and monitor marine 
protected areas; to conduct research to develop risk management 
protocols and methods for reef restoration; to implement current 
management guidelines and enforce regulations; to implement community-
based management strategies; and for the education of our children and 
the broader public on what they can do to protect coral reefs.
    The Coral Reef Protection Act of 1999 is a significant and timely 
move toward the preservation of these unique and productive ecosystems. 
Full funding of this important legislation will provide a powerful and 
necessary mechanism to build effective management capabilities.

Thank you.

    Senator Snowe. Thank you, Dr. Hunter.
    Mr. Collins.

   STATEMENT OF MICHAEL COLLINS, FISHING GUIDE, ISLAMORADA, 
                            FLORIDA

    Mr. Collins. Madam Chair, thank you for the opportunity to 
come here today. For the record today, my name is Michael 
Collins. I am a resident of the Florida Keys and have been a 
fishing guide in the Keys and the Everglades for the last 24 
years.
    I was one of the original members of the Florida Keys 
National Marine Sanctuary Citizens Advisory Council. I remained 
a member until 2 weeks ago. I was chairman of the council at 
the time it produced its recommendations for the sanctuary 
management plan and was chairman at the time that plan was 
submitted to the Governor and cabinet for their approval and 
approval of the participation of the State as an equal partner.
    As you no doubt heard, there was a considerable amount of 
debate and controversy over the development of that plan. The 
controversy was, at least to me, something of a shock. The 
advisory council process we employed was the most open 
participatory process ever used for resource management on a 
broad scale. I remain a huge believer in that process. We have 
used it as a model in developing the restudy of the Central and 
Southern Florida Project, which is the foundation of the 
restoration of the Everglades, and in so doing achieved a 
consensus that few would have believed possible at the start.
    That plan will come to Congress tomorrow morning. I 
attended a press conference earlier today where sugar farmers, 
fishermen, national and State environmental organizations, and 
just plain citizens stood up to announce their support of that 
plan, something that we never would have believed possible, and 
I do not believe would have been possible if we had not used 
the model of the sanctuaries advisory council.
    Where the process broke down and what really was 
responsible for the uproar were the times when it was not open 
and objective and participatory. The original presentation of 
the closed areas proposed for the sanctuary was a disaster. 
NOAA allowed one of its scientists to walk in and propose a 
minimum of 20 percent of the sanctuary be set aside in a no-
take zone, with predicted benefits that not a single fisherman 
in the room believed.
    To deal with that credibility hit that event produced, a 
community outreach program was planned. Contrary to the advice 
of several of the council members, myself included, NOAA gave 
the job, not to a member of the community with broad-based 
business and social contacts, but to an NGO, the Nature 
Conservancy. To find out how well that worked, you can refer to 
the GAO report on the subject.
    When we finished our work on the draft, it disappeared 
behind the Beltway for a year and reappeared with a couple of 
new concepts in it that came within a whisker of killing the 
whole deal. The worst was a provision that gave the sanctuary 
superintendent the sort of regulatory authority that a national 
park superintendent enjoys. I will not comment on whether or 
not that authority is appropriate for a national park, but I 
can tell you for sure that very few in the Keys thought it 
appropriate for a marine sanctuary.
    In spite of all the above, and it is my belief--in spite of 
all the above and it is my belief in part because of all of the 
above, we now have a national marine sanctuary in the Keys that 
is not a source of controversy. In spite of all the above, we 
just had the proposal for the last and largest of the closed 
areas, Tortugas 2000, receive the unanimous support of the 
environmentalists, commercial and recreational fishermen, and 
just plain citizens who sat on the advisory panel.
    The reason for the above I believe is that after all the 
bureaucratic foulups, NOAA, the advisory council, and all of us 
had to let the process become open and objective and 
participatory in reality just to survive. When you go through 
the sort of microscopic examination that the sanctuary advisory 
council was put under for the several years that it took us to 
wrap up the management plan, you learn very quickly that the 
only defense you are ever going to have in dealing with the 
press and your fellow citizens is to be standing on the 
soundest and most obvious science that you can get your hands 
on. If you do not base your decisions on pure scientific fact, 
your neighbors and the press will come after you almost every 
time. It was a tough lesson to learn, but I believe we learned 
it.
    In addition to the above lesson, I believe that we learned 
that in selling sanctuaries we should not oversell them. The 
benefits of the sanctuary program are real, but they are not as 
dramatic as we originally were told. Education and volunteer 
programs will eventually provide far more benefit to the 
resource than regulations we simply do not have the money to 
enforce. But that benefit will take longer to realize.
    One benefit that as a stand-alone makes the sanctuary 
program worth having is the forum that it provides. In 
mandating the national marine sanctuary, Congress sent along 
instructions for a water quality protection program to the 
Keys. As part of that they told us to set up a water quality 
steering committee that is composed of the secretaries of the 
state agencies with water quality responsibilities, regional 
administrators from EPA, a wide variety of local citizens.
    I would suggest to you, after 10 years of uninterrupted 
service on advisory panels on resource management, that one 
panel may be the most important one I have ever served on. The 
water quality issues raised by the sanctuary became the 
foundation for the Everglades restoration. It was the questions 
that were raised regarding the impacts that Senator Breaux 
correctly inquired into of fresh water on marine systems that 
led us to ask the questions that brought us to the eventual 
restoration, we believe, of the Everglades, with Congress' kind 
permission of course.
    I would suggest that the establishment of that water 
quality protection program and the sanctuary advisory council 
alone would justify the establishment of a marine sanctuary.
    Regarding the reauthorization of this program, I would 
simply suggest that for the establishment and management of all 
marine sanctuaries you take whatever steps are necessary to 
make sure that an open, objective, and participatory process is 
employed in all decisionmaking.
    Thank you.
    Senator Snowe. Thank you, Mr. Collins.
    Finally, Dr. Connor.

   STATEMENT OF MICHAEL S. CONNOR, PH.D., VICE PRESIDENT FOR 
  PROGRAMS AND EXHIBITS, NEW ENGLAND AQUARIUM, CENTRAL WHARF, 
                     BOSTON, MASSACHUSETTS

    Dr. Connor. Thank you, Madam Chair. I thank you for this 
opportunity to testify about the reauthorization of the 
National Marine Sanctuaries Act, and I want to thank you also 
for your support on behalf of bluefin tuna research. We also do 
right whale research in your coastal town of Lubeck, have 
worked with Maine's fishing community on a series of lobster 
forums, and are working closely with a marine mammal stranding 
facility that you have supported strongly in the past, and we 
appreciate that work.
    I am here today representing the New England Aquarium, 
which greatly benefits by its proximity to the Studds 
Stellwagen Bank National Marine Sanctuary. Our mission at the 
aquarium is to present, promote, and protect the world of 
water, and each year we educate approximately 1.4 million 
visitors about our planet's lakes, rivers, and oceans.
    Next week we will open the Nation's first digital 
interactive immersive computer theater. We have chosen to debut 
this theater with a program about Stellwagen Bank. The 
experience introduces visitors to the environmental threats 
facing Stellwagen Bank, allows them to choose from a variety of 
management actions to protect the habitat, and then predicts 
the future health of Stellwagen based on the individual and 
group decisions made by these visitors.
    Stellwagen Bank, located 25 miles east of Boston, was 
designated a national marine sanctuary by Congress in 1992, 
primarily to protect it from a proposal to construct a floating 
gambling casino from sand and gravel mining, and oil and gas 
development. Sanctuary designation did protect Stellwagen Bank 
from those threats, which have since diminished in their 
importance.
    Since then the public has come to value Stellwagen as the 
most important coastal underwater habitat in New England, a 
special place in which visitors can experience the marine realm 
first-hand, just as they might visit a national park to 
experience an old growth forest or a geological wonder.
    Stellwagen Bank warrants its special designation as a 
marine sanctuary because of the unique characteristics of its 
geological history, topography, and coastal circulation that 
combine to allow the formation of dense and abundant 
aggregations of bait fish and plankton. These aggregations make 
Stellwagen Bank a favorite feeding ground for humpback whales, 
right whales, and commercially important fish.
    Stellwagen Bank has long been important to the 
Massachusetts economy for its fishery resources and lately is a 
favorite site for whale watching. Whale watching boats carry 
nearly one million passengers each year, generating more than 
$20 million in revenues.
    The comprehensive resource protection provided by the 
National Marine Sanctuaries Program is especially important to 
Stellwagen Bank, which is threatened by a variety of 
activities, including overfishing, habitat disruption, coastal 
pollution, atmospheric deposition, shipping, and ship strikes 
of whales. While each of these activities is regulated by other 
programs, only through the Stellwagen Bank Marine Sanctuary can 
the cumulative impacts of all these threats be addressed and 
managed.
    Senator Kerry earlier was asking Ms. Yozell about how 
specific problems caused by lack of funding. In Stellwagen Bank 
we see problems from bottom trawl damage, which occurs 
extensively over the bank. You can easily see the scour marks 
of where trawls have dragged the bottom. There has been fishery 
closure areas through the fisheries management council, but the 
impacts of those closures have not been well monitored because 
of lack of funding. As a result, we are not able to determine 
whether or not the closures are doing a good job at protecting 
the bank.
    This is just one example of how increased funding would 
help us do a better job at protecting the Stellwagen Bank 
Sanctuary.
    The sanctuary program has been seriously underfunded 
relative to its mission and importance to the Nation. Providing 
adequate resources for the sanctuary program is the most 
important issue that Congress should address in its 
reauthorization of the act.
    To put the budget in perspective, our aquarium, the New 
England Aquarium, this year spent about 50 percent more on our 
new exhibit on Stellwagen Bank than NOAA's budget for the 
entire year for bank protection, management, education, 
research, and enforcement for its 638 square miles. This is a 
serious mismatch in funding and importance, and the mismatch is 
not restricted to the Stellwagen Bank National Marine Sanctuary 
alone.
    Additional funding for the sanctuary program would allow 
NOAA to enhance conservation efforts by improving the mapping 
of critical habitats and other important resources within the 
sanctuaries, speeding the development of management plans, and 
monitoring the effectiveness of key management decisions. 
Perhaps most importantly, the additional funding would allow 
the expansion of environmental education programs that would 
help people understand these critical habitats and what they 
can do to minimize the impacts of human activities.
    Armed with this information, the public would become 
effective advocates for these precious natural resources and 
insist upon appropriate levels of support to ensure their 
protection.
    We are optimistic about future funding opportunities. We 
are encouraged by the administration's NOAA Lands Legacy 
Initiative, which would increase funding for the program, as 
well as Senator Kerry's proposed Coastal Stewardship Act. 
Existing funding resources could also be more effectively used 
by improving coordination between other parts of NOAA and the 
sanctuary program.
    The sanctuary program is still in its infancy and should be 
encouraged to experiment and evaluate new management tools. 
Sanctuary governance also warrants experimentation. The 
aquarium is pleased to serve as a member of the Stellwagen Bank 
Advisory Council. As Mr. Collins previously testified, advisory 
councils are one of the most important things the sanctuaries 
can do. Advisory councils can be effectively used to generate 
consensus for sanctuary management proposals since they 
represent many of the diverse user groups in the sanctuary 
region. Advisory councils can help develop consensus before the 
management plans are formally promulgated.
    Madam Chairman, in conclusion these marine sanctuaries are 
national treasures. I commend you on your efforts on behalf of 
the national marine sanctuaries program and I thank you for the 
opportunity to provide this testimony.
    [The prepared statement of Dr. Connor follows:]

  Prepared Statement of Michael S. Conner, Ph.D., Vice President for 
      Programs and Exhibits, New England Aquarium, Central Wharf, 
                         Boston, Massachusetts

    Madam Chairman, Members of the Subcommittee, thank you for this 
opportunity to testify concerning the reauthorization of the National 
Marine Sanctuaries Act. I would also like to take this opportunity to 
thank Senator Kerry for his tireless efforts on behalf of the National 
Marine Sanctuaries Program and particularly the designation of 
Stellwagen Bank as a marine sanctuary. I am here today representing the 
New England Aquarium, which greatly benefits by its proximity to the 
Studds Stellwagen Bank National Marine Sanctuary. Our mission at the 
Aquarium is to present, promote, and protect the world of water, and 
each year we educate approximately 1.4 million visitors about our 
planet's lakes, rivers, and oceans. Next week we will open the nation's 
first digital, interactive, immersive computer theater. We have chosen 
to debut this theater with a program about Stellwagen Bank. The 
experience introduces visitors to the environmental threats facing 
Stellwagen Bank, allows them to choose from a variety of management 
actions to protect the habitat, and then predicts the future health of 
Stellwagen based on the individual and group decisions made by these 
visitors.
    Stellwagen Bank, located 25 miles east of Boston was designated a 
national marine sanctuary by Congress in 1992 primarily to protect it 
from a proposal to construct a floating gambling casino and from sand-
and-gravel mining and oil and gas development. Sanctuary designation 
did protect Stellwagen Bank from those threats, which have since 
diminished in their importance. Since then, the public has come to 
value Stellwagen as the most important coastal underwater habitat in 
New England' a special place in which visitors can experience the 
marine realm first-hand, just as they might visit a national park to 
experience an old-growth forest or geological wonder.
    Stellwagen Bank warrants its special designation as a marine 
sanctuary because of the unique characteristics of its geological 
history, topography and coastal circulation, that combine to allow the 
formation of dense and abundant aggregations of baitfish and plankton. 
These aggregations make Stellwagen Bank a favorite feeding ground for 
humpback whales, right whales, and commercially-important fish. 
Stellwagen Bank has long been important to the Massachusetts economy 
for its fishery resources, and lately as the favorite site for whale 
watching. Whale watching boats carry nearly 1 million passengers each 
year generating more than $20 million in revenues.
    The comprehensive resource protection provided by the National 
Marine Sanctuaries Program is especially important to Stellwagen Bank, 
which is threatened by a variety of activities including over-fishing, 
habitat destruction, coastal pollution, atmospheric deposition, 
shipping, and ship strikes of whales. While each of these activities is 
regulated by other programs, only through the Stellwagen Bank Marine 
Sanctuary Program can the cumulative impacts of all these threats be 
addressed and managed.
    The National Marine Sanctuaries Program (NMSP) has been seriously 
underfunded relative to its mission and importance to the nation. 
Providing adequate resources for the NMSP is the most important issue 
that Congress should address in its reauthorization of the Act. To put 
the budget in perspective, the New England Aquarium has just spent 
about 50% more on its new immersive theater exhibit on Stellwagen Bank 
than NOAA's budget this year for the entire Stellwagen Bank sanctuary 
program. At current funding levels, Stellwagen has only three full-time 
staff members to provide the management, resource protection, 
enforcement, research, and education activities for its 638 square 
miles. There is a serious mismatch in funding and importance, and the 
mismatch is not restricted to the Stellwagen Bank National Marine 
Sanctuary.
    Additional funding for the NMSP would allow NOAA to enhance 
conservation efforts by improving the mapping of critical habitats and 
other important resources within the sanctuaries, speeding the 
development of management plans, and monitoring the effectiveness of 
key management decisions. Perhaps most importantly, the additional 
funding would allow the expansion of environmental education programs 
that help people understand these critical habitats and what they can 
do to minimize the impacts of human activities. Armed with this 
information, the public would become effective advocates for these 
precious natural resources and insist upon appropriate levels of 
support to ensure their protection.
    We are optimistic about future funding opportunities. We are 
encouraged by the Administration's NOAA Lands Legacy Initiative, which 
would increase funding for the program, as well as Senator Kerry's 
proposed Coastal Stewardship Act. Existing funding resources could also 
be more effectively used by improving coordination between other parts 
of NOAA and the NMSP. In particular, NOAA's Coastal Services Center in 
Charleston, South Carolina produces a number of products that would be 
valuable tools for all Sanctuary managers.
    The Sanctuary program is still in its infancy and should be 
encouraged to experiment and evaluate new management tools. Sanctuary 
governance also warrants experimentation. The Aquarium is pleased to 
serve as a member of the Stellwagen Bank Advisory Council. Because 
Stellwagen's Advisory Council represents many user groups with 
different concerns, we believe these councils can be effectively used 
to generate consensus for sanctuary management proposals before new 
management plans are formally promulgated.
    Madam Chairman, in conclusion, these marine sanctuaries are 
national treasures. I commend you on your efforts on behalf of the 
National Marine Sanctuaries Program and thank you for the opportunity 
to provide this testimony.

    Senator Snowe. Well, I thank all of you for sharing your 
perspectives and your experience in this area that, as Senator 
Breaux was mentioning, has strong bipartisan support. There is 
no question that we will address these issues this year. The 
question is going to be how and what, will be the most 
effective way in which to lend our support and resources toward 
these ends.
    Let me just ask about coral reefs, Dr. Dustan, Ms. Cooper, 
and Dr. Hunter. I have included a match requirement for the 
local conservation grants. In Senator Inouye's, bill he has a 
25 percent match requirement and I have a 50 percent. Would 
your organizations, or the people with whom you work, be able 
to provide that kind of match and would that help to create 
some ongoing continuity in public and local participation by 
doing this?
    Dr. Dustan.
    Dr. Dustan. I think the match is helpful. I think, for 
example, the administration of my college sometimes grunts at 
having to provide a match, but it helps provide release time 
for faculty and things like that.
    I think it gets the community involved. For instance, in 
the Florida Keys if you went to the diving industry and said, 
we would like to put out more mooring buoys and we have some 
money, but you guys have to put an in-kind match toward that, 
people then get invested in the resource, and I think that is 
important.
    Senator Snowe. Ms. Cooper.
    Ms. Cooper. Thank you. Yes, in my line of work we come by 
our funds in a difficult way. The 25 percent match is something 
that is manageable with the in-kind and the 50 percent is a 
little bit more difficult for us. But we recognize the ability 
to spread that out throughout many different projects and so we 
recognize the benefits of that also.
    Senator Snowe. Do you generate a lot of interest among 
other organizations, and nonprofits?
    Ms. Cooper. We do have partnerships with many universities 
and other NGO's. So yes, we have partners, but not real wealthy 
ones. It takes extra effort to go out and raise those matching 
funds, and we are willing to do that, but it takes more time 
and resources for us.
    Senator Snowe. Dr. Hunter.
    Dr. Hunter. From the university's perspective, again 25 
percent seems to be doable, reasonable, and gets us vested in 
the program definitely. 50 percent is going to be a big stretch 
for most university research programs that address basic 
research, assessment and monitoring.
    Senator Snowe. So you think it would be more difficult to 
reach the 50 percent threshold?
    Dr. Hunter. We would be stretching to do that, yes.
    Senator Snowe. Do you agree that the match is important, 
the general concept of a match requirement?
    Dr. Hunter. Absolutely.
    Senator Snowe. You all do. Dr. Dustan.
    Dr. Dustan. I think in some cases it is very important, but 
in other cases no. There are some issues that are very 
important to solve and questions need to be answered, and you 
just want to put the resources toward it and not worry about 
whether or not there is a match. Sometimes a match can be an 
obstacle.
    Senator Snowe. So you are not sure that it makes a 
difference, whether or not it would sustain a program, instead 
of just being a one-time grant? If you think about it, the 
government gives all of these grants, as they did in 1997. It 
would be interesting to catalogue all these grants to see what 
has happened, what the impact was, and was the project 
maintained beyond that original grant? We can obviously learn 
more when we receive information on how many of the 20 grants 
issued in 1997 are still under way.
    Obviously, we do not want the match to be a deterrent. It 
is not intended to raise the bar, rather to increase 
involvement at the local level. When you have a greater stake 
or if you contribute to a project, then you are going to 
enhance local participation.
    Dr. Dustan. I think you are absolutely correct, and I think 
in the Florida Keys you have a lot of people that have moved to 
the Keys to escape any sort of involvement and they just want 
to be on their own. There are a lot of individualists down 
there, and possibly a match could help bring them together.
    Senator Snowe. Ms. Cooper, you mentioned the fact that you 
thought it was important to take the legislation to the next 
step and to include verifying and implementing various 
techniques and conservation methods.
    Ms. Cooper. Correct.
    Senator Snowe. With regard to assessing, monitoring, and 
mapping.
    Ms. Cooper. Mapping and enforcement.
    Senator Snowe. Enforcement.
    Ms. Cooper. Yes, ma'am. We have been developing 
technologies for decades now. They have been proven in the 
laboratory for the most part, and what I am looking for are the 
linkages to the benefits for marine resource managers. I think 
that this bill provides an avenue to do that if it adds 
implementation and demonstration in the field of some of these 
technologies, so that these managers know what their choices, 
their options are, for restoration and conservation.
    Senator Snowe. I see. Right now the funds that have been 
used in the past, cannot be used for that purpose?
    Ms. Cooper. Our funding goes toward basic research, 
basically.
    Senator Snowe. So now you are saying it should be taken a 
step further to demonstrate this technology?
    Ms. Cooper. Exactly, to demonstrate it and then make it 
available to society, to the resource managers that need to 
implement it, to conserve and restore the coral reefs.
    Senator Snowe. Dr. Dustan and Dr. Hunter, do you agree with 
that?
    Dr. Dustan. In part I do. I think that we do need to 
develop ways to restore reefs. But again, I think the majority 
of scientists, of my colleagues, would say that it is futile 
until we can figure out how to restore the water quality, 
because reefs have evolved in pristine waters. The great 
paradox of the reef, as Dr. Hunter has said, the zozanthellae 
have figured out how to trap and retain nutrients. They are the 
ultimate recycling system on the planet. So you put them down 
in tropical waters that are devoid of nutrients, devoid of 
sediments. All they have is a lot, a tremendous amount, of 
solar energy and a little bit of plankton to eat, and they can 
couple all of that.
    Once we start to increase the nutrient loading and the 
sediment loading in that environment, we push the bounds of 
that system, so other creatures now are selected to live in 
that environment. No matter what you do to help the corals 
grow, unless you can back out the water quality--and there are 
ways to do that--I think it is futile to restore the reef.
    Senator Snowe. Dr. Hunter, do you have any comments on 
that?
    Dr. Hunter. I concur with Dr. Dustan.
    Senator Snowe. Mr. Collins, yes.
    Mr. Collins. I did not mention this earlier, but the reason 
I left the advisory council is Governor Bush appointed me to 
the governing board of the South Florida Water Management 
District. That board elected me chairman. The district 
currently spends something on the order of $400,000 a year in 
the Keys on storm water master plan development and water 
quality monitoring. We are getting ready to embark on a $400 
million a year effort with the Federal Government, hopefully 
with the permission of Congress.
    But I would tell you one thing, that should Congress decide 
that they are looking for a match in the Florida Keys I believe 
that the amount of money budgeted for the Florida Keys on 
behalf of the marine sanctuary--on behalf of the South Florida 
Water Management District, we would be willing to match a 
considerable amount of whatever you committed in match money.
    Senator Snowe. Let me ask you on the sanctuary program. 
From your perspective, both Dr. Connor and Mr. Collins, how do 
you think the agency should prioritize its responsibility with 
respect to implementing and updating the management plans? 
Right now, you have management plans, but they are not fully 
implemented, is that correct?
    Mr. Collins. That is correct.
    Senator Snowe. For example, in the Florida Keys, what is 
the shortfall at this point? What is necessary to implement the 
management plan?
    Mr. Collins. I am not entirely sure what the budget 
shortfall is in terms of dollars. I can tell you the areas 
where I believe it takes place are really in the critical 
areas--water quality, which is the one place where we can 
influence the coral reefs. Global warming falls a little bit 
outside of our individual influence.
    But when you talk about water quality and anthropogenic 
influence, that is someplace where we can make a difference. I 
think the shortfalls there have hurt us. I believe very 
strongly that however many regulations we may pass, education 
and volunteer programs are really going to be the answer to 
that. So those shortfalls.
    In Florida, remember, we have an individual sort of 
singular reauthorization problem. It has to be approved every 5 
years by the Governor and the cabinet also, who are asking 
pretty much the same questions: What have we left undone and 
what do we need to do to try to solve that problem?
    Senator Snowe. Dr. Connor, I was looking at total funding 
amounts under the national marine sanctuaries. If $29 million 
were authorized, the Florida Keys Sanctuary would increase from 
$2.5 million to $5.8 million. Stellwagen would increase from 
$460,000 to $1,058,000.
    Would that make a difference in planning? Would that cover 
it?
    Dr. Connor. It is a really interesting question, and I 
think there is a philosophical problem. This is the only 
program--well, Coastal Zone Management Act to some extent--that 
NOAA vows that is really place-based, like EPA's watershed 
management programs. Instead of managing industry by industry, 
you are going and managing for a place. This is the first time 
you have really managed an offshore area.
    I think maybe some of the problem is the attempt to develop 
a management plan that is so comprehensive that you get 
everything in it. There is a recent evaluation of the program 
by NAPA, the National Association of Public Administration and 
one of their recommendations, which as a former place-based 
manager I really agree with, is: Look, let us set a few 
priorities in each of these sanctuaries, let us develop 
consensus around one or two issues, and then really push on 
them, and see how we go.
    I think a step-by-step approach of priority setting is 
going to work. The other part that is really difficult in these 
sanctuaries is interacting between the sanctuary program and 
the other NOAA agencies, particularly NMFS. How do you work 
with the fisheries management council over closed areas on the 
fishing?
    Senator Snowe. Which you have at the Stellwagen, for 
example.
    Dr. Connor. Georges Bank, Stellwagen is the same way.
    That is why I liked what Mr. Collins said about the 
advisory board council process, to the extent that you can work 
some of these issues through advisory councils and experiment 
with some approaches, see how they work. I think what each of 
the sanctuaries needs to do, which is the same thing the 
estuary programs are going through, is develop two or three key 
goals for the next year and test them. Even more important than 
testing them, monitor them to figure out if they worked or not, 
because it is important to evaluate what management actions 
work.
    We have a lot of fishery closed areas, but we really cannot 
tell how big the spinoff is and are they doing what we have 
intended.
    Senator Snowe. Well, could you answer the question, 
though----
    Dr. Connor. With that money, yes, I think you could----
    Senator Snowe. No, I was going to ask you about something 
else. But you think that would be helpful, that part of it?
    Dr. Connor. I think that would be sufficient. Ms. Yozell 
made a very clear case that you need some kind of base funding 
to be able to pull these programs off, and if you just have a 
manager and an educator like they have in Stellwagen Bank it's 
hard to do too much of anything. So you need some base staff to 
work that.
    But then beyond that, I think I'd probably focus on making 
a few key management recommendations and going from there.
    Senator Snowe. What I was going to ask you is what I asked 
Ms. Yozell about implementation, whether or not it would make a 
difference in getting this kind of money for the 
implementation, as well as for the review process.
    Mr. Collins. In the keys?
    Senator Snowe. Yes.
    Mr. Collins. Yes. A large segment of what we tried to zone 
out in terms of avoiding user conflict and avoiding people 
impacts on natural resources has not been implemented because 
we do not have the money for the markers, we do not have the 
money for the buoys, we do not have the money for inshore 
areas, to mark off flats. We are just sort of starting to 
slowly creep into marking some of the more critical wildlife 
habitat areas that we have made no-motor zones.
    So yes, I believe that would make a significant difference.
    Senator Snowe. I had asked you about the pressures placed 
on outer areas of the sanctuaries, the no-take zones for 
example. You have a number of them in the Keys. Does it place 
greater pressure on the fisheries?
    Mr. Collins. That was one of the major concerns when we 
started. You know, you've got X number of people in the 
fishery. The commercial fishermen were convinced that it would. 
There is really not much of a sign yet that that is the case, 
and the reason for that is it is very hard when you have had a 
hurricane and a tropical storm go through the area and wipe out 
half of everybody's traps to get a feeling on that.
    But the objective people that I know in the commercial 
industry have basically said--we are under a trap reduction 
program from the State anyway. They have not seen it yet. They 
are still concerned about it, but there is no evidence yet that 
that is the case.
    Senator Snowe. Now, the public process which you mentioned, 
which is key, having been through the public process myself on 
fisheries: Has the Federal response improved at all?
    Mr. Collins. Massively.
    Senator Snowe. Massively, in response to what happened in 
development of the management plan?
    Mr. Collins. It is a Pavlovian training. I mean, the amount 
of pain involved in having done it the wrong way convinced a 
lot of people that this is not how you do this. Also, it was a 
shock. It is very hard for Federal and State agencies--I run 
one now. I know exactly how a lot of them think.
    But it is very hard for them to believe that average 
citizens, when you put them at a table in their aggregate, if 
you train them properly, are going to give you things that you 
would not figure out yourself. But they do. You know, the 
people that are out on the water every day have a perspective 
that is never going to be a scientist, but there is in it 
value.
    If you take the time to teach them, people like myself, 
what it is that you are trying to accomplish, how it is you 
plan to accomplish it, you are going to get some things back 
that you will not get from anyone else. I believe that process, 
that advisory council process, is what we used on Everglades 
restoration.
    I sat side by side with sugar farmers for 4 years drawing 
up that plan. We have been shooting at each other for 20. You 
learn things, I just believe very, very strongly. I believe 
that Federal and State agencies learn things from people that 
they would not get from their own employees.
    Senator Snowe. I agree. It is just because you have the 
experience. I went through that on the right whale issue, as 
I'm sure Dr. Connor remembers. We had a process where the 
Federal Government had handed down an edict on how to deal with 
right whales in the lobster industry. As you can imagine the 
original proposal would have been nothing short of catastrophic 
for the industry.
    But when we had the public process it was very interesting. 
The lobstermen had creative and helpful ideas on how to best 
address the problem. They want to work, and work with the 
Federal Government. Who spends more time at sea than the 
lobstermen and the fishing industry?
    It is now much more cooperative and productive working 
together, side by side, rather than this adversarial, 
contentious relationship. So I think that does happen when a 
mandate is handed down, those most affected have to live with 
it, rather than saying let us bring everybody in on the 
process, and let the solution percolate up into the system. 
Simply put, effective public participation makes much more 
sense. I think the Federal Government is finally learning that.
    One final question for all of you in terms of our 
legislation on the coral reef and on the sanctuaries program. 
Can you give me any suggestions on any one issue that we should 
do in the legislation? What is the major priority?
    Dr. Dustan. I think the major priority for the Florida Keys 
specifically is build a sewage system.
    Senator Snowe: Ms. Cooper.
    Ms. Cooper. I would say two things. One is a need for a set 
of criteria for resource managers to identify threats and to 
prioritize conservation actions to address those threats, 
because there is a whole variety out there. Water quality is 
the No. 1 threat in some areas, but ship groundings are the 
threat in others.
    So I would make that available to the resource managers. 
The scientific community has an awful lot of information that 
has been accumulating and there needs to be some mechanism to 
now bring that together and make that available to society. 
Also through education. I think people need to understand the 
value of the resource, and as that happens I believe your job 
will be easier and ours will be, too.
    Senator Snowe. Thank you.
    Mr. Collins.
    Mr. Collins. Again, I said it once before, but I believe a 
citizens advisory council may be the strongest message I would 
send. The other one is I think it would help if in every 
sanctuary, as we did in the Keys, you identify the single 
largest threat to that sanctuary and set up a separate steering 
group made of State and Federal agency people and knowledgeable 
citizens in the area.
    In the Keys it was water quality. Maybe it is ship 
grounding someplace else. But include the people at the State 
level that have responsibilities in that area with the people 
at the Federal level, and make them sit down and talk to each 
other on a regular basis. It produces surprising results.
    Senator Snowe. When we talk about improving water quality, 
what are we referring to specifically?
    Mr. Collins. Water quality in the Keys, again anthropogenic 
sources that we can deal with, quantifiable, I agree. We are 
working very hard on water quality issues locally and with the 
State agencies. There is a massive waste water problem in the 
Keys. There is a storm water problem that is significant in the 
Keys.
    We are working on master plans to try to get at both of 
them now. There is also an influence from the Everglades, 
Florida Bay and fresh water input. We produce fresh water 
inputs from the Central and Southern Project in quantities that 
fresh water by itself becomes a pollutant.
    So we need a broad-based approach. It takes everybody that 
has responsibilities in those areas sitting in one room on a 
regular basis to get at it.
    Senator Snowe. What percentage of water quality problems 
could we prevent, as opposed to dealing with an issue like 
global warming?
    Mr. Collins. We are researching that very extensively right 
now. There is a huge amount of--basically, all the money we can 
find getting poured into identifying that now. In inshore areas 
surrounding the keys, closed water systems, we can probably 
eliminate 90 percent of it. When you start talking about the 
reefs, though, there is a serious question about the source of 
that problem.
    It would be easy if we could blame it all on ourselves and 
solve it right away. But as you get further to the west and as 
you strong out along the Keys, you are dealing with an 
influence that comes from the Mississippi River south. I am not 
sure we are going to do much on that. But what we do have to do 
is identify where we are impacting it, where we can spend 
money, and that is what they are in the process of doing in 
that water quality protection program.
    Senator Snowe. Dr. Connor.
    Dr. Connor. On the marine sanctuaries reauthorization, I 
think the language is mostly codifying the program as we have 
understood how it is starting to work. So I think the issue is 
funding, funding, and funding.
    Senator Snowe. Dr. Hunter.
    Dr. Hunter. Back to the coral reef issues, although the 
statement is probably the same for both, education I think is 
the one direction that is missing from this legislation.
    I would like to say that in the coral reef community, coral 
reef ecologists and resource managers, we have arrived at an 
enormous consensus over the last 5 or 6 years. What you keep 
hearing time and time again should not be construed as 
platitudes, but we have worked toward these common concerns 
about the threats and responses to threats that exist in the 
Atlantic, Caribbean, and the Pacific islands.
    But as a part of that, I think we can go far through public 
education, through PSA's, such as you saw earlier about the 
Florida Keys.
    Senator Snowe. What information would you give on a public 
service announcement? What should the message be?
    Dr. Hunter. There are probably 20 messages that would be 
more effective than providing just one.
    Senator Snowe. Right. Isn't there a general message or 
concept that would be effective?
    Dr. Hunter. Right. Connecting the individual's action to 
what we see on the coast. For example, in Hawaii we have school 
kids, and public groups, who have a stencil that says: ``Think 
about this. This is going to the sea.'' They put this picture 
of a fish and the words ``Goes to the ocean'' on storm drains 
and along gutters. It just brings public awareness up that big 
of a step.
    Numerous messages like that, I think. Not just to the 
school kids. Goodness knows that they get a lot of this. It is 
their parents we want to bring back into the ballgame.
    Senator Snowe. Ship groundings, what percentage accounts 
for destruction of coral reefs through ship groundings or 
abandonment, whatever?
    Dr. Hunter. I think it goes back to what--well, it is 
different in the Pacific and the Atlantic again.
    Dr. Dustan. It is very different. Many of the reefs in the 
Florida Keys are actually named after wrecks of ships: Molasses 
Reef, Carysfort Reef. A lot of them are named after wrecks.
    What we are having now is continued small boats that are 
smashing these reefs, as well as even research vessels. The 
Columbus-Islan, the University of Miami, crashed onto Looe Key 
Reef and took out a couple of spurs. The Wellwood's radar went 
out one night and it crashed into an area on Molasses Reef and 
it looked like a McDonald's parking lot. It just graded the 
reef into thousands of square feet of flat rubble.
    Many of those are navigational errors and there are some 
technology issues now. There are some little radar beacons that 
will warn global positioning systems. It would be possible 
since most people now use GPS systems or navigational systems. 
To install little warning devices and use high technology for 
that.
    A lot of it is educating people. In some respects it boils 
down to putting a series of buoys around the reef and a chain.
    Senator Snowe. Why can we not mark these reefs? Do 
navigational maps show these reefs?
    Dr. Dustan. You are absolutely right. But when you are out 
there anchored and somebody pulls up in an outboard that they 
have rented from the local dive concession and they look at you 
and they ask, ``hey, man, where is the reef'', it is apparent 
they do not have a clue.
    What you will often see now in the Keys, is a series of 
buoys around all these reefs, If somebody starts to venture 
inside those buoys the people will actually start yelling and 
screaming at these boat operators. But for example, on Key 
Largo Dry Rocks there is a great big I-beam that marks the reef 
and it says ``Danger, Exposed Rocks,'' or something like that. 
I have seen people drive their boats right up to the piling to 
read it.
    Mr. Collins. It is true.
    Dr. Dustan. Now, I do not know how. Maybe you need a 
boating license exam or something like that. Maybe you need 
some better education.
    Senator Snowe. I gather Mr. Collins agrees with you.
    Dr. Dustan. Oh, yes.
    Mr. Collins. In the original scoping hearings, the comments 
from the Florida Keys fishing guides were limited to two or 
three, mainly about water quality, but one of them was: Make a 
boating license and an education program leading up to one 
mandatory. We still believe that.
    Senator Snowe. Are coral reefs marked in the Keys at all?
    Mr. Collins. Yes.
    Senator Snowe. They are?
    Mr. Collins. They are marked. And just as the good doctor 
said, people will drive right up to them to see what the marker 
says. People ignore the markers. If you look at an aerial view 
of the standard markers used by the Coast Guard, they are 
covered on both sides because people forget whether it is red 
on the right or red on the left, so they go as close to the 
marker as they can. So there are massive track marks around all 
of them.
    Senator Snowe. Well, what about this whole issue of 
criminal and civil penalties? Do you think that they would be a 
strong deterrent? We already have civil penalties today.
    Mr. Collins. The concept behind civil versus criminal 
penalties was that for a criminal penalty you needed a witness 
situation involving the police officer, that was a lot more 
participatory on the part of the police officer. If it is a 
civil fine, you can just find a track leading down there with a 
boat out at the end of it, which is usually what we find, and 
basically that fine will hold up.
    As has been pointed out, we are severely short of officers.
    Senator Snowe. Well, is it NMFS officers that do that, 
Coast Guard, or State agents?
    Mr. Collins. They act--in the Keys, it is marine patrol 
officers, who are also sanctuary officers. The Key Sanctuary is 
run in partnership with Florida.
    Senator Snowe. They are one of the only sanctuaries that 
has that partnership, correct?
    Mr. Collins. One of the only areas. But I would point out 
to you that I came to the Keys in 1974. There are currently 
fewer marine patrol officers in the Florida Keys than there 
were in 1974. We are working on that, but again if you do not 
have much enforcement it is hard to make a lot of the rest of 
the work, and that takes money.
    Senator Snowe. Dr. Hunter.
    Dr. Hunter. Well, human error is human error. The U.S. 
Marines ran into a patch reef in Kaneohe Bay on Monday, ran a 
landing craft hard aground on top of one of these reefs.
    Senator Snowe. That is not encouraging. I am chair of the 
Seapower Subcommittee.
    Dr. Hunter. It was a marked reef.
    But as to the shipwrecks on the reef in Pago Harbor in 
American Samoa, there is another attribute to that. Yes, they 
are unsightly and yes, they are a hazard to the reef. They were 
driven up in an enormous hurricane and then abandoned because 
they were not producing any money after that, of course.
    But I think for the local population to see those ships 7 
and 8 and 9 years later works in direct opposition to what we 
are trying to accomplish. Why would you do your part to try to 
protect your coral reef resources when our government cannot 
help us get those boats off the reef and out of that harbor?
    Senator Snowe. Good point.
    Well, I thank all of you for your excellent testimony and 
contributions here today, and we are going to take that into 
account as we develop the legislation on both coral reef 
conservation and reauthorization of the National Marine 
Sanctuaries Act. We are all hopefully going to work together on 
these goals. I think there is a strong commitment on this 
subcommittee.
    This concludes our hearing. Before we leave, I ask 
unanimous consent that the hearing record remain open for 10 
legislative days so that the Subcommittee may accept additional 
statements and questions from Senators, as well as any other 
information that the subcommittee may want to include in the 
hearing record. Without objection, it is so ordered.
    The hearing is adjourned, and again I thank all of you.
    [Whereupon, at 4:53 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

  Prepared Statement of the Hon. Bob Graham, U.S. Senator from Florida

    Senator Snowe, members of the Committee, thank you for the 
opportunity to comment on coral reefs and marine sanctuaries, 
environmental treasures that are very important to Florida. The 
witnesses at this hearing will present their perspectives on the 
importance of protecting our fragile coral reefs and marine resources. 
I would like to share with you the significance of these resources to 
the people of Florida, and especially the Florida Keys.
    The Florida Keys are a 158 mile long string of islands at the 
southern tip of the Florida peninsula, with 85,000 year round 
inhabitants. Two and a half million tourists visit the Florida Keys 
each year, to fish, swim, snorkel, dive, and otherwise enjoy the beauty 
of these tropical islands and the surrounding waters. According to a 
1996 study by the Monroe County Tourism Development Council, the 
National Oceanic and Atmospheric Administration, and The Nature 
Conservancy, almost one-third of visitors to the Keys go snorkeling or 
scuba diving, contributing $53 million a year into the local economy 
from reef and dive trips alone. An estimated 40% of the Keys' $1.15 
billion in annual tourism revenues are reef related.
    The popularity of the Keys is threatening the very characteristics 
that make them so desirable as a vacation destination. The reefs have 
been damaged by ship groundings, and the visibility of the formerly 
crystal clear waters is declining. I introduced legislation in 1990 to 
establish the Florida Keys National Marine Sanctuary and protect the 
marine habitat while continuing to allow commercial and sport fishing, 
diving, boating, and other activities that do not harm the environment 
when performed properly.
    The sanctuary program has brought together representatives of 
federal, state, and local governments as well as environmental groups 
and other local interests to develop a plan for protection of the 
marine resources. Because 65 percent of the Florida Keys National 
Marine Sanctuary is in state waters, the state of Florida works in 
partnership with the federal government on sanctuary issues. Local 
residents were concerned that they would not have a role in decision 
making in the marine sanctuary. In fact, Monroe County residents voted 
54.5% to 45.5% against the Florida Keys National Marine Sanctuary in 
1996. Since then, sanctuary supporters have worked with local leaders 
to address the concerns of all stakeholders in the management plan. 
Currently, a working group representing the sanctuary, Dry Tortugas 
National Park, the state of Florida, and local business and 
environmental interests are studying the designation of 185 square 
nautical miles of the Gulf of Mexico around the Dry Torturgas for 
designation as an ecological reserve.
    The Sanctuary's management plan states that water quality is the 
major factor affecting the health of the living coral reef, the sea 
grasses and fisheries stocks in the Florida Keys. If the water quality 
is not restored, the health of the coral reef resources will continue 
to deteriorate. Residents of the Keys currently depend on inadequate 
onsite sewage systems for waste disposal. These systems provide very 
little treatment, and allow waste to migrate rapidly to nearby waters. 
Recent studies have identified disease causing viruses in many of the 
canals along the Keys, and six Key West beaches are currently closed to 
fishing and swimming due to bacterial contamination from leaking sewer 
pipes. Planning is currently underway to improve the wastewater and 
stormwater infrastructure in the Keys, but continued federal assistance 
will be necessary to restore the water quality and protect the reef.
    The coral reef legislation under consideration today provides much 
needed attention and support for protection of these valuable marine 
resources. However, both bills focus on the Department of Commerce and 
the National Oceanic Atmospheric Administration but do not provide 
support for the Department of Interior. Currently, the Department of 
Interior (DOI) protects significant coral reef resources in U.S., 
commonwealth and territorial waters. The National Park Service manages 
9 park units and the Fish and Wildlife Service manages 19 wildlife 
refuges containing coral reefs, as shown on the attached figure from 
the Coral Reef Task Force web site (http://coralreef.er.usgs.gov/
doi.pncr/figure1.html). Florida's Biscayne National Park and Dry 
Tortugas National Park are the two largest NPS units with coral reef 
resources. By restricting the benefits of coral reef legislation to the 
Department of Commerce, we limit the effectiveness of the United States 
to protect all of these special areas.
    The first National Park Service unit with coral reef resources was 
established in 1935 by presidential proclamation: Fort Jefferson 
National Monument, located on the Dry Tortugas at the westernmost end 
of the Florida Keys. In 1968, Congress established Biscayne National 
Monument, setting aside the northern most stretch of the greater 
Florida Keys reef tract. In 1980, Congress expanded and redesignated 
both Fort Jefferson and Biscayne as National Parks. These two South 
Florida parks along with the Florida Keys National Marine Sanctuary 
represent the largest contiguous subtropical coral reef ecosystem 
within the United States. It is important that any legislative proposal 
by the Senate reflect this ongoing partnership.
    As you are aware, just over one year ago, President Clinton signed 
Executive Order 13089, emphasizing the need for a government-wide 
effort to protect and restore coral reefs in U.S., commonwealth and 
territorial waters. The Executive Order called for the creation of the 
Coral Reef Task Force, co-chaired by the Secretary of Interior and 
Secretary of Commerce. Secretary Babbitt took the lead in the 
development and implementation of the President's Coral Reef Task 
Force. The first summit of the Task Force was held in October 1998 at 
Biscayne National Park in South Florida. Just as this initial meeting 
stressed, any efforts, programs or legislation to support protection of 
coral reef resources within the U.S., commonwealth and territorial 
waters should include at a minimum both the Department of Interior and 
the Department of Commerce. Only through multiple agency support and 
partnership will our unique coral reef resources be protected. 
Providing the Departments of Interior and Commerce with the authority 
to leverage and fund a range of coral reef protection programs is an 
important first step.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Max Cleland to 
                              Sally Yozell

Question. As you know, the Grays Reef National Marine Sanctuary off 
Sapelo Island, Georgia, is a precious resource to Georgia and the 
country. I applaud the partnership that NOAA has pursued with minority 
students at Savannah State University which has provided them with a 
unique opportunity to participate in marine research diving and 
education. I am not advocating a position at this time, but wanted to 
know if NOAA has any proposal in the works to make GRNMS a marine 
reserve, and if so, what would this mean?

Answer. Note: In responding to this question, NOAA is assuming that the 
term ``marine reserve'' refers to an area where no consumptive uses are 
permitted (i.e., no-take areas).

NOAA's Gray's Reef National Marine Sanctuary (GRNMS) will begin 
reviewing its Management Plan beginning this fall. During the review 
process, NOAA will examine the efficacy of all management practices, 
including the appropriateness of current boundaries and regulations. 
Scoping hearings will be held in late October or early November to 
receive the public's views on how the Sanctuary should be managed and 
emerging issues. Revising the management plan will be a community-based 
process involving the general public through roundtable discussions, 
public hearings, workshops, public comments and the Sanctuary Advisory 
Council. The Council is comprised of representatives from research, 
education, conservation, sport fishing and sport diving interests.
    Currently, NOAA has no proposal to establish a marine reserve 
within GRNMS. However; this concept may arise during the scoping period 
for the management plan review process. If the concept of no-take areas 
arises, it will be evaluated along with all other management concepts. 
Should it appear that a no-take area is appropriate to effectively 
manage the resources of GRNMS, a proposal would be developed in 
coordination with relevant interests, the South Atlantic Fishery 
Management Council, and the community through public input.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John F. Kerry to 
                              Sally Yozell

Question. Earlier this year me New England Aquarium hosted a marine 
biodiversity workshop at which scientists identified the deepwater 
coral and sponge communities of George's Bank and the Gulf of Maine as 
top priority areas for protection. Few think of New England as home to 
important coral communities, yet fisherman in the North Atlantic have 
stated that in the past they occasionally pulled up these huge 
underwater ``trees'' in their fishing nets.
    (A) Could you elaborate on the status of these important coral 
communities and NOAA's efforts to protect them?
    (B) What information does NOAA have regarding the role of deepwater 
coral communities in supporting fisheries?
    (C) Is NOAA considering designating any areas with deep water 
corals as closed or marine protected areas?

Answer. A variety of deep water coral communities exist in U.S. waters 
of the Atlantic, Pacific, Caribbean and Gulf of Mexico. Until recently, 
relatively little was known about the location and role of these 
communities because they were difficult to identify, access and study. 
The advent of underwater video technology, more sophisticated sonars 
and other tools have allowed researchers to begin better study of these 
deep water coral communities. It is clear that these coral communities 
are important habitat for a number of fisheries and other species. 
There is also evidence that these relatively fragile coral structures 
are easily damaged by some activities. NOAA is currently conducting a 
review of the status of these important coral communities, efforts to 
protect and manage them (including any consideration of marine 
protected area designation), and their role in supporting fisheries. We 
expect this review to be completed by November 1st and will forward the 
findings to you at that time.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              Sally Yozell

Question 1. You testified that NOAA will spend $13 million in FY 99 on 
coastal zone management, coral reef mapping, water quality improvement, 
reef fishery management, education, research, and monitoring. You also 
stated that there is no current effort by NOAA for on-the-ground 
implementation of conservation efforts at the local level as called for 
by the U.S. Coral Reef Task Force's ``Islands Initiative.'' The 
International Coral Reef Initiative has likewise identified the three 
areas of coastal zone management, research and monitoring, and local 
level implementation of coral reef conservation efforts as the most 
urgent coral reef conservation needs. Please explain why conservation 
efforts at the local level have not been targeted by the 
Administration, and whether such efforts should be a priority of any 
coral reef legislation?

Answer. In FY 1999 NOAA will spend approximately $13 million from base 
budgets of existing NOAA programs such as the Coastal Zone Management 
Program, National Marine Sanctuary Program, National Centers for 
Coastal Ocean Science, National Undersea Research Program, National Sea 
Grant Program, and the National Marine Fisheries Service on activities 
directly related to coral reefs. This funding currently supports a 
variety of on-the-ground actions to address coral reef issues at 
national, regional and local levels.
    However, because the funding for these activities comes from base 
budgets of programs with responsibilities for a broad range of coastal 
issues in addition to coral reefs. Most NOAA funding for coral reef 
activities must be determined every year as one of many pressing 
coastal issues. Despite the tremendous economic, social, and biological 
value of coral reef resources and the significant threats they face, 
NOAA has litt1e funding permanently dedicated for activities to 
protect, restore and sustainably use coral reef ecosystems.
    NOAA is committed to supporting additional local level actions as 
outlined in the U.S. Islands Coral Reef Initiative strategy. Additional 
support for local level efforts should be a priority of any coral reef 
legislation and we are pleased that both S. 725 and S. 1253 
specifically include grant programs and authorization leve1s to provide 
additional support for local efforts to protect and sustainably use 
coral reef ecosystems.
    NOAA led the 1999 proposal by the U.S. Coral Reef Task Force to 
make the U.S. Island strategy the top priority for any new funding 
available in FY 2000. Local level conservation efforts were 
specifically cultivated and funded by a joint NOAA and Department of 
the Interior initiative in FY 1998 and FY 1999 with limited available 
resources.
    In the FY 2000 President's budget request, NOAA ($12 million) and 
the Department of the Interior ($5 million) requested a total of $17 
million in new funding to support major portions of the U.S. Islands 
strategy and implement additional coral reef conservation measures at 
local, regional and national levels. To date, however, NOAA has 
received no new appropriations to support the additional local level 
actions outlined in the U.S. Islands strategy. The U.S. Islands 
strategy will be included as a key part of the national action plan 
currently being developed by the U.S. Coral Reef Task Force. The draft 
national action plan will be presented at the next meeting of the Task 
Force, November 2-3, 1999.

Question 2. In 1997, as part of the International Year of the Reef, 
NOAA provided 20 coral reef conservation grants. Please provide for the 
record the following: (A) The amount of each of these projects? (B) How 
many of these projects are still underway today?

Answer. (A) In 1997, NOAA provided approximately $200,000 to the 
National Fish and Wildlife Foundation (NFWF) to support private-public 
partnerships for conservation of marine and coastal resources. Using 
these and other resources, NFWF helped fund 18 new coral reef projects 
from the Florida Keys to Palau in the western Pacific. While NFWF has 
provided some support for coral reef protects in the past, a new 
partnership with NOAA made it possible to expand support for coral reef 
projects. With additional funding from federal agencies, NFWF continues 
to offer a valuable opportunity to leverage federal funds to support 
local coral reef conservation efforts.
    With the almost $200,000 in federal funds from NOAA, NFWF and the 
project grantees were able to generate over $150,000 in nonfederal 
funds and in-kind services for the 18 local-level coral reef 
conservation projects. Although there was no matching requirement for 
these projects, most projects provided some matching resources to 
leverage federal funds. The Office of Insular Affairs of the Department 
of the Interior also provided federal funding for additional local-
level coral reef projects as part of this joint Year of the Reef 
effort. Federal funding for each project ranged from $5,000 to $50,000.
    (B) These projects have all been completed. Most of the projects 
have made lasting contributions to local communities' efforts to 
protect and restore coral reefs. Since many of the projects were 
designed to produce educational materials on how to care for, monitor 
and protect coral reefs, these project materials continue to be used to 
inform school children, tourists, divers and residents.
    Federal support from NOAA allowed local project sponsors to conduct 
a variety of activities including reseeding reefs with coral larvae in 
Guam; training conservation officers and producing educational 
materials on coral conservation in Palau; increasing the ability of 
local export officials in Indonesia to reduce illegal trade in 
protected corals; supporting the Great American Fish Count in US coral 
reefs; and supporting a number of education projects in Hawaii and 
other US coral reef areas to increase knowledge and awareness about 
coral reefs in schools, among tourists, and with the general public.
    Brief project descriptions are provided on pages 24-33 in the 1997 
NFWF Annual Report. Attached are two copies of the 1997 NFWF Annual 
Report for your reference. If you would like additional copies of the 
report, please contact NFWF.

Question 3. S. 725, The Coral Reef Conservation Act of 1999, contains a 
50 percent matching requirement. This provision is intended to help 
local communities build the capacity necessary to raise funds for long-
term sustainability. (A) Do you agree that it is important to build the 
capacity to help local projects achieve long-term sustainability? If 
so, please explain in detail. (B) Do you feel that grant applicants 
would be able to provide a 50 percent match, especially with the aid of 
a nonprofit organization to assist with fund raising?

Answer. (A) We think it is very important to help local communities 
build the capacity to support and implement projects that promote long-
term sustainability. NOAA helps build local level capacity for coral 
reef conservation projects through a number of programs such as the 
Coastal Zone Management Program, the National Estuarine Research 
Reserve Program, and the Community-Based Restoration Program (National 
Marine Fisheries Service) In addition, NOAA continues to work with the 
National Fish and Wildlife Foundation to support community-based local-
level conservation, education and restoration projects in coastal and 
marine environments. Helping communities acquire the tools, 
understanding and other resources to support local actions is critical 
to sustainable use of many coastal and marine resources.
    (B) We believe that grant programs that require the applicant to 
provide some portion of the total funding as match are appropriate in 
some situations and have a number of benefits. Requiring applicants to 
provide matching resources (as funds or in-kind services) helps 
leverage federal funding and can increase involvement of community and 
other partners in the project. Many organizations use this type of 
matching requirement to encourage applicants to build partnerships 
among community, government and nongovernment entities. The projects 
resulting from these broader partnerships often have more involvement, 
support, applicability and lasting impact at the local level.
    While some applicants may need assistance to secure matching 
resources, we believe most applicants would be able to provide 50% 
using funds or in-kind services. Having an organization available to 
assist grantees with finding match and building these partnerships is 
useful. However, there may be some groups who are unable to secure this 
level of match due to unique circumstances. Some flexibility is 
desirable to allow these groups to also be considered for possible 
support, and NOAA recognizes the flexibility that both S. 725 and S. 
1253 provide.

Question 4. What percentage of U.S. Coral Reefs are within National 
Marine Sanctuary Boundaries?

Answer. Approximately 5% of all U.S. coral reefs fall within the 
boundaries of four National Marine Sanctuaries (NMS); Fagatele Bay NMS 
(American Samoa), Hawaiian Islands Humpback Whale NMS (Hawaii), Florida 
Keys NMS (Florida), and Flower Garden Banks NMS (Texas).

Question 5. What percentage of U.S. coral reefs are within state and 
territorial waters?

Answer. Approximately 35% of U.S. coral reefs are within state and 
territorial waters including those found in the U.S. Virgin Islands, 
Puerto Rico, Florida, American Samoa, Guam, Hawaii, and the Northern 
Mariana Islands.

Question 6. What percentage of U.S. coral reefs are within the areas 
covered by Coastal Zone Management (CZM) Programs?

Answer. Approximately 32% of U.S. coral reefs within state and 
territorial waters are within areas addressed by Coastal Zone 
Management Programs. Approximately 3% of U.S. coral reefs within 
territorial waters are not covered by the CZM Programs (in the U.S. 
territories such as Wake, Johnston, arid Baker Islands).

Question 7. What percentage of U.S. coral reefs are protected as part 
of Fishery Management Plans?

Answer.

Overview

    Although comprehensive maps of all U.S. coral reefs do not exist, 
NOAA has recently estimated the total U.S. shallow-water coral reef 
area at nearly 17,000 square kilometers (NOAA's State of the Coast 
Report, 1998). About 65% of these reefs (approximately 11,000 km2--
mostly in the Northwest Hawaiian Islands) are in federal waters of the 
EEZ and therefore under NMFS jurisdiction for fishery purposes. 
Overfishing and fishery impacts on habitat have been identified as 
major environmental problems on coral reefs worldwide. Therefore, 
Fishery Management Plans (FMPs) offer one important management tool for 
addressing fishery impacts in federal waters.
    Only a small fraction of these reef areas in the EEZ are 
permanently protected from all fishing impacts (see ``Additional 
protections offered through area closures'' below). Nevertheless, FMPs 
offer a very wide and diverse variety of management measures affecting 
coral reef fishery species and their associated habitats. These 
measures usually address individual species, and may include gear 
limitations, seasonal area closures, size or catch limits, etc. that 
contribute to the protection of coral reef ecosystems. For this reason, 
it is not possible to estimate with any precision the percentage of 
reefs by number or by total area that is protected under provisions of 
FMPs.
    The following provides a more qualitative discussion of protections 
provided under the Sustainable Fisheries Act and the Magnuson-Stevens 
Fishery Conservation and Management Act. Under the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act), the 
eight Regional Fishery Management Councils are responsible for 
preparing arid submitting for review all new FMPs, and amendments to 
existing FMPs. The National Marine Fisheries Service, for the Secretary 
of Commerce, reviews these submissions for consistency with the 
Magnuson-Stevens Act and all other applicable laws and implements them 
through Federal regulations.
    Currently, five approved FMPs directly manage shallow reef corals 
or reef fish species and associated reef habitats in the Caribbean, 
Gulf of Mexico, and the South Atlantic regions. A sixth is nearing 
completion for the Western Pacific. Many other FMPs contain measures to 
manage fisheries for reef-associated fishes and invertebrates.
    Under the provisions of the Sustainable Fisheries Act of 1996 
(SFA), which made significant amendments to the Fishery Conservation 
and Management Act and renamed it the Magnuson-Stevens Act (Magnuson-
Stevens Fishery Conservation and Management Act), the Councils must 
further amend all of their FMPs to add new provisions, including those 
related to Essential Fish Habitat (EFH), bycatch, effects of fishing on 
habitat, and prevention of overfishing and rebuilding of overfished 
resources. Measures in place or under review to protect corals and 
associated fisheries are described below.

Protections Under the Provisions of the SFA Essential Fish Habitat 
Requirement

    Four Councils (Western Pacific, Gulf of Mexico, South Atlantic, 
Caribbean) have identified the coral reefs within their areas of 
jurisdiction to be EFH. This means that these coral reefs have been 
determined by the Councils to be essential to some portion of the life 
of federally managed fisheries species. The Magnuson-Stevens Act also 
requires each Federal agency to consult with the Secretary of Commerce 
regarding any action (authorized, funded, undertaken, or proposed to be 
so) that may adversely affect EFH. In this consultation process, the 
Councils may comment on the impacts of such actions on EFH for their 
managed species. Under this consultation process, the Secretary is to 
recommend to the involved Federal agency any measures that can be taken 
by the agency to prevent adverse impacts on and to conserve the subject 
EFH. NMFS anticipates considerable input by all the Councils in 
advising on ways to conserve coral resources. (In this sense, 100% of 
U.S. coral reefs are ``protected'' under fishery management plans, 
although the level and effectiveness of protection will depend on the 
outcome of actual consultations).

Fishery Management Plans that Protect Coral Reefs and Coral Reef 
Habitats

Gulf of Mexico Fishery Management Council

    Reef Fish--A moratorium and limited entry system for permits and 
restrictive quotas control fishing pressure on these stocks and on 
their coral reef habitat. Fish traps, roller trawls, and powerhead-
equipped spear guns are prohibited in an inshore stressed area, also 
protecting coral reefs. Riley's Hump, a coral reef near Dry Tortugas, 
Florida, is closed to all fishing to protect mutton snapper spawning 
aggregations during May and June, as well as other reef resources. In 
March 1997, a 10-year phase out of the fish trap fishery was begun, in 
part to minimize impacts on coral resources.
    Coral and Coral Reefs--Regulations implementing the FMP prohibit 
the harvest of stony corals, hydrocorals, black corals, and two species 
of octocorals, A permit system has been developed for live rock 
aquaculture to provide an alternative to wild live rock harvest, 
(Aquacultured live rock is considered an environmentally preferable 
alternative to continued harvest of wild live rock). Habitat Areas of 
Particular Concern (HAPCs) were established on the Florida Middle 
Grounds and the East and West Flower Garden Banks (off Texas). No 
bottom fishing gear that might damage coral resources are allowed in 
the HAPCs.
    Shrimp Fishery--A cooperative Tortugas Shrimp Sanctuary has been 
established with the State of Florida to close a trawling area where 
small pink shrimp comprise most of the population. The closure also 
protects coral reefs and associated habitat. Turtle Excluder Devices 
(TEDs) are required in shrimp trawls to prevent sea turtle 
entanglement. In addition, bycatch of juvenile red snapper in shrimp 
trawls is a major problem in reef fish management. Regulations now 
require the use of Bycatch Reduction Devices (BRDs) in shrimp trawls.
    Stone Crab Fishery--This fishery has more participants and stone 
crab traps than are necessary to harvest the optimum yield from the 
fishery. Since additional fishing effort could lead to increased 
conservation risks for the stock and habitat damages from the traps, 
Florida and the Council are developing a limited entry program for 
adoption in State and Federal waters off Florida.

South Atlantic Fishery Management Council

    Snapper/Grouper Fishery--Most fish traps, entanglement nets, and 
longlines have been eliminated to address overfishing and habitat 
damage. To further prevent overfishing and overcapitalization, the 
Council has adopted limits on participation and fishing effort.
    Shrimp Fishery--Regulations are in effect to limit the impact of 
the rock shrimp trawl fishery on essential bottom habitat; no trawling 
is allowed in the Oculina Bank Experimental Closed Area off east 
central Florida. To minimize adverse impacts on non-target marine 
resources, the Council has implemented a requirement for bycatch 
reduction devices (BRDs) in all shrimp trawls.
    Coral, Coral Reefs, and Live/Hard Bottom Habitat--To protect ivory 
tree coral, Oculina varicosa, no fishing for snapper/grouper species 
and no anchoring of fishing vessels is allowed in the Oculina Bank 
Experimental Closed Area. Regulations implementing the FMP prohibit the 
harvest of stony corals, hydrocorals, black corals, and two species of 
octocorals, but allow a limited harvest of certain other octocorals 
under quota for use in aquaria (a quota of 50,000 colonies per year is 
strictly enforced). Harvest of hard corals and live rock is prohibited; 
permits are available for the culture of live rock in Federal waters.
    Golden Crab Fishery--This FMP is designed to prevent potential 
overfishing of this resource by limiting fishing effort (and to reduce 
any impacts on habitat, including coral reefs).

Joint Gulf of Mexico/South Atlantic Council FMPs

    Spiny Lobster Fishery - A minimum size protects spawning potential, 
and gear restrictions are in place to protect female lobsters carrying 
eggs and reduce the amount of lost or ``ghost'' traps that may continue 
to fish for lobsters and finfish.

Caribbean Fishery Management Council

    Spiny Lobster Fishery--This fishery is part of a multispecies trap 
fishery, which includes shallow-water reef fish. A minimum size was 
established for spiny lobster to protect spawning potential. Gear 
restrictions are in place to protect female lobsters carrying eggs and 
reduce the amount of lost or ``ghost'' traps that may continue to fish 
for lobsters and finfish.
    Queen Conch Resources--The FMP includes 13 species of edible 
gastropods. The multispecies dive fishery also includes spiny lobsters, 
octopuses, and reef fish. To protect the queen conch resource, size 
limits, harvest limits, a closed season, and gear restrictions are in 
effect.
    Reef Fish Fishery--Consisting of approximately 140 species, this 
fishery is managed primarily by seasonal area closures to protect 
spawning aggregations, and through gear restrictions. The Council is 
considering further gear restrictions and a trap reduction program. No 
harvest of Nassau grouper, jewfish, seahorses, or certain species of 
butterflyfish is allowed.
    Corals and Reef Associated Plants and Invertebrates of Puerto Rico 
and the U.S. Virgin Islands--Harvest of hard corals, soft corals 
(octocorals), and live rock is prohibited. In addition to corals, the 
FMP covers live rock arid invertebrates associated with coral reefs in 
the U.S. Caribbean, as well as seagrasses and algae. Gear restrictions 
are placed on the taking of other invertebrates to protect coral reefs 
from physical and chemical damage. The FMP also includes seagrasses, 
which are essential fish habitat for a number of important commercial 
and recreational species, including queen conch. Also, the Council has 
submitted an amendment that would prohibit all fishing and all 
anchoring by fishing vessels to totally protect reef resources in a 
marine protected area off St. Thomas (Hind Bank).

Western Pacific Fishery Management Council

    Bottomfish and Seamount Groundfish Fisheries--A limited entry 
system is in place for the Northwest Hawaiian Islands. Fishing is 
restricted to hook and line gear. Measures are in place to protect 
selected snappers and a small number of other reef fishes.
    Crustaceans Fisheries--The fishery has two components: a limited 
entry fishery in the Northwest Hawaiian Islands, and a general fishery 
in the Main Hawaiian Islands and elsewhere in the Western Pacific. The 
allowed gear is lobster traps or hand harvest in Hawaii, with spearing 
allowed elsewhere in the Western Pacific. Closed areas protect habitat 
used by endangered monk seals and offer protection to habitat. The 
limited entry system and harvest guidelines place upper limits on the 
amount of fishing effort expended on lobster and associated damage to 
the habitat.
    Precious Corals Fisheries--This FMP regulates fishing for precious 
corals occurring from 30-1,500 m. Fishing is allowed using either 
selective gear (hand or remotely operated vehicle) or nonselective gear 
(tangle nets). The regulations established one protected coral bed 
devoted to research only. The only area where precious coral fishing is 
currently being contemplated, Makapu'u bed off Hawaii, is restricted to 
selective gear only. The yield allowed from a bed harvested using 
nonselective gear is only one fifth of the yield allowed when selective 
gear is used. The Council is considering prohibiting the use of 
nonselective gear in all areas.
    Coral Reef Ecosystem Management Plan (Under Development)--The 
Council is proposing to define ``coral reef ecosystem'' as those 
species, habitat, and other natural resources associated with benthic 
strata from 0 to 100 m.; ``coral reef resources'' would be defined as 
currently or potentially exploitable natural resources in coral reef 
ecosystems. The overall coral reef habitat under the jurisdiction of 
the Council is estimated to be 10,762 square km (less than 100 m 
depth). NMFS expects the completed plan to provide specific measures to 
protect coral reefs from adverse effects of fishing, including 
restrictions or prohibitions of particular gear, as determined to be 
practicable. The development team expects to submit the plan to the 
Council for review by the end of 1999.

Additional Protections Offered Through Area Closures

    The Councils and NMFS are moving in the direction of using closed 
areas as a management tool for fishery management.

    In the South Atlantic, Caribbean, and Gulf of Mexico regions there 
are several Habitat Areas of Particular Concern (HAPCs), areas that 
have been recognized as significant or critical to spawning, nursery, 
and feeding functions, or refuge. Additionally, there are many seasonal 
area closures (species specific).

South Atlantic Council

    The Point off North Carolina, the Charleston Bump off South 
Carolina, and the Oculina Banks off the east coast of Florida are good 
examples of areas that are extremely productive in the SA that have 
been established as HAPCS. Only the Oculina HAPC has additional 
management measures to protect it. Furthermore, the recent South 
Atlantic Comprehensive EFH Amendment included a proposed rule to expand 
the area, in order to further protect (specifically from fishery-
related impacts; i.e. scallop trawling/dredging) this delicate habitat 
area. There are 29 Special Management Zones (SMZs)--artificial reef 
areas--in the South Atlantic (mostly in SC) where commercial gear is 
prohibited (in most).

Caribbean Council

    The Caribbean Council identified the Tourmaline Bank, Bajo de Cico, 
Abrir La Sierra Bank, and areas east of St. Croix and south of St. 
Thomas as areas significant to Red Hind spawning aggregations, and thus 
established area closures from Dec. 1--Feb. 28. There is also a mutton 
snapper spawning aggregation closure from March 1--June 30. Recently, 
the Council has proposed a ``no-take'' marine reserve off St. Thomas, 
USVI, to protect coral habitat and declining reef fish stocks. This 
proposal is under Secretarial review and is expected to be implemented 
later this year.

Gulf of Mexico Council

    The Gulf of Mexico Council has established the Florida Middle 
Ground as an HAPC, prohibiting bottom longline, trawls, pots and traps, 
and dredges year-round. Furthermore, there are several seasonal 
closures for shrimp trawling. There is a spawning aggregation closure 
for Mutton Snapper and other species on Riley's Hump off the Dry 
Tortugas also.
    The Gulf Council recently proposed the closure of a large area off 
the west central coast of Florida (about 422 square nautical miles) to 
all reef fish fishing to protect spawning aggregations of gag grouper, 
a species that is approaching an overfished condition. This live hard-
bottom area, the Florida Middle Ground, contains extremely diverse 
coral communities, with unique floral and faunal assemblages. Thirteen 
species of octocorals and 15 species of scleractinian reef-building 
corals have been documented from this area.

Western Pacific Council

    Longline fishing is prohibited in three areas to prevent conflicts 
between operators of longline, troll and handline vessels, and to 
prevent the incidental take of protected species: Year around closure 
in the EEZ around Guam, and seasonal closures around longline protected 
species zones in the Western Hawaiian islands and the Main Hawaiian 
Islands. Year-round and season closures to lobster fishing are used to 
provide a refuge for spawning lobsters and to protect the spawning 
biomass of lobsters. Fishing is prohibited the year-round in the 
Hancock Seamount fisheries to restore depleted groundfish stocks. 
Fishing for coral in the Westpac Precious Coral Bed is prohibited to 
preserve this coral bed as a natural area to be used for baseline 
studies and reproductive reserve.

Question 8. Given that reefs are predominantly found in State waters, 
would the Administration support the establishment of a partnership 
between the Federal government and State and local entities where each 
party pays a balanced share of the cost of conservation measures? 
Please explain in detail.

Answer. Current estimates indicate that only about one-third of all 
U.S. coral reefs are found in state or territorial waters (within 0 to 
3 miles from shore) . However, these reefs may represent some of the 
most heavily utilized and impacted reefs within U.S. waters due to 
their proximity to increasing coastal populations and urban areas. With 
growing pressures on these reefs, it is critical to build partnerships 
among government and nongovernment entities at federal, state and local 
levels to implement effective actions for long-term conservation and 
sustainable use.
    A number of partnerships among federal, state and local entities 
already exist and have begun to address coral reef conservation issues, 
but additional funding and other resources are needed to ensure long-
term survival of near-shore reef resources. The Department of Commerce, 
the Department of the Interior and other federal agencies strongly 
support the use of existing partnerships with state end local entities 
for coral reef conservation, and the establishment of new Partnerships 
where appropriate.
    As discussed in response to Question 3, NOAA believes that cost 
sharing among project partners is an important way to leverage 
resources and build support for conservation projects. NOAA supports 
the continuation and establishment of partnerships between the Federal 
government and State and local entities where each party pays a share 
of the cost of the conservation measures. The proportion of costs 
shared by federal, state or local entities, however, should be 
determined by a variety of factors and may not be the same for all 
projects

Question 9. NOAA has suggested that coral reef conservation legislation 
contain a provision enabling NOAA to provide technical assistance to 
State or Federal agencies with jurisdiction over coral reefs to further 
the goals of such legislation. (A) Does NOAA propose to use such funds 
to provide this technical assistance or would technical assistance be 
provided out of base program funds? (B) What amount is needed to cover 
the cost of proposed technical assistance?

Answer. (A) NOAA provides limited technical assistance for coral 
conservation and management to U.S. states and territories under base 
funds through programs such as the Coastal Zone Management Program, the 
Sea Grant Program, and the National Centers for Coastal and Ocean 
Science. However, given the scope and condition of coral resources in. 
the U.S., NOAA is requesting additional funding to be able to provide 
technical assistance more broadly to support national, state, and 
community based coral reef conservation programs.
    (B) NOAA supports the authorization levels requested in S. 1253 
which dedicate a percentage of the authorized funds for technical 
assistance. Full funding at the levels authorized in S. 1253 would 
provide much of the technical assistance needed to support the coral 
reef conservation programs at the national, state and community levels.

Question 10. (A) As a result of the U.S. Coral Reef Task Force, has 
NOAA noticed a greater degree of inter-agency cooperation and 
coordination in day-to-day coral reef activities? (B) Please describe 
the effect of the U.S. Coral Reef Task Force on NOAA's participation in 
international coral activities.

Answer. (A) NOAA has observed an increase in interagency cooperation 
and coordination in some activities related to coral reefs as a result 
of the U.S. Coral Reef Task Force. The Task Force is currently 
developing a National Action Plan for conservation and sustainable use 
of coral reefs which will help increase interagency coordination and 
participation in a wide range of areas. To date, the Task Force and its 
working groups have increased interagency cooperation and coordination 
in several areas including mapping of coral reefs in the Caribbean, 
establishment of new coral reef protected areas, and assessing the 
impacts of U.S. trade in coral reef species.
    (B) The U.S. Coral Reef Task Force has supported NOAA's 
participation in international activities related to coral reefs. For 
example, NOAA has continued to develop new international partnerships 
for monitoring of coral reef bleaching and to report on the 
relationship between changes in ocean climate and coral reef health 
worldwide. The Task Force has helped increase NOAA's participation with 
other federal agencies in efforts to support coral reef conservation 
and sustainable use in other nations. NOAA is working with the Task 
Force to highlight the need to strengthen international collaboration 
and support for the global coral reef monitoring network as well as 
building capacity to manage coastal resources, and in particular, 
promote effective management of tropical marine protected areas.

Question 11. You stated in your testimony that you wish to work with 
the Committee on a provision that would fully address the problem of 
preventing and removing abandoned vessels that have been grounded on 
U.S. reefs.
    (A) Please outline the scope of the problem, including an 
approximation of the number of vessels abandoned on U.S. reefs each 
year and the extent of the damage incurred by these vessels.
    (B) Please provide for the record a list of examples where both 
U.S. and foreign-flag vessels have been grounded and abandoned on a 
reef. Please include instances where the vessel owner has declared 
bankruptcy and subsequently operated additional vessels without paying 
for the damages incurred by the grounded vessel.
    (C) Does the Administration support addressing these cases in coral 
reef legislation? If so, please explain what measures would be most 
effective and whether such measures would be a high priority for the 
Administration.

Answer. Grounded and abandoned ships can have significant impacts on 
coral reefs. Vessel groundings can cut large grooves in the reef, 
reduce parts of the reef to rubble, expose reefs to serious erosion and 
further damage, and change the distribution of fish and other coral 
reef species. Grounded vessels carry a wide variety of hazardous 
materials that can also cause serious damage if released from the 
vessel. And if grounded vessels or their wreckage is not removed they 
can continue to damage the coral reef and slow recovery as they are 
moved along the reef by waves and storms.
    (A) NOAA, the National Park Service, the U.S. Coast Guard, the 
states of Hawaii and Florida, and the Commonwealth of Puerto Rico 
annually report a significant number of vessel groundings affecting 
coral reefs. For example, in the Florida Keys National Marine Sanctuary 
alone, over 250 vessel groundings on coral reefs are reported each 
year. Similarly, in Biscayne National Park, over 150 vessel groundings 
are reported annually. While groundings of commercial vessels are 
required to be reported and are usually recorded, there is no 
requirement for recreational vessels to report accidental groundings, 
unless they result in over $500 in damage. Consequently, the record of 
groundings on U.S. coral reefs is incomplete. NOAA is currently working 
with the U.S. Coast Guard and other agencies through the 
Administration's Coral Reef Task Force to identify the number of 
vessels that have been abandoned on U.S. coral reefs. To date the U.S. 
Coast Guard has identified 11 vessels abandoned on U.S. coral reefs 
since 1992 when the Coast Guard began keeping track of abandoned 
vessels following enactment of the Abandoned Barge Act. Of these 
grounding incidents on coral reefs, 9 resulted in the use of existing 
federal pollution funds (e.g., the Oil Spill Liability Trust Fund) to 
help with clean-up costs. In some of these cases, partial reimbursement 
was made for some of the clean-up costs.
    (B) NOAA is involved with several coral reef restoration projects 
involving grounded and abandoned foreign-flag vessels. Examples 
include:

        <bullet>  The 1991 groundings of nine foreign-owned longline 
        fishing vessels on the reefs in Pago Pago Harbor, American 
        Samoa. The U.S. Coast Guard and Government of American Samoa 
        have not been able to identify a viable responsible party to 
        pay for vessel removal and natural resource restoration. Thus, 
        the vessels have remained on the reefs, continuing to cause 
        physical injuries.
        <bullet>  The October 1993 grounding of the Taiwanese longliner 
        Jin Shiang Fa on Rose Atoll, a National Wildlife Refuge in the 
        South Pacific. Salvage operations removed some of the larger 
        pieces of wreckage and debris, but the salvage crew did not 
        move the stern and its associated debris, or the engine block. 
        Years after the event, the reef shows only limited recovery. 
        This case was referred to the U.S. Department of Justice (DoJ) 
        for recovery of oil spill response costs from the vessel owner. 
        After an initial investigation, DoJ concluded that it would be 
        very difficult to pursue a response recovery action under U.S. 
        law and decided not to pursue legal action.
        <bullet>  The 1998 grounding of the M/V Paradise Queen II, a 
        longline fishing vessel, on Kure Atoll in Hawaii. While the 
        vessel insurer was able to pay for some salvage, the boat 
        remains grounded on the reef. The vessel was considered a total 
        loss by the marine insurer, and we are not aware of any plans 
        by the owner to remove the vessel. Although S. 1253 does not 
        have a definition of ``abandoned,'' under general admiralty 
        principles and Coast Guard policy directives, the vessel can 
        probably be considered to be abandoned.

    We are consulting with the Coast Guard on the instances where the 
vessel owner has declared bankruptcy and subsequently operated 
additional vessels without paying for the damages incurred by the 
grounded vessel. At this time it appears that the current system is 
unable to easily track grounded or abandoned vessels and subsequent 
bankruptcies and additional vessel licenses. Implementation of Section 
8 of S. 1253 or other measures to address these issues may require 
changes to how agencies track and monitor these situations.
    (C) The primary impediment to removing abandoned vessels that 
affect coral reefs is the lack of resources to fund the costs of 
salvage, which can be high, particularly when ships are in remote areas 
of the Pacific. A second impediment is the potential lack of a 
liability mechanism for Federal or State agencies to seek recovery of 
costs and damages when a ship runs aground in a non protected area 
(e.g. outside a National Marine Sanctuary or National Park), is not an 
obstruction to navigation, or does not pose a threat of oil pollution 
or hazardous waste discharge. In cases where agencies do have authority 
to seek damages, there are instances where the vessel owner has 
declared bankruptcy or is otherwise unable to he identified. As stated 
in NOAA's testimony, we support the measures in S. 1253 and are 
prepared to work with the Committee on any additional provisions to 
more fully address these issues. As stated in part B above, it appears 
that the Coast Guard is currently unable to easily track grounded or 
abandoned vessels and subsequent bankruptcies and additional vessel 
licenses. Effective implementation of Section 8 of S. 1253 or other 
measures to address these issues may require changes as to how agencies 
track and monitor these situations.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              Sally Yozell

Question 1. Throughout the history of the Marine Sanctuaries Program, 
it appears that funding priorities have been largely focused on 
expansion efforts. The costs associated with the designation process 
and other expansion related efforts are substantial. Other than the 
Thunder Bay Sanctuary in Michigan, does NOAA intend to spend any money 
in fiscal years 2000-2004 on expanding the sanctuary system, including 
the development of a site selection protocol? Please explain.

Answer. With the completion of the Thunder Bay National Marine 
Sanctuary, NOAA has no plans for designation of new sites in the 
foreseeable future. At this time, the National Marine Sanctuary (NMS) 
program is focusing its resources on developing and improving the 
operational capacity of existing sites. This includes developing core 
staffing, better implementation of site specific management plans, 
including research, education and resource protection programs, and 
continuing the five-year management plan reviews. Therefore, given 
current and anticipated funding levels, NOAA is not planning to expand 
the sanctuary system in fiscal years 2000-2004. If NOAA receives the 
full Administration request for Sanctuary Program funding in FY00, we 
will begin development of a carefully considered, science-based process 
to work with coastal communities, states and other stakeholders to 
identify and evaluate potential sites.

Question 2.  The Administration's bill focuses on the importance of 
ecosystem protection. However, none of the Administration's suggested 
changes highlight the importance of compatible commercial uses, such as 
fishing in marine sanctuaries. Please explain in detail how the 
Administration's bill enhances the goal of balancing compatible uses 
with resource protection.

Answer. The primary purpose of the National Marine Sanctuary Act (NMSA) 
is resource protection and NOAA's priority is to achieve this mandate. 
However, the NMSA also provides that uses that are compatible with the 
primary purpose of the NMSA should be allowed within sanctuaries. The 
Administration's bill does not change the goal of allowing all public 
and private uses compatible with resource protection, but supports and 
clarifies the resource protection mandate and the focus on ecosystem 
management. The clarification will help improve sanctuary management 
and provide clearer guidance on assessing whether uses are compatible 
with resource protection. The resulting emphasis on ecosystem 
protection also acknowledges the Administration's position, articulated 
at the National Ocean Conference, to further the nation's marine 
ecosystem protection efforts and the worldwide focus on oceans 
following the United Nation's designation of the ``Year of the Ocean.''
    During the designation process for a site, activities that are 
harmful to sanctuary resources are identified and regulations are 
developed in a public process, as appropriate, to prohibit or restrict 
a narrow range of activities to protect sanctuary resources. Even these 
restricted activities may be conducted under the conditions of a 
sanctuary permit. There are many compatible uses that are currently 
allowed within National Marine Sanctuaries, including: swimming, SCUBA 
diving, boating, commercial and recreational fishing, and research 
activities.

Question 3. Around the nation, NOAA has not made clear to the public 
the purpose of marine sanctuaries. Because of this, some people have 
raised concerns that marine sanctuaries are established solely for the 
purpose of resource protection. Please explain in detail the role that 
the proposed educational facilities will play in improving the general 
understanding of compatible uses in marine sanctuaries.

Answer. Due to the remote location of many of NOAA's National Marine 
Sanctuaries (NMS), easily accessible interpretive facilities are needed 
to educate the public about the importance of the marine environment 
and these special protected areas. NOAA's proposed interpretive 
facilities for NMS will be designed to educate the public on the 
understanding and protection of marine resources and biodiversity and 
the unique role of NMS. Through education NOAA hopes to make the public 
better stewards of our nation's precious marine resources. An important 
component of the full understanding of the marine environment is an 
understanding of how human uses affect the marine environment and how 
they can be compatible with resource protection. By educating the 
public on the effects of different activities, NOAA hopes to inform the 
public on how individual activities may affect the marine environment 
and how they can change their own behavior to become better stewards. 
In addition, we hope to educate the public on the role of NMS and how 
NOAA manages multiple uses, through regulations, zoning, and permitting 
to allow many uses and ensure their compatibility with the primary 
mandate of resource protection. Through these education initiatives at 
strategically placed interpretive centers, NOAA will educate the public 
on the importance of their local marine sanctuaries and the 
preservation of the marine environment.

Question 4.  Enforcement in marine sanctuaries appears to be a nation-
wide problem. In many sanctuaries, the employees do not enforce the 
National Marine Sanctuaries Act. Rather, enforcement responsibilities 
are conducted through partnerships with authorized officers of the 
state marine patrols and enforcement personnel at the National Marine 
Fisheries Service. (A) How much money does the Administration propose 
to spend on enforcement of the National Marine Sanctuaries Act in FY 
2000?

Answer: There are more people using the sanctuaries than ever before. 
With the increased demands to protect these valuable sanctuary 
resources, there are now insufficient funds available for NOAA or its 
enforcement partners to enforce effectively the NMSA and its 
implementing regulations Therefore, enforcement is an important program 
objective for the Marine Sanctuaries Division in FY 2000. A total 
dollar figure is being developed, as the individual sanctuary field 
sites are currently developing their annual operating plans and site 
budgets, which will address this priority objective. During FY 1999, 
the site budgets dedicated exclusively to enforcement ranged from $0 to 
$500,000, with a total system expenditure of $586,000. These costs are 
for specific needs, such as paying for Florida Marine Patrol staff 
($500K) or installing radar on a local Navy tower in Gray's Reef 
($10K). The proposed spending only includes the funds expended by the 
NMS system itself and does not include the contributions made by our 
partners in enforcement. Most of the enforcement costs at individual 
sanctuary sites are staff time, which is not specifically tracked or 
accounted, but is significant. In addition, NOAA contributes staff time 
to enforcement at headquarters, as well as staff hours within the NOAA 
Office for Law Enforcement and the NOAA Office of General Counsel for 
Enforcement and Litigation (GCEL). Although not specifically tracked, 
it is estimated that in FY 1999 this staff time was worth more than 
$500,000. (See also the response to question 4(B) below.)

Question 4. (B) In the Administration's FY 2000 budget request, the 
Administration proposes a $12 million increase in the National Marine 
Sanctuaries budget. Is any of the $12 million increase dedicated to 
enforcement, including the development and implementation of 
enforcement partnerships? If so, how much?

Answer: As discussed in the answer to question 4 (C), NOAA has many 
partnerships it uses to conduct enforcement activities. If the Congress 
funds the full amount of the Administration's proposed budget for 
National Marine Sanctuaries, the Marine Sanctuaries Division (MSD) has 
planned to augment these partnerships by dedicating up to $400,000 to a 
pilot project with the NOAA Office for Law Enforcement (OLE). This will 
fund NOAA uniformed officers and/or special agents dedicated solely to 
sanctuary enforcement at one or two sites. The pilot effort will 
establish a process for effectively using NOAA enforcement personnel to 
enforce sanctuary regulations in the future. MSD and OLE have recently 
begun work to develop a multi-year enforcement strategy for the 
Sanctuary Program, which will incorporate this pilot effort, and 
identity enforcement needs, priorities, approaches and funding 
requirements. In addition, individual sanctuary sites may boost the 
amount of their site budgets dedicated to enforcement (see response to 
question 4(A)).

Question 4. (C) As you know, NMFS personnel are responsible for 
enforcing the Magnuson-Stevens Fisheries Conservation and Management 
Act, the Marine Mammal Protection Act and other laws administered by 
NMFS. According to NMFS, 171 enforcement officers are employed by NMFS. 
It seems unlikely that NMFS personnel have the ability to make a real 
difference in the enforcement of marine sanctuaries regulations. In 
addition, partnerships between the states and marine sanctuaries only 
exist in two instances. Please explain in detail who is conducting 
enforcement activities at each of the sanctuaries, plans at each site 
to enhance current enforcement activities, and unmet enforcement needs 
at each sanctuary.

Answer. National Marine Sanctuary Program personnel are not authorized 
enforcement officers. The program relies upon the NOAA Office for Law 
Enforcement (OLE), the official enforcement arm of NOAA, for sanctuary 
enforcement. OLE is responsible for enforcement of the National Marine 
Sanctuaries Act (NMSA), as well as the Magnuson-Stevens Fishery 
Conservation and Management Act, Marine Mammal Protection Act, and 
other laws administered by NOAA. However, OLE receives no direct 
appropriation to support NMSA enforcement as it does for these other 
NOAA statutes. At its current funding and staffing levels, OLE can only 
provide limited support to the sanctuaries. Therefore, where 
appropriate, each of the sites has developed partnerships with the 
Coast Guard, other Federal enforcement agencies, and/or with the 
states, through memoranda of agreement and. cross-deputization with 
NOAA. As one of our principle enforcement partners, the Coast Guard 
dedicates cutter, aircraft, and small boat hours as able to marine 
sanctuary enforcement. Below is a table of the enforcement partnerships 
and an initial needs assessment for each individual site. As discussed 
in the response to question 4(B), MSD and OLE are developing a multi-
year strategy for enhancing enforcement efforts for the Program.

                  NATIONAL MARINE SANCTUARY ENFORCEMENT
------------------------------------------------------------------------
                                                    Enforcement Needs/
     Sanctuary Site              Partners                 Issues
------------------------------------------------------------------------
Stellwagen Bank, MA      Coast Guard/ CG Aux.     seasonal site use,
                                                   linked to other NOAA
                                                   responsibilities:
                                                   marine mammals, trash/
                                                   boat debris
------------------------------------------------------------------------
Monitor, NC              Coast Guard w/ routine   fishing gear damage,
                          patrols                  looting; remote
                                                   location
------------------------------------------------------------------------
Gray's Reef, GA          Coast Guard, CG Aux. w/  seasonal site use,
                          overflights; radar on    linked to overall
                          Navy tower               NOAA fisheries issues/
                                                   responsibilities
------------------------------------------------------------------------
Florida Keys             Coast Guard, Florida     heavily used site,
                          Marine Patrol            numerous groundings;
                                                   also poaching, Area
                                                   to Be Avoided, idle
                                                   speed only, marine
                                                   life collecting
------------------------------------------------------------------------
Flower Garden Banks, TX/ Coast Guard (routine     remote location;
 LA                       overflights &            anchoring on coral,
                          emergency response)      fishing gear damage
------------------------------------------------------------------------
Channel Islands, CA      Coast Guard & CA Fish &  discharge & boating
                          Game.                    disturbance,
                                                   overflights;
                                                   undetermined level of
                                                   violations
------------------------------------------------------------------------
Monterey Bay, CA         Coast Guard & CA Fish &  overflight zones,
                          Game, CA Parks as        seabed alteration,
                          avail.                   discharge, personal
                                                   watercraft, marine
                                                   mammal & seabird
                                                   disturbance;
                                                   undetermined level of
                                                   violations
------------------------------------------------------------------------
Gulf of Farallones and   CA Coast Guard, CA Fish  overflights,
 Cordell Bank             & Game                   discharges, jet skis
------------------------------------------------------------------------
Olympic Coast, WA        Coast Guard, National    site use low, remote
                          Park Service (DOI)       location; shipping,
                                                   fishing, recreational
                                                   activity, subsistence
                                                   Native American
                                                   activities
------------------------------------------------------------------------
Hawaiian Islands         Coast Guard and Navy     whale approach, linked
 Humpback Whale           (through OLE)            to other NOAA
                                                   responsibilities:
                                                   marine mammals;
                                                   seasonal but need
                                                   year-round presence
                                                   for outreach/
                                                   education
------------------------------------------------------------------------
Fagatele Bay, American   Dept. of Marine &        undetermined level of
 Samoa                    Wildlife Resources       violations, nighttime
                                                   spearfishing,
                                                   dynamite fishing
------------------------------------------------------------------------


Question 5. The Administration's bill would create new criminal 
penalties for interfering with the enforcement of the National Marine 
Sanctuaries Act and allow authorized officers to arrest persons who 
commit such prohibited acts. This is a significant expansion of 
enforcement authority under the National Marine Sanctuaries Act. Please 
explain in detail how creating new criminal sanctions will affect the 
enforcement problems that currently exist in marine sanctuaries.

Answer. The Administration's bill addresses shortcomings in the current 
NMSA, thereby improving NOAA's ability to enforce the NMSA and it's 
implementing regulations. The addition of criminal sanctions extends 
only to interference with law enforcement, leaving the majority of 
prohibitions to be handled by the appropriate civil penalty system. The 
agency has learned through experience that there is a need to have 
criminal sanctions to adequately address the types of acts which might 
be carried out against our employees and cooperating agency staff in 
the course of their investigative efforts. As with any law enforcement 
efforts, in the course of conducting investigations under the NMSA, 
authorized officers may be seriously interfered with, threatened or 
assaulted.
    Criminal sanctions for interference with law enforcement are 
contained in the other statutes that NOAA enforces (Magnuson-Stevens 
Fishery Conservation and Management Act, Marine Mammal Protection Act, 
Endangered Species Act). The absence of such sanctions in the NMSA 
stands out among all the statutes under NOAA's authority for failing to 
provide such protections to our emp1oyees without an apparent 
justification for doing so. By bringing the NMSA into conformity with 
the other statutes that NOAA enforces, NOAA enforcement agents are 
always working under the same guidelines.
                                 ______
                                 
                                              June 30, 1999

Chair Snowe and Distinguished Committee Members

     This testimony was prepared by Dave Raney, a volunteer member of 
the Sierra Club's National Marine Wildlife and Habitat Committee. Mr. 
Raney, a resident of Hawaii, heads the Club's Coral Reef Working Group. 
He was also appointed by the Secretaries of the Interior and Commerce 
to serve as the Pacific Non-Government Organization Representative to 
the United States Coral Reef Task Force:
    Thank you for the opportunity to present our ideas on this bill, 
which we support. We note that this bill contains similar provisions to 
S. 725, which we also support. In comparing the two bills, we find that 
S. 1253 contains additional provisions, with a commensurate higher 
level of funding, which we consider necessary to adequately support the 
wide range of activities required to fulfill the mandate of the U.S. 
Coral Reef Task Force.
    The U.S. Coral Reef Initiative, begun several years ago, and the 
U.S. Coral Reef Task Force created last year under Executive Order 
13089, have raised awareness of the precarious state of coral reefs 
globally, and within U.S. jurisdictions, and have stimulated the 
creation of local coral reef intitiatives. From the beginning, a 
``bottoms up'' approach to coral reef initiatives has been encouraged 
by the federal agencies. Up to now, however, relatively little funding 
for coral reef conservation has gone to community or non-governmental 
organizations actually operating at the grassroots level. Also, recent 
actions by the Senate appear to have eliminated much of the funding 
required by NOAA for projects directly related to coral reefs. S. 1253 
would restore such funding.
    Both bills recognize the importance of supporting community-based 
coral reef conservation projects, and provide mechanisms for doing so. 
We especially appreciate provisions tor waiving matching requirements 
for small projects (under $25,000), and for recognizing in-kind 
services and other noncash support to help meet matching requirements. 
We note that S. 1253 allows for a matching level of federal funds not 
to exceed 75% of the total project costs, as opposed to a maximum of 
50% in S. 725, We would prefer the higher federal match of S. 1253, 
noting that community groups usually have more enthusiasm than cash.
    We agree with the findings in Section 2 (10) of this bill, which 
state the desirability of legislation solely dedicated to the 
comprehensive and coordinated conservation, management protection and 
restoration of coral reefs and coral reef ecosystems, incorporating 
Executive Order 13089. House Concurrent Resolution 8, and the relevant 
federal, state, and territorial programs. We also find the Policy 
Section to be a valuable provision.
    Sections 8 and 9 of the bill appear to address concerns raised by 
Hawaii and American Samoa over the problem of abandoned vessels, 
specifically including the nine vessels in Pago Pago harbor which have 
been an eyesore and environmental problem for years. It is heartening 
to see this kind of specitic action in response to needs which have 
been expressed by the states and territories.
    In conclusion, we greatly appreciate the concern for coral reef 
conservation and protection, and support for community-based coral reef 
conservation projects, which bills S. 1253 and S. 725 address. We would 
like to see the good features of both bills adopted, including the 
comprehensive measures and funding levels of S. 1253.

Thank you.

Sincerely

Dave Raney
                                 ______
                                 
Prepared Statement of Stephen Colwell, Executive Director of the Coral 
Reef Alliance (CORAL), Director of the International Coral Reef Action 
      Network (ICRAN) Public Awareness Program, and Member of the 
 International Coral Reef Initiative (ICRI) Coordinating and Planning 
                               Committee
Chair Snowe and Distinguished Committee Members:

    Thank you for the opportunity to present our ideas on S. 1253, 
which we strongly support. The Coral Reef Alliance (CORAL) is a member-
supported, non-profit that works with divers, snorkelers and the dive-
tourism industry to promote coral reef conservation. This is a much 
larger and more widespread constituency than you might imagine. There 
are over 6 million certified SCUBA divers and over 35 million 
snorkelers in the U.S. from all 50 states. What is the #1 vacation 
destination for these divers and snorkelers? Coral reefs. Reported 
annual dive-tourism industry receipts related to coral reef tourism 
(including equipment, services and travel) approach $2 billion 
annually. The dive-tourism industry also employs tens of thousands of 
workers--many of whom live thousands of miles from the nearest coral 
reef.
    Therefore, coral reef conservation is not just an ``environmental'' 
issue, it is an important business issue. Leaders of the dive-tourism 
industry now recognize that a healthy industry depends on healthy coral 
reefs. The Dive Equipment and Marketing Association (DEMA)--the dive 
industry's trade organization--has recently added environmental 
conservation as part of their industrywide platform for growing the 
dive industry.
    Given the economic impact of the dive-tourism, the investment in 
coral reef conservation represented by S. 1253, would make good 
business sense even if coral reefs did not have such an important role 
to play in maintaining marine biological diversity, providing 
recreational and commercial fishing, and protecting shorelines from 
excessive wave action and flooding.
    Years of experience in coral reef conservation has demonstrated 
that effective conservation comes only with effective partnership among 
many stakeholders. Government and non-governmental organizations each 
have important roles to play. S. 1253 recognizes the need for this 
partnership and provides the full funding NOAA needs to carry out its 
role, while simultaneously creating a source of funds for the 
community-based coral reef conservation projects, public awareness 
campaigns and other smaller conservation initiatives that have proven 
to be effective and cost-efficient.
    In conclusion, we strongly support the commitment to coral reef 
conservation and protection represented by S. 1253. CORAL also supports 
S. 725, but the higher level of funding represented by S. 1253 does 
promise more comprehensive protection. Recent reports (see e.g., the 
World Resources Institute's Reef at Risk Report and the Conclusions of 
the 1999 National Coral Reef Institute Conference) dramatically 
demonstrate the need for speedy action if we are to be able to reverse 
the tide of destruction facing coral reefs. S. 1253 and S. 725 provide 
proof of the commitment of the United States to coral reefs and to the 
millions of U.S. citizens that depend upon healthy coral reefs for 
their employment, income and recreation.

Thank you for your attention.

Sincerely,

Stephen Colwell

Executive Director

CORAL -The Coral Reef Alliance
                                 ______
                                 
                                              June 25, 1999
 Joint Prepared Statement from The Center for Marine Conservation, The 
 Marine Conservation Biology Institute, American Oceans Campaign, The 
    Environmental Defense Fund and World Willife Fund, on National 
                   Marine Sanctuaries and Coral Reefs
    Madam Chairwoman, and Members of the Subcommittee, the Center for 
Marine Conservation (CMC), the Marine Conservation Biology Institute 
(MCBI), American Oceans Campaign (AOC), the Environmental Defense Fund 
(EDF) and World Wildlife Fund (WWF) are providing this statement to be 
inserted into the June 30, 1999, hearing record on National Marine 
Sanctuaries and Coral Reefs. We would like to take the opportunity to 
thank the Chairwoman and Members of the Subcommittee for their work on 
these very important issues.
    We commend the sponsors of the Coral Reef Conservation Act of 1999 
(S. 725) and the Coral Reef Protection Act of 1999 (S. 1253). It is 
becoming increasingly clear that our oceans and coastal areas contain 
irreplaceable resources that benefit all of us. Although increased 
attention has been given to the oceans vast resources over the last 
several years, more needs to be done. S. 725 and S. 1253 both provide 
important opportunities to conserve and protect coral reefs. We look 
forward to similar bipartisan support for reauthorization of the 
National Marine Sanctuary Act.
    Our organizations share the desire to see the National Marines 
Sanctuary Act reauthorized this Congress and to have additional 
conservation efforts directed at coral reefs. Our testimony will cover 
coral reefs and sanctuaries generally and then the Senate legislation 
dealing with these issues.
                           MARINE SANCTUARIES
                                overview
    Established in 1972, the National Marine Sanctuary Program provides 
one of the best tools for protecting and preserving marine resources in 
special areas of our ocean and coastal waters. The Sanctuary Program 
encompasses more than 18,000 square miles and includes 12 sites 
stretching from New England to the Hawaiian Islands and beyond. Twenty 
seven years after the creation of the National Marine Sanctuary 
Program, we believe that, while it has achieved considerable success, 
it has not lived up to its enormous potential or fulfilled its mandate 
to protect and restore special marine areas.
    In establishing the National Marine Sanctuary Program, Congress 
created a tremendous program with great potential for conserving and 
protecting this Nation's outstanding marine resources. Our 
organizations remain committed to seeing the program reach that 
potential and believe that there is now an unprecedented opportunity to 
make it happen. The five prior reauthorizations have helped strengthen 
and solidify the statute and we do not believe that major modifications 
are necessary during this reauthorization. However, we believe some 
fine-tuning could assist the program in reaching its potential, and 
feel strongly that adequate funding is essential for improving the 
program.
                             funding levels
    The biggest obstacle to the National Marine Sanctuary Program 
achieving its legislative mandate has been an inadequate level of 
funding. Almost ten years ago, an independent, external review panel 
convened by the Bush Administration endorsed a funding level of $30 
million as the minimum required to fund the Program at that time. Yet 
in 1999, the National Marine Sanctuary Program achieved less than half 
of that funding or less than $1,000 for each square mile of sanctuary, 
despite the addition of six sanctuaries since 1990. Inadequate funding 
has resulted in a program that is understaffed, limiting conservation, 
educational and research opportunities. In addition, NOAA has fallen 
behind on the reviews of sanctuary management plans. Although NOAA is 
now moving forward on management plan reviews for the Stellwagen Bank, 
Channel Islands and Gray's Reef National Marine Sanctuary, many other 
plans were developed over 20 years ago and have not yet been reviewed. 
These reviews are necessary to address new and changing conservation 
issues such as fishing and water quality concerns.
    The Administration has requested $29 million for FY 2000 and our 
organizations believe that Congress should, at a minimum, fund the 
program at that level, in addition, we recommend that in out years 
Congress provide increases of $5 million per year starting in FY 2001. 
Previously, inadequate funding has resulted in a program that is both 
understaffed and capable of sustaining only a small fraction of 
priority activities. No existing sanctuary has an adequate interpretive 
facility or research and monitoring program. NOAA has yet to complete a 
single sanctuary management plan reviews.
    The $29 million proposed for FY 2000 funding includes $26M for 
operations that would be adequate to provide core staffing, support 
basic programs for the existing sanctuaries and continue some 
management plan reviews; and $3 million to initiate limited visitor/
interpretive center projects and develop a more comprehensive 
facilities plan. Additional out year funding increases are necessary to 
ensure that NOAA can meet the legislative mandates of the program; 
develop more than basic programs; complete its management plan reviews; 
implement a comprehensive facilities plan, including development of 
interpretive centers that benefit local communities; and continue to 
improve the NMSP. We propose the following authorization levels for the 
NMSA:


            FISCAL YEAR                 PROG. OPERATIONS            CONSTRUCTION                  TOTAL

FY2000                                                 $26M                       $3M                      $29M
FY2001                                                 $29M                       $5M                      $34M
FY2002                                                 $32M                       $7M                      $39M
FY2003                                                 $35M                       $9M                      $44M
FY2004                                                 $39M                      $10M                      $49M


    These modest increases will allow for a steady strengthening of the 
NMSP and help prevent stagnation.

                            PROGRAM MANDATE

    The existing National Marine Sanctuaries Act offers a comprehensive 
approach to the conservation of special marine areas, ranging from the 
coral reefs of Florida to the kelp forests of the California coast. 
Since its inception and though five authorizations, Congress has 
recognized comprehensive ``resource protection'' as the primary 
objective of the NMSP. However, these same reauthorizations have left 
this primary mandate obscurely stated in the statute. We recommend that 
existing statutory language contained in the Findings, Purposes and 
Policies section be consolidated to clearly state that ``the purposes 
and policies of this title are to create a system of national marine 
sanctuaries that provide a comprehensive approach to the conservation 
of special marine areas with the primary objective of resource 
protection.''

             COORDINATION WITH FISHERY MANAGEMENT COUNCILS

    Furthermore, we agree with the National Research Council that 
fishing and related extractive activities are one of the primary human 
activities affecting marine ecosystems, including those contained 
within marine sanctuaries. The existing statutory language that 
provides the Regional Fishery Management Councils and the Secretary of 
Commerce with roles in developing and evaluating such regulations 
recognizes the need, in some cases, for sanctuary-specific fishing 
regulations. While we do not view the current language as ideal, we 
recognize that many different viewpoints went into developing this 
language. We believe it represents a workable compromise that can lead 
to the development of appropriate sanctuary fishing regulations that 
protect sanctuary resources. The following steps would greatly enhance 
the likelihood of success in the process: requiring that the Secretary 
of Commerce formally request the Council's input as early as possible 
in a Sanctuary designation or management review process; providing a 
specific time frame within which the Council is required to respond to 
this request; and requiring a finding by the Secretary on the adequacy 
of the Council's response.

                             MARINE ZONING

    Marine zoning is a recent and innovative tool used to conserve 
marine resources throughout the world that is receiving considerable 
scientific attention and acclaim. Marine zoning focuses on preserving 
and restoring intact portions of the world's oceans to ensure their 
overall health and integrity while allowing compatible uses. Several 
sanctuaries, including the Florida Keys. are already incorporating this 
creative conservation tool in their management plans. The authority to 
use this tool already clearly exists. However, we recommend that during 
reauthorization, language be added to ensure that innovative management 
tools, such as marine zoning, are considered in the development and 
review of sanctuary management plans and applied where beneficial.

                  FIVE YEAR MANAGEMENT REVIEW PROCESS

    The five year management review process is a critical component of 
the National Marine Sanctuaries Act. Unfortunately, none of the 
sanctuary management plans, some of which are more than 20 years old, 
have been revised to incorporate new issues, new scientific information 
or new management techniques. The public, stakeholders and local 
communities deserve a periodic review of each sanctuary management plan 
to make sure that it is up-to-date, relevant to current issues, and 
fulfilling its purpose.

                            NEW SANCTUARIES

    Given the significant challenges and limited resources existing 
sanctuaries face and the need of these sanctuaries to fund and 
implement basic activities, such as staffing and review of existing 
management plans, we believe the Program's priority should be on 
meeting the needs of the current sites. However, as we approach a new 
millennium, we also believe that the National Marine Sanctuary Program 
should be looking to the future as well. While the short-term focus 
should be on current sites, the program should not be prohibited from 
exploring, and when necessary, recommending additional sites.

                              CORAL REEFS

    Coral reefs are the most diverse marine ecosystem in the world. 
Although they cover only one percent of the entire area of the oceans, 
they have been dubbed the ``rainforests of the sea'' because of the 
great variety of marine species that they support. Coral reefs are home 
to roughly one-third of the known marine fish diversity and thousands 
of other species. In the United States, more than 6,500 square miles of 
the Atlantic and Pacific Oceans contain coral reefs. Not only are reefs 
biologically valuable, they also have great economic and aesthetic 
values including fisheries, diving and tourism.
    Unfortunately, the health and quality of coral and coral reef 
environments has been in decline over the past several decades. In 
recent years coral reefs around the world have suffered significant 
damage. Major anthropogenic stressors include over exploitation of the 
living components of reef ecosystems, pollution and global warming. 
Diseases also pose a threat to coral reefs, especially those already 
affected by human disturbance.
    Fortunately, however, a great deal of attention is being focused on 
the plight of coral reefs in the past few years. The United Nations 
declared 1997 the International Year of the Reef and an international 
plan to conserve corals was developed, but has not yet been 
implemented. In 1998. the United Nations Year of the Oceans, the 
Clinton Administration issued Executive Order 13089, for the Protection 
of Coral Reefs. E.O. 13089 requires federal agencies to use their 
existing authorities to conserve and protect coral reefs and 
established the Coral Reef Task Force. The Task Force has met twice 
since its creation. The Task Force is working on several important 
issues including mapping, protected areas, water quality and global 
warming.
    At the second meeting of the Task Force, the Center for Marine 
Conservation hosted a workshop on the human impacts on coral reefs. The 
workshop was cosponsored by the Environmental Protection Agency, the 
Department of Land and Natural Resources of the State of Hawaii, the 
Department of the Interior and the Department of Commerce. At the 
workshop, coral reef ecologists agreed that while there was much left 
to learn about coral reef biology, enough is already known to indicate 
that stronger protection measures are needed. They agreed that these 
systems are not well protected, making them vulnerable to large scale 
commercial exploitation. Recommendations were made that significant 
areas of coral reef ecosystems be set aside and protected from all 
extractive activities. CMC is planning to host another workshop that 
will coincide with the Task Force's next meeting this fall.

                           S. 725 AND S. 1253

    Our organizations would like to express our appreciation and 
recognize the leadership of the Members of the Subcommittee in 
developing measures to improve the protections provided to coral reefs. 
Both the Coral Reef Conservation Act of 1999 (S. 725) introduced by 
Senator Snowe and the Coral Reef Protection Act of 1999 (S. 1253) 
introduced by Senator Inouye represent positive steps forward in 
addressing the need to protect and conserve coral reefs. These two 
pieces of legislation represent a good framework for developing 
stronger and more comprehensive coral reef legislation.
    Both S. 725 and S. 1253 provide critically need new financial 
resources to conserve and protect coral reefs. S. 725 would provide 
$12M over a three year period while S. 1253 would provide $100M over a 
five year period. Given significant declines in coral reef ecosystems 
and the time necessary to reverse this trend, we prefer the funding 
levels provided in S. 1253. We believe that such a significant increase 
is necessary to help stem the decline of coral reefs and coral reef 
ecosystems. S. 1253 also contains provisions such as a national program 
allowing NOAA to provide non-competitive grants and a requirement that 
the Secretary of Commerce consult with the Coral Reef Task Force on 
project proposals and approvals which would provide a more 
comprehensive process for restoring and conserving coral reefs.
    At this time, one specific recommendation that we ask you to 
consider is providing a direct role for the Department of the Interior 
in the implementation of your coral reef legislation, especially for 
coral reefs under their jurisdiction. DOI has significant 
responsibilities related to coral reef protection including management 
responsibilities for coral reefs in national parks, national wildlife 
refuges and offshore of U.S. territories and possessions. Furthermore, 
the Secretary of Interior is a co-chair of the National Coral Reef Task 
Force that was formed to implement the Executive Order on coral reefs.

                               CONCLUSION

    We commend the Subcommittee for its work on behalf of the National 
Marine Sanctuary Program and coral reefs. We look forward to working 
with you to develop legislation to reauthorize the National Marine 
Sanctuary Act, as well as comprehensive legislation to protect and 
conserve coral reefs.
                                 ______
                                 
                                               July 7, 1999
Senator Olympia Snowe
Chairwoman
Subcommittee on Oceans & Fisheries
Senate Committee on Commerce, Science, & Transportation
428 Hart Senate Office Building
Washington, DC 20510

Dear Senator,

    In response to your invitation to submit written testimony 
following the Subcommittee on Oceans and Fisheries' hearing on Coral 
Reef and Marine Sanctuary Conservation held on June 30, 1999, I submit 
herewith my written testimony for the record.
    Due to our unique geography and geology, Coral Reefs and National 
Marine Sanctuaries are a fundamental part of everyday life in the 
Florida Keys, and I want to thank you for giving me the opportunity to 
express my thoughts and concerns regarding the future health of these 
national treasures.
    Your interest in the health of the reefs and marine sanctuaries is 
greatly appreciated.
            Sincerely,
                                       Nora Williams       
                                                County Commissioner
                                             Monroe County, Florida
                                 ______
                                 
Prepared Statement of Nora Williams, Monroe County Commissioner, Monroe 
                            County, Florida

    Madam Chairwoman, I appreciate the opportunity to submit this 
testimony for the Oceans and Fisheries Subcommittee hearing on Coral 
Reef and Marine Sanctuary Conservation.
    Madam Chairwoman, the Florida Keys and their surrounding National 
Marine Sanctuary are facing a serious environmental problem that 
threatens the long-term health of the coastal waters of the Florida 
Keys. Inadequate wastewater and stormwater facilities in the Keys have 
led to a serious degradation of the near-shore waters in recent years, 
and unless this problem is solved, our nation can look forward to 
continued deterioration of water quality and the loss of a true 
tropical treasure.
    Natural resource protection is a matter of dollars and cents for 
the Florida Keys, as our economy is dependent on the health of our 
waters. The marine systems of the Florida Keys represent the most 
productive fishery in the state and the third most productive on the 
eastern seaboard. Our tourism industry is largely dependent on SCUBA 
diving, sportfishing and other nature-based tourism activities.
    Wastewater and stormwater are the principal sources of nutrients in 
our near-shore waters, and the construction of wastewater and 
stormwater facilities in the Keys is the most effective solution to the 
water quality problems that now threaten the Florida Keys. The Keys are 
an island chain made up of porous limestone rock and coral. This 
situation causes normal septic systems to be ineffective and makes it 
necessary to install expensive treatment facilities. These problems are 
compounded by the fact that we are a 100 mile long chain of thirty 
populated islands. As a result, because of our unique geography and 
geology, the needed facilities cost 3-4 times the national average and 
are, therefore, truly unaffordable without federal assistance.
    The United States Congress recognized the value of the Florida Keys 
in 1990 and passed legislation establishing the Florida Keys National 
Marine Sanctuary. That legislation mandated that the Environmental 
Protection Agency and the State of Florida develop a water quality 
protection program for the sanctuary. The plan has been completed. We 
now know what needs to be done. But required measures are so costly 
they cannot be achieved with local and state resources alone. At 
present, there is no federal funding source to help our community make 
the necessary water quality improvements.
    Your Subcommittee is considering legislation which provides funding 
to help restore the health of the nation's ailing coral reefs and 
assist in maintaining the long-term wellbeing of these fragile 
ecosystems. The efforts proposed represent an important step forward, 
but they will not solve the serious pollution problems that face the 
Florida Keys National Marine Sanctuary. Significant federal funding for 
wastewater treatment facilities is essential. If these kinds of 
facilities are not constructed, other conservation measures will not 
make a substantial difference in our near-shore waters. Wastewater and 
stormwater are the problem, and if we do not fix the problem, the 
environmental quality of the Florida Keys Marine Sanctuary will 
continue to deteriorate and a precious national resource will be lost.
    Madam Chairwoman, I applaud this Subcommittee for considering the 
possibility of dedicating federal funds to preserve, sustain, and 
restore the health of the coral reef ecosystems before these precious 
treasures are irreparably damaged. I would also ask every member of 
this Subcommittee to make a further effort directed specifically at the 
severe problem now facing the Florida Keys National Marine Sanctuary. A 
national treasure is now at risk in the Florida Keys, and our near-
shore waters are deteriorating. A solution has been identified, but 
Monroe County and the State of Florida cannot carry the burden alone. 
The Federal government needs to help. I ask, therefore, that every 
member of this Subcommittee work with other Committees of the Congress 
to fully fund the wastewater improvements that are necessary to 
preserve the integrity of the Florida Keys National Marine Sanctuary.
    Madam Chairwoman, the Miami Herald and a local Florida Keys 
newspaper Solares Hill recently published articles on this topic, and I 
would like to request that the text of each of these be printed as a 
part of my testimony.
    I thank you for this opportunity to address the Subcommittee.
                                 ______
                                 
 Prepared Statement of Debra S. Harrison, AICP, Florida Keys Director, 
                          World Wildlife Fund

    Madam Chair, Members of the Subcommittee, thank you for the 
opportunity to testify concerning the reauthorization of the National 
Marine Sanctuaries Act. I am a long-time resident of the Florida Keys, 
where I have served as a member of the Florida Keys National Marine 
Sanctuary Advisory Council for three and a half years. I also serve as 
a member of the South Florida Regional Planning Council and the 
Governor's Commission for a Sustainable South Florida. I recently 
received the coveted Chevron Conservation Award in recognition of more 
than twenty years of actions to protect the Florida Keys and South 
Florida ecosystem. I appreciate this opportunity to share from my 
experience in the Florida Keys why I strongly believe that the National 
Marine Sanctuaries Act should be reauthorized.
    The Florida Keys are home to one of the world's richest and most 
diverse marine ecosystems. Its treasures include the third-largest 
coral barrier reef in the world; expansive shallow water flats and sea-
grass meadows; hundreds of mangrove islands surrounded by patch reefs 
and hard-bottom communities. The array of wildlife of this special 
ecosystem includes wading birds, osprey, bald eagles, endangered 
diminutive Florida Key deer, sea turtles, and oceans teaming with reef 
fish, lobster, shrimp, shark and dolphin, permit and bonefish, just to 
begin the list.
    So revered are these resources that the federal government has 
established four National Wildlife Refuges, three National Parks, 
thousands of acres of Wilderness Designated Area, and this country's 
second largest National Marine Sanctuary, all within the Florida Keys 
ecosystem. The Florida Keys receive four million visitors a year from 
around the nation and around the world, lured by its incredible beauty 
and diversity.
    But protecting the natural resources of the Keys has not happened 
without controversy. The Keys are an archipelago consisting of dozens 
of small islands historically isolated from the mainland. The 
population of residents that chose to carve out a living here decades 
ago struggled for survival. In this subtropical climate with little 
freshwater, few amenities and a multitude of natural challenges, such 
as hurricanes and mosquitoes, life was hard. Those that survived did so 
with a fierce sense of independence.
    This century brought modern amenities to the Keys, such as a 
transportation network linking the islands together in a chain to South 
Florida, a freshwater pipeline, electricity, mosquito spraying, air 
conditioning, and finally, cable television. As a result, the Keys grew 
into one of the most sought-after destinations for those fleeing the 
cold, gray winds of northern winter months.
    Development boomed. Lands were plotted, forests bulldozed, canals 
and channels dredged. By the mid-seventies, the Florida Keys had been 
designated an Area of Critical Concern by the State of Florida because 
of the wholesale destruction of the Keys natural resources that the 
state had defined as the ``crown jewel'' of Florida. The last twenty-
five years have been a textbook example of the challenges and successes 
of bringing balance to the efforts to intertwine economic stability 
with environmental protection. That balance has not come easily.
    In the mid-80's, extensive efforts were underway to gain control of 
rampant overdevelopment of the Florida Keys. Local comprehensive plans 
were being re-written, federal refuge mangers were struggling with 
protecting endangered species, and programs to address water quality 
degradation from untreated human sewage were being discussed. Rapid 
development of the Keys was resulting in excessive demands for new 
infrastructure and public facilities and that, along with a spiraling 
demand for growth, exacerbated the already high cost of living, and all 
for a degraded quality of life and natural resource base.
    The Keys became a battleground for efforts at the local, state and 
federal level to balance necessary resource protection with local 
economic interests. Those efforts were further complicated by the 
residents' traditional sense of independence and isolation. During the 
height of that battle, legislation was introduced in the U.S. Congress 
to establish the Florida Keys National Marine Sanctuary (FKNMS). It was 
expected that the proposal would be met with controversy. What is 
noteworthy is that less than a decade after its introduction, the FKNMS 
is fully embraced by the Florida Keys public.
    The FKNMS serves as a model for the establishment of resource-
management programs globally. So impressive was the public-
participation element of that effort that the U.S. General Accounting 
Office hailed NOAA's process in its October, 1995 report to Congress. 
In the report, entitled Restoring the Everglades: Pubic Participation 
in Federal Efforts, the GAO recommended that the Interagency Task Force 
on the South Florida Ecosystem ``develop a strategy to improve 
collaboration with nonfederal stakeholders in coordinating 
environmental restoration activities in South Florida and should view 
as examples the processes used by NOAA to develop a comprehensive 
management plan for the Florida Keys National Marine Sanctuary...'' 
(emphasis added). Appendix II of the GAO report outlines the process 
and efforts to manage the FKNMS.
    The GAO also recognized the contentious nature of environmental 
protection efforts and found that ``although consensus among federal 
and nonfederal stakeholders is desirable, restoration efforts are 
inherently contentious and consensus on solutions that directly affect 
various interests may not be attainable. In addition, dissatisfaction 
with the process for nonfederal involvement expressed by stakeholders 
directly affected by a public policy decision often cannot be 
dissociated from their dissatisfaction with the outcome of the process. 
Therefore, the most that federal agencies may be able to achieve is an 
open airing and full consideration of all views within the constraints 
imposed by external factors'' (emphasis added).
    The controversy surrounding federal resource protection efforts in 
the Florida Keys cannot be understated. Coalitions were formed to 
obstruct those efforts, including bringing in national Wise Use 
affiliates, such as the Center for Defense of Free Enterprise. The 
hanging of effigies, demonstrations and public protests were 
commonplace. The opposition to the FKNMS was well-organized and highly 
effective. The message disseminated was not one of opposing protection 
of the resource, but of an anti-federal control theme. ``We don't need 
more Federal control in the Keys'' was the campaign cry of Sanctuary 
opponents. The message galvanized local constituents who were already 
discontent due to a preceding decade of local, state and federal agency 
restrictions intended to reverse the rampant destruction of nationally 
important resources.
    What truly sets the work of NOAA apart from other resource-
protection efforts undertaken both in the Keys and nationally has been 
the open process that has allowed public buy-in to the outcome of that 
process. While the activities surrounding adoption of the FKNMS 
management plan involved high levels of controversy, today, just two 
years after the final adoption of the plan, the FKNMS now enjoys 
overarching support for the program. Evidence of that level of support 
is demonstrated by radio and newspaper advertisements by local 
businesses and Chambers of Commerce throughout the Keys advertising the 
FKNMS. Public participation in FKNMS education and volunteer programs 
is skyrocketing. The FKNMS is viewed by the general public as a 
positive community program.
    The latest example of the success of the FKNMS is exemplified by 
the unanimous consensus that was developed around the establishment of 
an ecological reserve in the area of the Dry Tortugas. Known as T2000, 
the planning process engaged a broad Working Group consisting of 
sportsfishers, commercial fishers, divers, business representatives, 
and conservationists. The outcome of the Working Group was then 
forwarded to the FKNMS Advisory Council where it again received 
unanimous approval. Building that kind of support in the Florida Keys 
has historically been impossible to accomplish. The work and approach 
of NOAA in conjunction with the FKNMS and the T2000 process has truly 
changed the way conservation initiatives can be achieved in the Florida 
Keys.
    I believe that the Florida Keys experience with the National Marine 
Sanctuaries program provides an important example of why the National 
Marine Sanctuaries Act must be reauthorized. If a program to protect 
one of the most ecologically diverse and important marine ecosystems in 
the world can succeed in collaboration with a local public that is 
highly suspicious of federal resource protection programs, then this 
program, I believe, can excel anywhere. The Florida Keys story has 
truly been a success story for the effectiveness of the National Marine 
Sanctuaries Program.
    Sen. Snowe, Members of the Committee, thank you for your work on 
behalf of America's marine resources, and for the opportunity to 
provide testimony to you. I shall be pleased to work with you and help 
in any way that I can.

                                <all>

</pre></body></html>
